<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                        AGENCIES APPROPRIATIONS

                      CHET EDWARDS, Texas, Chairman
 SAM FARR, California               ZACH WAMP, Tennessee
 JOHN T. SALAZAR, Colorado          ANDER CRENSHAW, Florida
 PETER J. VISCLOSKY, Indiana        C. W. BILL YOUNG, Florida
 DAVID E. PRICE, North Carolina     JOHN CARTER, Texas
 PATRICK J. KENNEDY, Rhode Island   
 ALLEN BOYD, Florida
 SANFORD D. BISHOP, Jr., Georgia    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
     Tim Peterson, Sue Quantius, Walter Hearne, and Mary C. Arnold,
                           Subcommittee Staff
                                ________
                                
                                 PART 7
                                                                   Page
 American Battle Monuments Commission.............................    1
 United States Court of Appeals for Veterans Claims...............   25
 Arlington National Cemetery......................................   43
 Armed Forces Retirement Home.....................................   61
 Veterans Affairs.................................................   79
 Navy and Marine Corps Budget.....................................  151
 European Command.................................................  197
 BRAC.............................................................  287
 Central Command..................................................  409
 Air Force Budget.................................................  497
 DoD Overview.....................................................  531
 VA Mental Health.................................................  647
 Testimony of Outside Witnesses...................................  723
 Pacific Command..................................................  925
 Army Budget......................................................  985
 Quality of Life.................................................. 1069
                                ________
                                
         Printed for the use of the Committee on Appropriations
         
         
 

     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                        AGENCIES APPROPRIATIONS
                      CHET EDWARDS, Texas, Chairman
 SAM FARR, California               ZACH WAMP, Tennessee
 JOHN T. SALAZAR, Colorado          ANDER CRENSHAW, Florida
 PETER J. VISCLOSKY, Indiana        C. W. BILL YOUNG, Florida
 DAVID E. PRICE, North Carolina     JOHN CARTER, Texas
 PATRICK J. KENNEDY, Rhode Island    
 ALLEN BOYD, Florida
 SANFORD D. BISHOP, Jr., Georgia    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
     Tim Peterson, Sue Quantius, Walter Hearne, and Mary C. Arnold,
                           Subcommittee Staff
                                ________
                                
                                 PART 7
                                                                   Page
 American Battle Monuments Commission.............................    1
 United States Court of Appeals for Veterans Claims...............   25
 Arlington National Cemetery......................................   43
 Armed Forces Retirement Home.....................................   61
 Veterans Affairs.................................................   79
 Navy and Marine Corps Budget.....................................  151
 European Command.................................................  197
 BRAC.............................................................  287
 Central Command..................................................  409
 Air Force Budget.................................................  497
 DoD Overview.....................................................  531
 VA Mental Health.................................................  647
 Testimony of Outside Witnesses...................................  723
 Pacific Command..................................................  925
 Army Budget......................................................  985
 Quality of Life.................................................. 1069
                                ________
                                
                     U.S. GOVERNMENT PRINTING OFFICE
 56-870                     WASHINGTON : 2010





                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington              JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia          C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                       HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana              FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                  JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                RODNEY P. FRELINGHUYSEN, New 
 ROSA L. DeLAURO, Connecticut             Jersey
 JAMES P. MORAN, Virginia                 TODD TIAHRT, Kansas   
 JOHN W. OLVER, Massachusetts             ZACH WAMP, Tennessee  
 ED PASTOR, Arizona                       TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina           ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                      JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island         KAY GRANGER, Texas  
 MAURICE D. HINCHEY, New York             MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California        JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                     MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois          ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan          DENNIS R. REHBERG, Montana     
 ALLEN BOYD, Florida                      JOHN R. CARTER, Texas  
 CHAKA FATTAH, Pennsylvania               RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey            KEN CALVERT, California  
 SANFORD D. BISHOP, Jr., Georgia          JO BONNER, Alabama   
 MARION BERRY, Arkansas                   STEVEN C. LaTOURETTE, Ohio  
 BARBARA LEE, California                  TOM COLE, Oklahoma
 ADAM SCHIFF, California              
 MICHAEL HONDA, California             
 BETTY McCOLLUM, Minnesota              
 STEVE ISRAEL, New York                
 TIM RYAN, Ohio                      
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland  
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida        
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    
                                    
                     Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2000

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                      Wednesday, February 10, 1999.

                           STREETCAR PROJECTS

                                WITNESS

HON. BOB LIVINGSTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA

                              Introduction

    Mr. Wolf [presiding]. Good morning. I want to welcome 
everyone to the first of eight hearings on the fiscal year 2000 
budget request for the Department of Transportation and related 
agencies.
    But before we start I would like to introduce the new 
members of the subcommittee. Once a group of 15 members; we now 
total 17. We will have several new faces with us, including the 
first woman to serve on the subcommittee.
    There are so many of us in fact that it is going to be a 
little tight if everyone shows up to all the meetings.
    First, I want to welcome the returning members of the 
committee. They include Mr. DeLay, Mr. Regula, Mr. Packard, Mr. 
Callahan, Mr. Tiahrt, Mr. Aderholt, Mr. Olver, Mr. Pastor; and 
Mr. Sabo returns as the subcommittee is ranking minority 
member.
    We have had a close working relationship over the past 2 
years, and I know without doubt it will be the same for this 
Congress. If we worked well last Congress, I think we will work 
well here.
    On the Republican side of the aisle, the subcommittee 
welcomes Ms. Kay Granger from Fort Worth, Texas. Congresswoman 
Granger over the past few years has worked closely with the 
subcommittee, particularly on the issue related to the Dallas-
Fort Worth Airport which is located in her district. She joins 
us from the Transportation and Infrastructure Committee.
    On the Democratic side of the aisle, we are pleased to 
welcome Ms. Carolyn Kilpatrick, Mr. Jose Serrano, and Mr. James 
Clyburn.
    Ms. Kilpatrick is from Detroit, Michigan and is a new 
member of the Committee on Appropriations. Her past experience 
as chairperson of the Appropriations Committee on 
Transportation in Michigan will certainly be a big help to all 
of us.
    Mr. Jose Serrano from the South Bronx in New York City is 
also the ranking minority member on the Commerce, Justice and 
State Appropriations Subcommittee, and is a regular Amtrak 
rider. He knows first hand the need for dependable, reliable 
service in the northeast corridor, and also the need for 
transit service in major metropolitan areas.
    And lastly, Mr. James Clyburn. And Mr. Clyburn hails from 
Columbia, South Carolina, and like Ms. Granger, was also on the 
Transportation and Infrastructure Committee.


                            hearing schedule


    Today we are here to receive testimony from Members of 
Congress and public witnesses. Our hearings continue on 
February 23 when the subcommittee will conduct a hearing on 
surface transportation safety, particularly dealing with truck 
safety.
    Our hearings are expected to conclude on March 18. For 
those individuals who have not seen the subcommittee hearing 
schedule, a complete schedule is available on the desk out 
front, as well as on the committee's website.
    Again, this year we have a significant number of requests 
to testify before the subcommittee. Because of time constraints 
several members and other public witnesses have agreed to 
submit their testimony for the record. They will be included in 
the public record, and anything received by the subcommittee 
will be accepted without prejudice. They are due by March 26.

                            Opening Remarks

    We have a full schedule. Each witness has been accorded 
five minutes. A number of people have airplanes to catch, and 
different things like that.
    Before I recognize Mr. Sabo for his comments, let me just 
say, I did not know that Bob Livingston was going to testify 
today. And Bob will be leaving us. And I would have actually 
prepared something in depth to tell you how much I appreciate 
your friendship and the outstanding job that you have done 
here.
    I think it is a real loss that you are going to be leaving 
us. I keep reading your name in the paper of going to different 
groups downtown. But I just want you to know that I appreciate 
your friendship, and I appreciate your service. But you know 
from the bottom of my heart, Bob, I think you are a good guy, 
and I just want you to know that I appreciate everything.
    Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman. It seems strange to be 
at a committee hearing again, but here we are, and look forward 
to the schedule and working with you again.
    I see our colleagues here, our good friend, Bob Livingston; 
we wish you well; our first baseman, Mr. Jefferson; aspiring 
governor. And we are looking forward to hearing from both of 
you. Let's get on with it.
    Mr. Wolf. Mr. Serrano, we just introduced you, but if you 
want to----
    Mr. Serrano. Well, thank you for the introduction----
    [Laughter.]
                                      Wednesday, February 10, 1999.

                       LOUISIANA TRANSIT PROJECTS

                               WITNESSES

HON. BOB LIVINGSTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
HON. WILLIAM J. JEFFERSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF LOUISIANA
ROBERT H. TUCKER, JR., CHAIRMAN, REGIONAL TRANSIT AUTHORITY BOARD OF 
    COMMISSIONERS
PATRICK R. JUDGE, PRESIDENT, LOUISIANA PUBLIC TRANSIT ASSOCIATION
    Mr. Wolf. The first witness will be the Honorable Bob 
Livingston; the Honorable William J. Jefferson; and Mr. Robert 
Tucker, Chairman of the Regional Transit Authority Board of 
Commissioners; and Patrick R. Judge, President of the Louisiana 
Public Transit Association.
    Mr. Livingston. Thank you, Mr. Chairman. I am delighted to 
be here with you, and thank you for those very nice words. And 
thank you, my good friend and ranking member, Marty Sabo. And 
to the other members of the subcommittee, welcome, good 
friends, all.
    This may well be my last opportunity to testify before a 
subcommittee as a Member of Congress and member of the 
Appropriations Committee, so I appreciate this unique 
opportunity, and look forward to my next opportunity when I 
will wear a somewhat different hat, which should be an exciting 
opportunity indeed.
    I just have a few written remarks which I would like to 
indulge in. I do appreciate the opportunity to be here. And by 
the way, subways are nice, but streetcars are better. 
[Laughter.]
    But we are all pleased to be here. I want to thank the 
excellent subcommittee staff and the staff assistants to the 
subcommittee members on both sides of the aisle for their hard 
work, dedication, and kindness that they provided me over the 
last 4 years as chairman, and even before that as minority 
member of the Appropriations Committee.
    I would like to give special thanks to John Blazey, 
Stephanie Gupta, Linda Muir, Rich Efford, Cheryl Smith; all of 
whom have just been wonderful to us over the years, and have 
helped us invaluably.
    Also, thanks to my dear friend and colleague, Bill 
Jefferson, who is now embarking on another venture of his own. 
I have been there and done that----
    [Laughter.]
    And I wish him more success than I had. But it has been a 
great pleasure to work with him over the years, and I wish him 
well wherever life takes him. He has been a leader in gaining 
support for the annual request made to this subcommittee by the 
Regional Transit Authority, and it has just been a real treat 
to work with him on these very important issues.
    These issues have been headed up by the two gentlemen that 
accompany us here at the table; my good friends Bob Tucker and 
Pat Judge, who have made the programs that this subcommittee 
has funded a success over these many years. They have led the 
way in bringing about new ways to achieve cost savings and 
innovative financing for both the Canal Street Streetcar in New 
Orleans, and bus modernization projects for that great city.
    Pat Judge deserves very special praise for all the 
excellent manner he has displayed over the years in dealing 
with this subcommittee and the congressional offices. He has 
always been a straight-shooting, honest broker who has dealt 
fairly with everyone in bipartisan fashion. And Bob Tucker has 
done a great job as the leader of the RTA. He is a terrific 
representative in the city of New Orleans, and was a great 
public servant, and continues to be a great private servant in 
so many ways.
    Finally, thanks to all of my colleagues on the subcommittee 
for these projects over the years. As I have said earlier, 
these streetcar and bus programs that you funded in New Orleans 
have been managed well, and they are doing great things for the 
people of the city. And I am very proud of what we have 
accomplished together over the years in fostering these 
projects.
    With the Canal Street Streetcar Project we will be solving 
long-time traffic congestion problems right in the heart of the 
City of New Orleans by providing access to all citizens to a 
downtown area that needs continued revitalization, and with the 
Desire Streetcar Project you will be providing service to low-
income historic neighborhoods that no longer have regular 
transit service to the business areas of the city. And this 
line would directly connect those neighborhoods and the 
business section of New Orleans with two major defense 
facilities that currently provide employment opportunities for 
thousands of low- and middle-income residents.
    So, Mr. Chairman, you and the members of this subcommittee 
are doing enormous and great good for the cities of this 
country, and we appreciate your efforts. And I just want to say 
that it has been a personal privilege and honor to serve with 
you, and with all the members over these last 21 and a half 
years. And I thank you for your friendship, and look forward to 
continuing that friendship in new and wondrous ways. Thank you.
    Mr. Wolf. Well, thank you, Bob. As I said before the 
members came in, I did not know that Bob was testifying today, 
or I would have probably had a more eloquent statement to make.
    But again, in closing, before I recognize Mr. Jefferson; 
one, I think New Orleans will miss you clearly. I think the 
House will miss you, members on both sides. I personally will; 
I consider you a good friend.
    I think history will treat you very, very well. And lastly, 
it will be my prediction and hope that someday you would return 
and serve in a Republican administration, whether in the area--
you have great expertise in the area of international affairs, 
your time in foreign operations, and different things like 
that. So I just would hope, and I would almost expect and 
predict that there will be an opportunity for you to come back 
and serve in that capacity, in an appointive capacity. So, God 
bless you.
    Mr. Livingston. Thank you
    Mr. Wolf. And I wish you very well.
    Mr. Livingston. Thank you very much.
    Mr. Wolf. Mr. Jefferson.
    Mr. Jefferson. Thank you, Mr. Chairman. And Mr. Sabo, I 
appreciate you reconfirming my position at first base when you 
spoke this morning. I have lots of competition. It is good to 
hear that you still have me as first on the depth chart. Thank 
you, sir.
    And to the other members of the committee, it is a pleasure 
to be here, and to bring again this year, the very fine 
leadership of our Regional Transit Authority back home.
    As you have said, Mr. Chairman, had I known that Bob would 
be here, I would have written a better speech as well. Because 
he has done tremendous things for us in New Orleans.
    I happen to not only be one who is a member of a delegation 
with him, the one who chairs a city with him in a 
representational sense, and that he and I have had to work over 
the years on many important things, and we work very well on 
these things. And he of course has led the effort to make so 
many things possible in the City of New Orleans, and we are 
going to miss him.
    I have told him this in every forum. He is probably tired 
of hearing it by now. But it is the absolute truth, and he has 
been a wonderful friend. And I will miss his leadership and his 
support of our city. And I hope that we will continue to work 
together, Bob, in your other endeavors, as they may be. And I 
wish you great success in all of them.
    Chairman Wolf and members of the Subcommittee, thank you 
for allowing me the opportunity to appear before you today to 
express my support for the appropriations requested by the New 
Orleans Regional Transit Authority. I respectfully request that 
your subcommittee recommend continued funding for both the 
Canal Street and Desire Street Streetcar restoration projects.
    At the same time we are requesting continued funding for 
the RTA's innovative Bus Lease Maintenance Program, and urge 
the subcommittee to fund the transit operations programs to the 
highest level possible under TEA-21. Our--THM--and Robert 
Tucker will provide a detailed explanation of the RTA request 
in his testimony.
    These projects and programs are important to our city 
because my constituents in the second district of Louisiana and 
the metropolitan area of New Orleans are 20 percent transit-
dependent. And the 180,000 daily transit commuters served by 
the transit system are among the largest in the country.
    The Canal Street and Desire Street projects are vital for a 
number of reasons. Both projects will increase the efficiency 
and reduced travel time by moving existing bus lines from 
congested transit corridors. As a result, the environmental 
impact statement for the Canal Street Project predicts a 20 
percent increase in ridership over the 18,000 daily commuters 
utilizing bus service along this major corridor that serves 70 
percent of RTA bus transit lines, as well as 7 suburban transit 
lines. In addition, when completed and in operation, the new 
streetcar lines will improve the air quality by eliminating 
hydrocarbon exhaust from the atmosphere.
    While my brief testimony focuses on the importance of these 
appropriations requests for my district, these RTA projects and 
programs set important examples and precedents for other 
transit operations across the country.
    First, the RTA has to make two strategic decisions that 
will reduce the overall cost and scope of the Canal Street and 
Desire Street projects.
    For example, use rail gauge common to the historic St. 
Charles streetcar line will allow the RTA utilize existing 
Carrollton Streetcar facility for the heavy-duty maintenance 
required by the Canal, Desire, and Riverfront streetcar lines.
    Also, the decision to manufacture and assemble the 
streetcars in New Orleans, where RTA craftsmen recently built 
seven streetcars for the Riverfront line, is expected to save 
approximately $400,000 to $600,000 in cost per vehicle, and 
provide jobs in our community.
    Finally, as a member of the Ways and Means Committee, I am 
particularly proud of the innovative lease management 
initiative, which the RTA has developed for 75 new and 100 near 
new transit buses.
    The Landmark Lease Maintenance program between the RTA and 
Penske Truck Leasing takes advantage of recent tax code changes 
that allow maintenance cost to be considered as eligible 
capital expenses. This program I believe is a model for the 
Nation.
    As a result, the RTA has substantially lowered its 
maintenance, operating costs, and enhanced its ability to 
provide dependable service to the nearly 180,000 per day 
transit commuters in the New Orleans area.
    In conclusion, I commend the RTA's creative efforts to 
provide reliable and affordable public transit, and I thank 
this committee for its previous consideration of our request, 
and ask it to fully fund this year's RTA's transit request as 
well. Thank you very much. I will submit the rest of my 
testimony as written.
    [The prepared statement of the Hon. Jefferson follows:]
    Offset folios 18 to 20 insert here

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Tucker. Thank you, Chairman Wolf and members of the 
committee. Let me simply state that I am going to submit for 
the record my testimony, and will only try and summarize this 
morning our particular request.
    Let me first of all begin by thanking the committee, Mr. 
Chairman, for this opportunity to appear on behalf of the 
Regional Transit Authority of both--and Jefferson parishes.
    I also want to extend my sincerest appreciation on behalf 
of the RTA and to the members of the committee for the support 
that you demonstrated towards our request in the last FY.
    We were able to bring down, with your help, $8 million for 
the buses and facilities; another $11 million total--inside of 
that the $8 million for the bus appropriations--and also $22 
million for the Canal Streetcar that you have heard so much 
about; $2 million for the Desire Streetcar which we are hoping 
to bring back in New Orleans.
    So we are particularly grateful for your support. What we 
are asking here is continuation funding.
    Let me, just if I may, Mr. Chairman, spend the next few 
minutes of my testimony thanking our good friend and my 
personal friend Bob Livingston for his 22 years of 
congressional service on behalf of the people of Louisiana.
    With his help RTA has been able to upgrade its fleet from 
an average age of over 12 years to one of the most modern in 
the Nation. This progress not only gave the RTA the ability to 
provide dependable and safe service, but also allowed the RA to 
do a better job of protecting the taxpayer's investment by 
reducing maintenance cost.
    We in New Orleans, home of the 2002 Super Bowl, we will 
always hold, Mr. Chairman and members of the committee, a 
special place in our hearts for Congressman Bob Livingston. His 
avid support of the return of the streetcars to--the historic 
streetcars, if I might.
    We operate the oldest operating streetcar in the world, in 
New Orleans, the famous St. Charles streetcar, which at one 
time was pulled by actual horseback and mules.
    But for Congressman Livingston, we love our streetcars; we 
want them to come back. Almost single-handed he has been able 
to become the catalyst for seeing our dreams in New Orleans, in 
which Jefferson parish come through.
    He has provided the stimulus and the catalytic drive for 
making it happen. From his days as a member of the 
Appropriations Committee, both in the minority and in the 
majority. And as chairman of the committee, and to the floor of 
the House, and on to the Conference Committee, Congressman 
Livingston has proven himself to be a steady and true friend.
    All of this effort on behalf of projects, only partially in 
his district, Congressman Livingston is, and always will be a 
statesman for our State. His work and efforts never looked at 
political boundaries, but at what he could get done, and what 
was necessary to achieve the job.
    So it is with great pride and much reluctance as we prepare 
for him to leave this great institution which he holds so dear. 
We truly wish him well in his future career. We hope that he 
remembers all of the good that he has left behind him here in 
Washington, and more particularly, in our great State of 
Louisiana.
    We look forward in the same way of working with Congressman 
Jefferson to finish the job that Congressman Livingston started 
on our behalf with this committee. Even though Congressman 
Jefferson did not sit on the committee, I am sure that he is 
certainly capable in working with you. He continues the long 
line of Louisiana congressional leaders, such as the names of 
Bob Livingston, and Boggs. We are grateful for his assistance 
and leadership.
    In summary, we're asking for continuation funding in Fiscal 
Year 2000 for $91 million for the Canal Streetcar; $24 million 
for the Lease Maintenance Program; $39 million for the return 
of the Desire Streetcar.
    Just a couple of points, and I will conclude on those three 
particular pieces. The total value of the streetcar project in 
New Orleans, including the proposed spur to the New Orleans 
Museum of Art, is approximately $181 million. To date, Congress 
has appropriated, with your help, $54.5 million toward that 
project.
    Allow me to point out as both Congressman Livingston and 
Congressman Jefferson have alluded to the fact that the 
assemblage of these streetcars will be in New Orleans by RTA 
technicians. The streetcar as a result, the cost, will 
represent a savings of some $400,000 to $600,000 per vehicle.
    The Lease Maintenance Program that we have initiated, we 
are seeking $24 million for 3 years of payments in that 
innovative initiative. This program allows us to enter into a 
lease and maintenance agreement with the Commercial leasing 
company for the lease and maintenance of 75 new buses and 100 
near new buses.
    With a total of 446 vehicles operating inside of our 
transit fleet, the RTA operates the largest system in 
Louisiana, providing service to nearly 180,000 riders per day.
    With respect, Mr. Chairman and members of the committee, to 
the Desire Streetcar, we are hoping to try and bring up the 
famous Streetcar Named Desire, that I think we remember from 
the days of both the play and the movie.
    This particular streetcar, in addition to consolidating and 
allowing us to bring a consolidated fleet, and put that in 
place, it will also provide service to the two major defense 
facilities; the U.S. Coast Guard Support Center and the--
ABEAR--Defense Complex, both of these projects, which 
Congressman Livingston has enthusiastically supported endorsing 
and work for.
    In conclusion, Mr. Chairman, we at the Regional Transit 
Authority request your support at the highest levels for those 
projects that we have enumerated. We again want to express our 
appreciation to you, Mr. Chairman, and to the members of the 
committee, for your support in the past. And thank you, and I 
will be happy to entertain any questions you may have.
    [The prepared statement of Robert Tucker follows:]
    INSERT Offset Folios 27 thru 39 HERE

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Judge. Mr. Chairman, members of the committee, thank 
you for the opportunity to appear before you on behalf of the 
Transit Providers of Louisiana. I am representing Louisiana 
Public Transit Association. I also work for RTA.
    But anyway, the LPT is very grateful for the support that 
the committee has shown over the past few years. We will be 
submitting a formalized and final report by the March 26th 
deadline. But right now I would like to just take a minute, and 
we look forward to working with Congressman, or Governor 
Jefferson, which ever, in the next few months, as we take our 
request forward.
    As LPTA president, and in particularly on behalf of myself, 
I would like to express our sincere appreciation to Congressman 
Bob Livingston and his staff as they all embark on a new 
career.
    Congressman Livingston's 22 years of steady, respected, and 
effective public service to the State proved that Louisiana did 
not always deserve its perception as a political backwater. He 
served in Congress with honor, and brought great pride to those 
of us who know him. The entire State was well served by the 
Congressman's tenure, and we will sorely miss his leadership.
    As someone who met the congressman in a former life as a 
maritime representative, I would like to borrow a few seagoing 
affirmations as he gets ready to leave; and that is to wish the 
congressman Godspeed, and may the wind always be at your back. 
And finally, hopefully we will see you in another port in the 
near future. Thank you.
    [The prepared statement of Patrick Judge follows:]
    INSERT Offset Folios 43 thru 54 HERE

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Clyburn. Mr. Chairman, if I may, I want to say to Bob 
Livingston how much I have enjoyed his guidance. We do share a 
little bit in common as chief of staff, having gotten his best 
training in South Carolina. But I would say, Mr. Chairman, I 
would like to see you back here, but I would rather it be as a 
Republican in the Democratic administration. [Laughter.]
    Mr. Rogers. Some of us cannot pass up the opportunity to 
say thank you to Bob Livingston for his service to his country, 
and of course to the great State of Louisiana.
    You have detailed some of the accomplishments of Bob 
Livingston in the City of New Orleans. But some of us could 
testify about what he has done for the balance of the State, 
and for the country for that matter. But he has been a great 
spokesman for your State. I don't know any better spokesman 
that could be had, because he has been a workhorse in helping 
Louisianians achieve their ambitions.
    And as you have testified to some of the work that he has 
helped you do in the city, of course there are hundreds, 
literally thousands I guess of projects and things that he has 
done in the balance of the State. And we will certainly miss 
his hard work up here on his behalf.
    But as our chairman as said, I think we will see this ship 
sail again. Thank you, Bob.
    Mr. Wolf. Mr. Weller and Mr. Gutierrez, please.
                              ----------                              

                                      Wednesday, February 10, 1999.

                                 METRA


                                WITNESS

HON. JERRY WELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Weller. Well, thank you, Mr. Chairman, and I appreciate 
very much the opportunity to testify before you, and Mr. Sabo, 
and members of the Transportation Appropriations Committee on 
behalf of the people in the Chicago area, and the millions of 
those served by mass transit, particularly Metra.
    Before I testify I would like to acknowledge an old friend, 
and a classmate, someone I was elected with, and we both had 
the privilege when we were elected, of representing part of the 
great city of Chicago, and that's Michael Patrick Flanagan, 
former member of the House, who has been called upon by the 
great mayor of Chicago, Richard Daley, to represent the CTA, 
the Chicago Transit Authority, and he is doing a great job.
    Mr. Wolf. I thought he was going to be a judge? [Laughter.]
    Mr. Weller. He would make a great judge.
    Mr. Wolf. I will be impressed when they appoint him as a 
judge. [Laughter.]
    Mr. Weller. I think he would make a great judge, Mr. 
Chairman.
    If I may, I would like to submit my full testimony for the 
record, and I would like to summarize if I could, Mr. Chairman.
    Metra of course serves 7 and a half million residents of 
the Chicago metropolitan area. Of course, Metra is the second 
largest commuter rail system in the Nation. I am here today to 
submit a request on behalf of Metra for $52,380,000 for this 
coming fiscal year, for the final design work, and to begin 
construction on important regional transportation extensions in 
the Chicago metropolitan area.
    I think as we all recognize, mass transit contributes to 
improving the environment, reducing traffic congestion, and is 
an important investment as we move into the 21st century.
    The funding that I am requesting today, Mr. Chairman and 
members of the subcommittee, will serve three extensions; serve 
an extension which would move through the southwest suburbs and 
reaching out into the district that I had the privilege of 
representing; the north central service upgrade which would 
service the northwest suburbs represented by a member of your 
committee, Representative Porter; and the extension of the 
Union Pacific Westline Expansion, which reaches into the 
Speaker of the House's district, Mr. Hastert's district.
    In the district that I represent, the southwest service 
extension will of course be upgraded and expanded by expanding 
tracks 11 miles to the village of Manhattan in Will County, 
southwest of Joliet. This expansion to Manhattan is expected to 
more than double the current ridership of metro by the Year 
2010 to 16,000, almost 17,000 boardings.
    Additionally, Southwest Service Extension will allow for 
future of expansion of Metra to the Joliet arsenal, a former 
military facility, which I believe is one of the Congress' most 
important accomplishments, serving the people of Illinois, 
where we redeveloped the 24,000-acre Joliet arsenal for 
conservation, creating a 19,000-acre--tall grass--largest 
conservation area of its kind; the second largest national 
cemetery, the Abraham Lincoln National Cemetery; and 3,000 
acres for industrial development expected to employ 15,000 
people, replacing the job loss at Joliet arsenal.
    The bottom line is, of course, this extension will help to 
revitalize this area and continue Congress' commitment to 
peacetime conversion of military facilities.
    I would note that this subcommittee in the past couple 
years has invested $5 million in this project already, so I am 
asking you to continue your investment in this effort to 
improve mass transit services for the people of Chicago 
metropolitan region.
    Mr. Chairman, I ask that this subcommittee give full 
consideration. We ask for your help in moving forward on this 
important project for the Chicago region. So thank you, and I 
would be happy to answer any questions, Mr. Chairman.
    Mr. Wolf. Thank you Mr. Weller. Mr. Gutierrez.
    [The prepared statement of Jerry Weller follows:]
    INSERT Offset Folios 62 thru 64 HERE

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                      Wednesday, February 10, 1999.

                       CHICAGO TRANSIT AUTHORITY


                                WITNESS

HON. LUIS GUTIERREZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Gutierrez. Thank you, Chairman Wolf, and ranking member 
Sabo, and members of the subcommittee. Thank you for giving me 
the opportunity to appear today as you begin Fiscal Year 2000 
appropriations cycle. I know that you have copies of my 
prepared testimony, and ask that they be submitted for the 
record.
    During the next few minutes I will briefly underscore some 
of the main points that you will find in that text. First, I 
wanted to let you know that I recognize that your job is not an 
easy one. Yes, we have moved from an era of deficits to an era 
of surpluses, but that does not mean that the demands and 
burdens placed on you and other appropriators have disappeared 
overnight. You still face tough decisions.
    So I recognize the magnitude of your task, and I greatly 
appreciate the courtesy that you have extended to me this 
morning.
    As you may recall, the TEA-21 legislation which became law 
last year authorized $315 million for the much needed repairs 
on the elevated rail line, which extends from Chicago's loop 
through the city southwest side, and into the town of Cicero.
    This is known as the Douglas Branch of the Chicago Transit 
Authority's Blue Line. Let me tell you briefly why this line 
needs repair so urgently. Let me also tell you about the people 
who use the Douglas Blue Line.
    Whether you are from Virginia, or Minnesota, or anywhere 
else, you are undoubtedly proud of the people who sent you 
here. In my case I'm proud to represent a diverse district, 
where people work hard often at the lowest wages, and often 
during the small hours of the day or night.
    The communities along the Douglas Branch of the Blue Line--
areas of Pilsen, Little Village, Cicero, and others--are 
working-class neighborhoods. For many the Blue Line is how they 
get to work at the plant for the early shift, or how they 
return from a job bussing tables at a downtown restaurant; how 
they visit a doctor at community health facilities, or at the 
University of Illinois and Chicago Hospital located along the 
route. Whatever their diverse needs, they all need safe, 
reliable, efficient public transit.
    By and large, they do not have a wide range of 
transportation options. Douglas Branch, despite its age and 
current condition, represents their link to the rest of the 
city. The Douglas Branch is more than a century old, much of it 
constructed by 1895.
    As a result of its age and deterioration it is becoming 
increasingly difficult to operate safely and efficiently. 
During the past year service has been cut drastically, with 
weekends and late night service completely eliminated.
    Speeds have been reduced considerably, making commutes 
frustrating and ineffective. CTA has made it clear that a 
thorough repair is necessary to prevent the outright closure of 
the line within the next decade.
    Mr. Chairman and Mr. Sabo, you recall I appealed to you 
last year to make appropriations for the Douglas Branch in your 
FY 1999 budget. Last spring I asked for an appropriation as 
high as $30 million. In the final legislation approved last 
year, you and the Senate--generously appropriated $3 million 
for the CTA, an amount which was to be split for use between 
the Douglas Blue Line and the Ravenswood brown line.
    Although this was a fraction of my original request, I 
recognized your reasons for arriving at the $3 million figure. 
As you and your staff explained, you wanted to ensure that the 
CTA had sufficiently completed the necessary design and 
engineering phases before releasing any larger sums.
    I am confident that before we move too much further into 
Fiscal Year 2000 appropriation cycle, the CTA thinks in larger 
measure to the $1.5 million which you made available last year, 
will indeed have made sufficient progress on the design phase 
enough to warrant an appropriation large enough to allow them 
to move into the actual repair phase.
    Mr. Chairman, you will note that in my prepared testimony I 
made reference to request for a $30 million appropriation for 
Fiscal Year 2000, matching the figure I originally submitted 
last year.
    Mr. Chairman--and this is not in my printed testimony--I 
would like to point out that the CTA now informs me that it is 
prepared to make use of as much as $77 million if such funds 
were to be made available.
    I believe that this large figure is warranted, given the 
information provided to me by the CTA, given the total 
authorization of $315 million as called for in TEA-21 
legislation, and given that this represents the second 
appropriation cycle during the schedule duration of the 
authorizing legislation.
    Mr. Chairman, Ranking Member Sabo, let me know what steps I 
can take to make your job easier. Should you require further 
material, plans, data, please let me know.
    I should also give you a fair warning. I might try to 
remind you about this matter at other points over the next few 
months. If you see me in the hallway or on the House floor, it 
is a good chance I am going to ask you how we are doing on the 
Blue Line. I just wanted to let everybody know in advance.
    Before I conclude, let me add very briefly that I also wish 
to advocate on behalf of mass transit in all parts of the 
country, I remain concerned by the disparity between Federal 
funds spent on highway transportation and the figure spent on 
mass transit.
    About a year ago several of my colleagues joined me in 
urging the administration and congressional leaders to reverse 
this inequity. I know that progress has been made in this area, 
and I urge this subcommittee to continue those efforts.
    Thank you again, Mr. Chairman and Ranking Member Sabo for 
this opportunity for letting me add my 2 cents, even though my 
request adds up to a lot more than that. As I said, I know that 
the task in front of you is a difficult one, and I know that 
you will approach it in a manner that is fair to all members. I 
look forward to working with you on these matters.
    And let me just add to my colleague, Mr. Weller, I am very 
happy to see that Mr. Flanagan is working here with us. And in 
a bipartisan spirit, anything that Mr. Weller decides for his 
political future, I will echo those sentiments on the 
Democratic side from the City of Chicago.
    Mr. Wolf. Thank you very much.
    Mr. Sabo. Mr. Rogers.
    [The prepared statement of Luis Gutierrez follows:]
    Offset Folios 71 to 74 Insert here

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                      Wednesday, February 10, 1999.

                        SOUND TRANSIT AUTHORITY


                               WITNESSES

HON. NORM DICKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
PAUL MILLER, CHAIR OF THE BOARD, CENTRAL PUGET SOUND REGIONAL TRANSIT 
    AUTHORITY
DAVE EARLING, VICE CHAIR, CENTRAL PUGET SOUND REGIONAL TRANSIT 
    AUTHORITY, EDMONDS CITY COUNCIL MEMBER AND BOARDMEMBER, COMMUNITY 
    TRANSIT OF SNOHOMISH COUNTY
    Mr. Wolf. We had announced earlier that it would be helpful 
if you could keep it within, we are kind of----
    Mr. Dicks. We are going to keep this within the 10 minutes, 
Mr. Chairman.
    First of all, I want to thank Chairman Wolf and Ranking 
Member Martin Sabo, and the members of the Transportation 
Subcommittee for inviting us to testify here today.
    First of all, I want to thank the chairman of the 
subcommittee for the past support of the Sound Transit Project. 
I also want to thank the chairman for sending out two of his 
staffers to see our project last August.
    Sound Transit is a 10-year voter-approved project that will 
link together the Puget Sound region with a system of commuter 
and light rail express buses and HOV lanes. As you know, our 
region is consistently rated in the top five as having some of 
the worst congestion in the country, and the voters decided to 
tax themselves to alleviate this problem. In fact, a local 
contribution to this project as I understand it is 
approximately 80 percent. It is one of the highest of any 
ongoing project in the country.
    Our funding request for Fiscal Year 2000 is large, but 
Sound Transit is a deserving project. I want to introduce Paul 
Miller, chairman of the Sound Transit Board and Tacoma City 
Council member. He will provide further details about the 
commuter and light rail portions of our request.
    Then Congressman Jay Inslee will introduce Dave Earling, 
who will testify on the bus portion of our combined request. 
Thank you, and I look forward to working with all of you on 
this project of national importance.
    Paul Miller.
    Mr. Miller. Thank you, Mr. Chairman and members of the 
subcommittee. I am Paul Miller, chair of the board of the 
Central Puget Sound Regional Transit Authority, also known as 
Sound Transit. With me as was mentioned is Dave Earling, our 
vice chair, and also Bob White, our executive director is here.
    I am also pleased that Al Jackson of the Boeing Company and 
Julie Inman of the Microsoft Corporation, has joined us today 
to show the support of their companies for our proposal.
    We appreciate the opportunity to testify before you today 
about our progress in addressing the mobility problems of the 
Central Puget Sound Region, and the assistance we need from the 
Federal New Starts Program in Fiscal Year 2000 to advance our 
effort.
    We have testified before you in prior years about our 10-
year Sound Move Plan, which will increase the capacity of our 
region's transportation system through a mix of light rail, 
commuter rail, high occupancy vehicle, expressways, regional 
express bus routes, and community connections.
    Our region is frequently ranked as one of the most 
congested in the Nation. The implementation of our Sound Move 
Plan is critically important to keeping people and goods moving 
so that our economy, which plays a vital role in our Nation's 
economy, can remain healthy.
    Washington State is the most trade-oriented State in the 
country, in Western Washington. It is home to many world-class 
corporations, including the Boeing Company, Microsoft, 
Weyerhaeuser, Price-Costco, Nordstroms, and Starbucks, just to 
name a few. Improving our region's mobility helps all of these 
companies compete in the national and international 
marketplace.
    I am pleased to report to you today that Sound Transit is 
moving ahead on schedule and on budget to achieve our goals. 
This month our board will select a locally preferred 
alternative for our 24-mile central link light rail line. We 
will issue a final EIS late this summer, and will be ready to 
negotiate a full funding grant agreement with FTA on this line 
later this year.
    With a projected 125,000 riders per day when it opens, and 
one of the highest local match rates in the Nation, we believe 
that our central link line ranks among the most cost effective 
New Starts in the country.
    This spring we will begin stationing construction on our 
40-mile Seattle Tacoma Sounder commuter rail line, and we will 
initiate service on this line in December of this year.
    Our regional express bus project will be addressed in the 
joint testimony by Mr. Earling. Let's suffice it to say that we 
have already begun regional express bus service on two lines. 
We will add eight more routes this September, and when fully 
implemented we will operate 17 express bus routes. High demand 
for this service is shown by the 30 percent ridership increase 
we have experienced in just the last year on one of our routes.
    For Fiscal Year 2000 we are seeking $74 million for our 
Sounder Commuter Rail Project and $69 million for our Link 
Light Rail Project from Section 5309 New Starts funds, in 
addition to our portion of the--regional request for funding 
from the bus and bus facilities.
    The light rail funding will be used for the capital costs 
associated with completing preliminary engineering beginning 
final design on our central link line. The commuter rail funds 
will help fund the 38 passenger rail cars and six locomotives 
we are procuring.
    We appreciate the support that this subcommittee has given 
in the past. We believe you have made a wise investment. We are 
also pleased that John Blazey and Stephanie Gupta of your staff 
were able to be in Seattle to learn more about the work we are 
doing.
    We hope you can continue to give us the assistance we need 
to implement our plans as promptly and efficiently as possible.
    [The prepared statement of Paul Miller follows:]
    Offset Folios 82 to 85 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Inslee. Mr. Chair and Ranking Member Sabo, thank you. 
It is very good to be back before your committee. And I would 
just like to make two brief points about this project.
    Point number one. The people of Puget Sound, by their own 
decision and own vote, have decided to take on the bulk of the 
responsibility financially for this project. And to my 
knowledge, this project with the folks in Puget Sound have 
bellied up to the bar and taken responsibility for 80 percent 
of this project. To my knowledge, that is the greatest portion 
of responsibility of any local community in this country that 
you are considering.
    So when a community, it seems to me--if this committee 
wants to reward those who want to take responsibility for their 
own projects, I think this project is designed for this 
committee, because the people of Puget Sound have not just come 
to the Federal Government, they have come to the bar themselves 
and have been responsible.
    Second point. I think the time is coming when we are going 
to have make sure we coordinate transportation policy with land 
use policy. And one thing I will tell you about Puget Sound, 
this is an area in the country that is as progressive as any 
part of the Nation in coordinating its land use policy with its 
transportation policy.
    They have really adopted a concept of smart growth in the 
Puget Sound area. And if we want to reward that concept of 
doing land use policy with transportation, I think this project 
is built for this committee.
    For those two reasons, Puget Sound has taken responsibility 
and we have a livable community system up and running, I would 
ask you to fully fund the $143 million in New Starts as well as 
the transit projects.
    Now I would like to introduce Dave Earling, Edmond City 
Council, who will discuss the coordinated bus request for King, 
Snohomish, and Pierce Counties.
    [The prepared statement of the Hon. Jay Inslee follows:]
    Offset Folios 89 to 91 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Earling. Thank you, Mr. Inslee.
    Mr. Chairman and members of the subcommittee, I am Dave 
Earling, a city councilmember from the City of Edmonds, 
Washington. I am also the chair of the Board of Directors of 
Community Transit of Snohomish County and vice chair of the 
Board of Directors of Sound Transit.
    I am joined here today by my colleagues representing other 
transit agencies in our region; Paul Miller from Pierce Transit 
and Sound Transit; Pat Cordova from Community Transit; and 
Frank Anderson from the Everett City Council.
    Also here today are the CEOs from several transit agencies, 
including Joyce Olson from Community Transit; Bob White from 
Sound Transit; and Ken Housden from Everett Transit. Also here 
today is Chris Johnson representing King County Metro.
    We appreciate the opportunity to testify before you today 
about our coordinated bus appropriation package to improve 
mobility for our region. While our agencies are submitting 
separate 5309 bus requests, we develop this coordinated package 
to show you how our projects interrelate.
    I also want to note that our agencies are submitting other 
transportation funding requests for New Starts as an example. 
But this request represents our combined 5309 bus and bus 
facility request.
    Over half of the Washington State population lives within 
our region. We are frequently ranked as one of the most 
congested metropolitan areas in the Nation. Our agencies are 
working together to ensure a coordinated system of services and 
facilities to provide access to and within our region's 
population and employment centers.
    To cite a few examples, we are working together to 
coordinate fares, routes, and schedules. We are collaborating 
on facility locations, and we are developing a one-ticket ride 
as part of our Smart Card Program. Together our efforts are 
creating a seamless system that is much more convenient to use.
    Our coordinated package includes Sound Transit, Everett 
Transit, and Community Transit, seeking a total of 157 buses. 
Sound Transit's request will be used to implement Sound 
Transit's regional express bus services. Community Transit's 
request will allow us to continue critical commuter service to 
the Boeing Company, University of Washington, and other 
employers. Everett Transit buses will provide increased service 
within the Everett urbanized area. Pierce Transit and King 
County Metro are seeking funds for transit operating base 
expansions vital to the support plan for the expansion of 
regional and local bus services in the next few years.
    Places for people to make connections are also essential. 
Thanks to the ongoing support of this committee, the Tacoma 
Dome park and ride station has been a success, yielding a 33 
percent increase in regional bus ridership on the congested I-5 
corridor. We are seeking additional funding for the Tacoma Dome 
Project this year.
    Regional bus commuters also benefit from King County's park 
and ride expansion efforts, which will give us an opportunity 
to provide more ridership to our constituents.
    [The prepared statement of Dave Earling follows:]
    Offset Folios 96 to 99 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Your full statement will appear----
    Mr. Dicks [continuing]. In the record. And thank you very 
much, Mr. Chairman, for your help. We appreciate it.
    Mr. Wolf. Well, thank you.
    Let me just see if there are any questions.
    Mr. Sabo.
    Mr. Sabo. No.
    Mr. Wolf. Mr. Packard. Anybody.
    Thank you for coming. Two points. Dallas also does 80/20, 
but I completely agree. I think the higher the match, the much 
more sympathetic the committee is.
    If you look at the requests that are going to come in--just 
the morning as they begin to come, it goes fast; the higher the 
match, I think the more sympathetic the committee. Thank you 
very much.
    Mr. Earling. Thank you for your time.
    Mr. Wolf. Congresswoman Fowler, Congressman Mica, and Mayor 
Hood.
    Your full statement will appear in the record as read, and 
proceed as you see fit.
                              ----------                              

                                      Wednesday, February 10, 1999.

  MASS TRANSIT STUDIES; DAYTONA INTERMODAL CENTER IN VOLUSIA COUNTY, 
                FLORIDA, AND FTA BUS FACILITIES PROGRAM


                                WITNESS

HON. TILLIE K. FOWLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Ms. Fowler. Thank you, Mr. Chairman. I will try to 
summarize this. And I want to thank you for the opportunity to 
testify before you today regarding several projects of 
importance to the 4th District of Florida.
    The first funding request is $12 million for mass Transit 
Studies in Right-of-Way Acquisition in Jacksonville, Florida. 
The Jacksonville Transportation Authority has developed short 
and long-range plans for the development of a rapid transit 
system.
    Toward that effort the JTA has identified four potential 
transportation corridors. These corridors have also been 
identified in the metropolitan planning organization's long-
range transportation plan for the region. Funding an 
alternative analysis and preliminary engineering is authorized 
by TEA-21.
    The second request is for $5 million under the FTA Bus and 
Bus-Related Facilities Program for the Jacksonville 
Transportation Authority. Of these funds, $2.5 million will be 
used for the purchase of nine new buses. The other $2.5 million 
is for the Regency Transit Hub Station, which is part of the 
JTA's long-range plan for development of many transit centers 
to be located in our fast-growing suburban communities.
    These centers will be designed with park and ride 
facilities, bike amenities, passenger information, and customer 
waiting areas for bus-to-bus transfer, and express commuter 
services.
    My third request is for $2.5 million for the Daytona 
Intermodal Center in Volusia County Florida, and the purchase 
of vehicles to serve that facility. This intermodal center will 
provide working residents and over 8 million annual visitors 
with a centrally located hub that integrates both public and 
private services. The facility will be located in the core 
Daytona Beach redevelopment district, and will be the nucleus 
for a number of private redevelopment projects totaling over 
$150 million.
    Last year the Volusia County MPO adopted a resolution in 
support of the Intermodal Center. Also, the Florida Department 
of Transportation has selected it as an intermodal development 
project, and it has been incorporated into the State's 5-year 
work program.
    Additionally, TEA-21 authorized $2.5 million in Fiscal Year 
1999 and $2.5 million in Fiscal Year 2000 for this important 
project; $2.5 million was appropriated last year by this 
subcommittee, pursuant to this authorization, which we 
certainly appreciate, and would hope we could receive the other 
2.5 this year.
    The fourth and final request is for $1 million for the 
development of intelligent transportation systems in northeast 
Florida.
    The Florida Department of Transportation plans to implement 
a traffic control system on I-95, north of the Fuller Warren 
Bridge, that should be named the Frank Wolf Bridge, as it is 
due to you that we are constructing that bridge, and hopefully 
will be finished in the next couple of years. Funding will be 
used to augment State and local efforts to integrate 
intelligent systems, and to maximize the potential use of 
existing roadways.
    I do want to point out that all these projects have local 
matches, and I have summarized. But I want to thank you for the 
opportunity to testify before you today. And I look forward to 
working with the subcommittee on these important projects. 
Thank you, Mr. Chairman.
    Mr. Wolf. Thank you very much, Ms. Fowler.
    Mr. Mica.
    [The prepared statement of Tillie Fowler follows:]
    Offset Folios 105 to 106 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                        CENTRAL FLORIDA PROJECTS


                               WITNESSES

HON. JOHN MICA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
MAYOR GLENDA HOOD (ORLANDO, FL)
    Mr. Mica. Thank you, Mr. Chairman.
    First, Mr. Chairman, I want to thank you and your staff, 
and other members of the committee, for your support in the 
past for our Central Florida projects. I am back again today to 
request funds for our light rail system; also for our bus 
system, and I am going to let our chairman of our Regional 
Transit Authority detail those requests.
    Let me just say that Central Florida is, like many other 
communities, locked in traffic--gridlock--and I know the 
demands on this committee are tremendous. But I think even the 
Federal Government and Federal Highway Administration have 
identified Central Florida and our light rail project as one of 
the most 10 important--I think 7th in the Nation.
    This project also has great participation of the Federal 
Government, the State government, local government, and the 
private sector--good participation from all levels. And with 
the 43,000 cars we had just last year--new cars in Central 
Florida. We are again drowning in our own traffic problems.
    With those preliminary comments, I am going to yield to our 
chairman of our transit authority, Glenda Hood, who also is the 
mayor of the City of Orlando, and she will make our 
presentation.
    Thank you, Mr. Chairman.
    Ms. Hood. Thank you, Congressman, and good morning, 
Chairman Wolf and members of the committee.
    I am pleased to be here to be able to share a little bit 
more detail, wearing the hat as chairman of our Central Florida 
Regional Transportation Authority. And we are known as Lynx in 
our region, and we serve more than 1.4 million residents in 
Orange, Seminole, and Osceloa counties with a variety of 
services.
    I always appreciate the opportunity to come before you, but 
I want to talk in particular this morning about high priority 
capital projects in Central Florida, and the requests that we 
have. And I want to say the Florida Department of 
Transportation is very strongly in support of these requests as 
well, from a policy and financial standpoint. And I want to 
give you a little bit of background as far as what's transpired 
in the last year since we appeared before you, as far as some 
of the growth, some of the happenings with our transportation 
issues.
    We continue, as Congressman Mica said, to be the fastest-
growing community in America, and with growth of course traffic 
comes. Forty-three thousand vehicles were registered in Central 
Florida this past year alone, so that's an indication of what's 
happening; 40 million tourists have visited our community. And 
that shows you the kind of destination that we are. But that 
means with more and more people we do have more and more 
transportation needs, obviously.
    During the last year we have made some very significant 
strides in responding to our growing transportation needs. In 
February the Florida Department of Transportation supported 
Draft Environmental Impact Study was completed, and the locally 
preferred alternative for 16.3-mile light rail system was 
selected. And that project has been advanced to the final 
impact statement, and the project has been declared 
environmentally to be able to move forward to final design in 
right-of-way acquisition.
    This is only possible because of the support that has been 
provided by Congress, and we truly appreciate that over the 
past three years. And since we last spoke with you, and with 
your continued support of course, we have continued to see 
phenomenal growth with our Lynx Regional Transportation System.
    In 1991 we carried 8.1 million passengers, and with double 
digit ridership growth each year Lynx now will exceed 20 
million annual passengers. So you can see what is happening 
just on our bus side.
    We have also been able to, with your support, add buses, 
and services, enhance our passenger facilities. And as a result 
of our success we have been honored twice in the last 3 years 
as American Public Transit Association's Transportation System 
of the Year; and we feel that this is very significant. But we 
have to maintain that momentum.
    And we are very pleased, as Congressman Mica said, to have 
been selected by the administration as one of the top seven 
projects in the United States for our light rail project. We 
are the only New Start project in that seven. And I think that 
is very significant, and recognizes what our needs are.
    What we are requesting is a total of $110.5 million from 
the Section 3 New Starts Program; $41 million from the Bus And 
Bus Facilities account; and $24 million for intermodal project.
    And I will just briefly touch on these. Our light rail 
project is very unique. I know that you have details of that. 
We are seeking only 55 percent of funding from the Federal 
Government on this light rail project. And the remaining cost 
of the project will come from local sources.
    We have local partners in the form of the State of Florida; 
Orange County Government; our Orange County Convention Center; 
our International Drive business district; City of Orlando; our 
downtown business district. And we have all agreed that we will 
work together as funding partners to move this project forward.
    Further, operations and maintenance costs for the system 
will be paid from farebox revenue, as well as contributions 
from the State of Florida, City of Orlando, and Orange County. 
And a first for any comparable system that we can find, is the 
fact that we also have a private sector funding partner with 
Universal Studios Escape.
    Now this year, by the end of this Fiscal Year 1999, we will 
have taken those '98-99 dollars with obligations toward 
completing our final design; beginning right-of-way 
acquisition; acquiring land for the art and shop; beginning 
utility construction and utility relocation; and ordering our 
vehicles for our light rail system.
    The project is very critical for future transportation 
needs in Central Florida, and I know you recognize that, to 
ensure continued economic growth and development of America's 
favorite destination.
    Transit coaches. We need to purchase 30 new coaches. The 
Federal funding request for this is $9 million. New operating 
facility. We have acquired a 24-acre site. We need to move 
forward with design, engineering, and construction, and those 
funds that we need to be able to allow us to proceed equals $28 
million.
    We need to make sure that we are able to put that 
intermodal station in place. We have regional land use activity 
centers, as we call them, that has been designated as 
intermodal terminals. Lynx in the City of Orlando in fact have 
acquired the downtown Orlando intermodal facility with State 
funds, and we plan to request interest for joint development in 
Fiscal year 1999.
    And the plan for fiscal year 2000 is to finalize our 
engineering, begin construction for this facility, and the 
request is $24 million.
    As you can see, we have achieved a lot in the past years, 
but it has been because of the help of our local partners, all 
of you with your generosity. And I would just ask that you 
continue to support us in our endeavors. We have a successful 
partnership that moves goods and people. We want to make sure 
that that continues for our economic vitality. And I appreciate 
the opportunity to testify before you this morning, Chairman 
Wolf.
    [The prepared statement of Glenda Hood follows:]
    Offset Folios 116 to 128 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Thank you very much.
    Mr. Sabo. Mr. Packard. Any questions of any member?
    Well, we thank you all.
    Mr. Mica. Thank you again, Mr. Chairman.
    Mr. Wolf. Congressman Cannon, Congressman Kanjorski, and 
Congressman Reyes.
    Your full statements will appear in the record. Welcome to 
the committee.
                              ----------                              

                                      Wednesday, February 10, 1999.

                 TRANSPORTATION INFRASTRUCTURE PROGRAMS


                                WITNESS

HON. CHRISTOPHER B. CANNON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF UTAH
    Mr. Cannon. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to appear before you 
and discuss some of the transportation issues facing my 
district and the State of Utah.
    I would like to thank the subcommittee for the generous 
support that you have given to the State of Utah over the past 
2 years, in which we have--several studies that have ranked 
Utah as one of the best financially fun States, along with 
Virginia, by the way, in the Nation.
    Mr. Wolf. That's true, we got an A-.
    Mr. Cannon. Right. U&V right next to each other.
    Our transportation infrastructure programs are a perfect 
example of the quality of financial management. In an effort to 
minimize the need for Federal assistance the State has 
instituted a gasoline tax to augment Federal funding, used for 
various projects throughout the State. But despite these 
aggressive efforts, Utah is still in need of Federal financial 
assistance.
    Over the past five years there has been an explosive growth 
within the State of Utah, and even more importantly, within my 
district. Currently, 90 percent of the State's population lives 
within a 100 mile area stretching from Provo, through Salt 
Lake, to the city of Ogden.
    My district in particular has become the home of many high 
tech and aerospace industries including Novell and Alliantech, 
along with several hundred other smaller high tech software 
companies. This rapid growth has placed a tremendous strain on 
the transportation infrastructure of my district.
    Currently, projects such as the I-15 reconstruction in Salt 
Lake City and the I-15 University--Ave--interchange in Provo, 
and others are still in need of additional funding.
    I would appreciate this committee's continued support as we 
work toward the completion of these vital projects. I would 
also like to bring attention to the work that continues at the 
Provo Airport. Recently the City of Provo, and the State of 
Utah, and the FAA completed a $14 million expansion of the 
runway at the Provo Airport to accommodate commercial jet 
operations.
    The next step in obtaining commercial designation is the 
installation of an ASR-9 radar. This improvement is absolutely 
necessary to better serve the communities in and around Utah 
County, as well as the industries located in the area.
    Again, I appreciate the opportunity to appear before this 
subcommittee, Mr. Chairman. Utah's undergoing some very 
dramatic changes, and your past assistance has been very 
helpful. I hope the people of Utah can continue to count on the 
support you have shown in the past. I thank you, and I yield 
back the balance of my time.
    [The prepared statement of Chris Cannon follows:]
    Offset folios 134 to 136 insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

             NORTHEASTERN AND CENTRAL PENNSYLVANIA PROJECTS


                                WITNESS

HON. PAUL E. KANJORSKI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    Mr. Chairman, I am here--I get this feeling that sometimes 
the disadvantaged areas of the country need some of the help of 
the developing areas of the country, and I am here to represent 
and request four small projects, while I listen to some of the 
other testimony.
    First and foremost in the project is a request for $2 
million to complete a feasibility study on a reliever airport 
in northeastern and central Pennsylvania. It is anticipated 
that a Category 3 airport with a 15,000-foot runway could be 
developed in this area which would serve as the east coast to 
the United States, from Boston to Washington. And a Category 3 
airport will allow the landing in all weather conditions, which 
are very limited upon the east coast.
    It would save significant amounts of money for the 
airlines. It would take away a lot of the impaction of the air, 
and particularly the fields that are unable to accommodate this 
when bad weather sits on the east coast. But foremost, it would 
be an economic development tool for northeastern and central 
Pennsylvania, insofar it will help us locate facilities there 
with a 15,000-foot runway that would cause a maintenance for 
major aircraft companies that would avoid the expense of 
traveling thousands of miles for maintenance, since this 
airport would rest within 80 miles of New York City and 
Philadelphia.
    So we ask the indulgence to allow this community for 
economic development purposes and for the facilitation of air 
traffic in the United States on the east coast, to consider the 
funding of this study to determine whether or not the 
feasibility of the development of this airport is there.
    Secondly, in a small city of Hazelton which is about to 
develop, they are requesting some assistance for a metro 
transportation center, an intermodal facility in Hazelton City 
in the amount of $5 million. This is to alleviate the 
tremendous increase of travel of 23,000 riders on their 
transportation system just last year.
    It will facilitate the ability for people living in the 
inner city of Hazelton to get to the industrial parks, which 
are in the surrounding area of Hazelton, that presently do not 
have the capacity to travel there, except by automobile, and 
many of them cannot afford that automobile.
    It is the--sprawl--that is starting to develop even in 
northeastern Pennsylvania as population starts to grow, and the 
relocation of employment assets are redistributed within an 
area. So this assistance is vital.
    The third project is I request the committee to allocate 
$11.25 million to complete the expansion of the Wilkes-Barre/
Scranton Airport, which Mr. McDade and myself last year were 
successful in getting the first $11.25 million needed to bring 
a 1950 airport up to the Year 2000. Although Wilkes-Barre/
Scranton is called an international airport, the facilities of 
the airport from the terminal to the maintenance buildings, to 
the runways are really facilities that were put in place some 
50 years ago.
    And if we are to remain as economically competitive as an 
area, the need for a revamped and modernized airport servicing 
over a million and a half population is absolutely essential 
for northeastern Pennsylvania. And this $11.25 million will 
complete the funding for a $55 million project to accomplish 
the same. So we ask the committee to address that.
    Finally, because of the importance of anticipating future 
expansion, we are requesting a million dollars for GIS system 
to be used for transportation studies and facilities in the 
entire 118 square mile area of a--area of northeastern and 
Central Pennsylvania, so that future planning, and trade-offs, 
and prioritization can be made. And the $1 million will be part 
of a $10 million experimental program to lay out a GIS system 
in the entire area for better social planning policies for 
transportation and other expenditures of the Federal, State, 
and local governments, so that better utilization and a better 
tool can be developed for future economic development 
expansion.
    I request the committee to take into consideration that 
these are really small requests of an area of a million and a 
half people that have not had always the support of the 
Congress, and the sympathy of the Congress in supporting these 
transportation facilities.
    Again, I call the attention of the committee that this area 
of Pennsylvania has not received any Federal funding from this 
committee for more than one decade. So if you could have some 
feeling toward us, we are here again. We may not be the 
greatest growth area of the country, and part of the reason we 
are not is the committee has not really seen fit to allow us to 
come up to even competitive standards, and these four programs 
would help us greatly in that area. And I ask the committee's 
indulgence.
    Mr. Wolf. Thank you very much, Mr. Kanjorski.
    [The prepared statement of Paul Kanjorski follows:]
    Offset folios 142 to 169 insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Mr. Sabo. Mr. Packard.
    Mr. Packard. Just a question, perhaps maybe to Mr. Cannon.
    Much of the motivation for the significant improvements in 
your transportation system around Salt Lake City and your 
district was motivated by the Winter Olympics there. And that 
of course is in question right now.
    What would that do to your ongoing progress with your 
transportation improvements?
    Mr. Cannon. Thank you for that question. Let me say, first 
of all, I don't think there is any question what the 2000 
Olympics are going to be held in the Salt Lake area, and much 
of that in my district. As part of the overall problem with 
transportation in Utah, the governor, and I think virtually 
everyone in the State has come to the conclusion we needed to 
get behind an upgrading of our system which had fallen way 
behind what it needed to be to serve the current population.
    The State has in fact taken the bulk of this. We are not 
here saying we need this because of the Olympics. But we are 
taking upon ourselves in the State of Utah a much larger burden 
in a shorter period of time because of the deadline that the 
Olympics proposes to us.
    I think those projects will be done but we do need the help 
from this committee to finish out and balance some of those 
elements.
    Mr. Packard. Thank you. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you very much. We appreciate your 
testimony.
    Congressman Visclosky, Congressman McGovern, and 
Congressman Capuano.
    Your full statement will appear in the record, and you can 
proceed.
                              ----------                              

                                      Wednesday, February 10, 1999.

             ATTLEBORO INTERMODAL MIXED USE GARAGE FACILITY


                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. McGovern. Thank you very much, Mr. Chairman. If I can 
begin.
    I want to thank you for the opportunity to testify before 
the committee, and I will be brief.
    I am here today to seek support for a project which is very 
important of my district, indeed the people southeast to 
Massachusetts, and I would say the people of Rhode Island, and 
that is the Attleboro Intermodal Mixed Use Garage Facility, 
which is located in Attleboro, Massachusetts.
    Specifically, I am here to ask the committee to provide 
$2.5 million to aid in its construction. Attleboro Station is 
one of three commuter rail stations in the southeastern 
Massachusetts region, which has been experiencing strong growth 
during the last decade.
    According to audits taken by the Massachusetts Bay Transit 
Authority over the last 10 years, Attleboro Station has 
consistently been ranked one of the three busiest stations in 
Massachusetts; and because of its close proximity to 
Providence, Rhode Island, commuters from Rhode Island 
contribute greatly to the congestion at this station.
    The project, which has been proposed by the greater 
Attleboro Taunton Regional Transit Authority is expected to 
support the increasing needs of the current commuter rail 
station that services Attleboro central business district.
    Commuter demand that the station currently exceeds 
capacity, and ridership projections indicate that the station 
will need at least 73 percent more parking spaces by the Year 
2010. Increased parking and transfer capacity at this station 
will facilitate usage of commuter rail, which is an important 
goal, by cutting down on intense traffic congestion in the 
region.
    Additionally, the proposed facility will include a daycare 
center which will eliminate wasted time that parents spend 
driving to daycare each morning. Further, because of the 
proposed facility's location, the Transit Authority will be 
able to move public bus service closer to the center of the 
station. Relocation of the busline will make intermodal 
transfer simpler for all passengers and far more accessible to 
the handicap
    For these reasons, I request that you and the members of 
this subcommittee when determining transportation priorities 
for Fiscal Year 2000 include support of this worthy project. 
And I will be happy to provide the committee staff with 
additional materials as you move through this process. Thank 
you.
    [The prepared statement of James McGovern follows:]
    Offset folios 175 to 177 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                         BOSTON TRANSIT PROJECT


                                WITNESS

HON. MICHAEL E. CAPUANO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Capuano. Mr. Chairman, my name is Michael Capuano. I'm 
new to most of you, and thank you for seeing me this morning.
    I'm here to talk about what is I think a very small item. 
It's the next millennium's project for the greater Boston area, 
which is the urban ring; it is mass transit. And what is, very 
simply, Boston like most of the communities were built with a 
commuter rail system that is all centered around the hub, like 
fingers, like a hand.
    What this does is it takes the poorer communities--people 
who cannot get where they go; many people who don't own 
automobiles, they rely very heavily on mass transit now, and it 
simply puts a ring around the city.
    It is a long-term project. We are simply asking for money 
to begin the study process. The State has put money into it. 
Every city in town that is involved has put money and staffing 
into it, and we are simply asking for Congress' help to do 
something that we think will be the next project that hopefully 
my children will be able to ride on.
    [The prepared statement of Michael Capuano follows:]

    Offset Folios 180 to 182 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. We get frightened when we hear next projects in 
Massachusetts, with the central--project which has pretty much 
taken a lot.
    Mr. McGovern. That is only Boston. I don't represent that 
area.
    Mr. Wolf. I was going to say, and the rest of the State I 
think you can hear the sucking sound of--from the rest of the 
State----
    Mr. Capuano. We have heard it as well. I will tell you, Mr. 
Chairman, I am the mayor of one of the communities outside of 
Boston, and I will tell you that all of the money that was 
designated to local communities for bridges, typical regular 
stuff, has been sucked into it as well. Nonetheless, we are 
stuck with it, and that is also in Congressman Moakley's 
district, not mine.
    Mr. Wolf. I see.
    Mr. Capuano. And I hope I get points for brevity.
                              ----------                              

                                      Wednesday, February 10, 1999.

                         EL PASO, TX, PROJECTS


                                WITNESS

HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Reyes. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to come before you 
today, and talk about projects in my district of El Paso, 
Texas. I will give you a brief description of my request, and 
submit additional background for the record.
    People say that a picture is worth a thousand words, so I 
brought a picture with me today. This is the Bridge of the 
Americas, one of four international bridges between El Paso, 
Texas and Cuidad Juarez, Mexico.
    The Bridge of the Americas is an eight-lane bridge with two 
lanes dedicated to truck traffic. It is one of the busiest 
international bridges on the southern border. It probably to 
you looks a lot like the traffic between Northern Virginia and 
Washington, D.C., with one big exception; that these commuters 
here have to go through a detailed inspection process, which 
often means sitting on that bridge from 45 minutes to an hour.
    One of my requests of the committee today is $2.4 million 
from the Federal Highway Administration to demolish the 
existing border station, which would be down here, and head 
house area, at both the Bridge of the Americas, and another 
bridge in the downtown area.
    To allow construction for four additional inspection lanes 
at each one of the bridges, the General Service Administration 
and Federal Inspection Services have committed $600,000 to each 
one of these bridges. And it is also supported by the Texas 
Transportation Commission and the Regional Office of Federal 
Highways.
    Both of these projects will drastically increase capacity 
and reduce waiting times in these two heavily traveled border 
crossings which we have illustrated here.
    My third request of the committee is for $8 million from 
the Federal Transit Administration to replace aging buses for 
Sun Metro in El Paso. Sun Metro has 79 full size buses that 
need to be replaced within the next 24 months. The total cost 
of replacing all of these buses is estimated about $24 million. 
We are asking for a third of that amount which will fund about 
28 buses.
    It is important for this committee to understand how 
dependent our community is on these buses. Unfortunately, El 
Paso is the fifth poorest congressional district in the 
country, with the poorest zip code anywhere in the Nation. And 
our unemployment rate has been in double digits for over 30 
years.
    We have more dislocated workers as a result of NAFTA than 
any other congressional district in the Nation. This accounts 
for about 10,000 workers who have lost their jobs as a result 
of NAFTA. That is why it is so important for El Paso to 
continue to maintain a reliable bus service for our neediest 
citizens.
    My final request today is for an innovative project that 
goes to the very heart of trying to solve some of these long 
lines at the international bridges, eliminate bottlenecks, and 
clean up our air.
    As you may know, El Paso is a non-attainment area, meaning 
that it does not meet these standards set by the Clean Air Act. 
Because congestion at the border is so bad, I think we need to 
think sometimes out of the box, and identify innovative ways to 
solve our traffic problems. The Highway Bill that Congress 
passed last year authorized a new international fixed guideway 
system between El Paso and Cuidad Juarez.
    Today I am asking this committee to appropriate $10 million 
for preliminary engineering and environmental studies for an 
elevated, automated people mover system, connecting these two 
downtowns; downtown in El Paso and the downtown in Cuidad 
Juarez.
    This would be a--system, which means that people would be 
inspected before they entered the system, and if they left the 
system they would have to be reinspected again to re-enter.
    I would like to submit for the record a more detailed 
description of this system, and I will do so.
    In addition to these requests I want to comment on the 
President's budget proposal for Fiscal Year 2000 as it relates 
to the southwest border.
    In the Highway Bill that Congress passed we included $140 
million annually for a new discretionary program to fund 
corridors of national significance and border crossings. The 
president's budget calls for only $126 million for this program 
in Fiscal Year 2000.
    After the Highway Bill was passed in 1991, the Department 
of Transportation reported to Congress about border 
infrastructure; that arterioles leading to and from border 
crossing sites are badly in need of repair and upgrading.
    According to information developed from the National Bridge 
Inventory, 20 percent of 40 international border bridges are 
structurally deficient, and 42 percent are functionally 
obsolete. Since that report NAFTA has gone into affect, and our 
traffic has more than tripled.
    We need more money for border infrastructure, not less. The 
$140 million that Congress authorized is insufficient to meet 
the needs along our borders, much less to meet the needs of 
corridors throughout this Nation. So I urge this committee to 
reject the President's request for $126 million, and 
appropriate the full $140 million.
    I want to thank you, Mr. Chairman, and members of this 
committee for your attentions this morning.
    [The prepared statement of Silvestre Reyes follows:]
    Offset Folios 190 to 196 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Thank you very much. There is another issue, 
which maybe the staff can give you a copy of the IG report that 
came out the other week.
    Beginning January 1 of next year all of the trucks coming 
out of Mexico are now going to be permitted to go across the 
border and into the United States. Of those 17,000 trucks that 
were inspected last year, forty-four percent were in such bad 
shape that they were pulled out of service.
    This is going to have an unbelievable impact, not only on 
the entire country, but on your district. And I think that you 
might take a look at that IG report, because I think not many 
people have been focusing on it, and they have to focus.
    Whether the administration prohibits those trucks for 
another year and/or sets up a new inspection system, we have a 
problem with truck safety now in the United States. And when 
3.5 million additional trucks comes in next year, we will have 
no truck inspection at all. And I think your district is going 
to be heavily impacted.
                              ----------                              

                                      Wednesday, February 10, 1999.

                   NORTHWEST INDIANA TRANSIT PROJECT


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Visclosky. Mr. Chairman, I am just here to thank you, 
Mr. Sabo, and the members of the subcommittee for your past 
consideration and generosity. You have my prepared statement, 
and I am asking for an additional $6 million for the South 
Shore--Southand--Railroad, for the purchase of new cars. And 
thank you very much.
    Mr. Wolf. Thank you.
    [The prepared statement of Peter Visclosky follows:]
    Offset Folios 201 to 203 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                 ALAMEDA CONTRA COSTA TRANSIT DISTRICT


                               WITNESSES

HON. BARBARA LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
MATT WILLIAMS, PRESIDENT, BOARD OF DIRECTORS, ALAMEDA-CONTRA COSTA 
    TRANSIT DISTRICT
    Mr. Wolf. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman and members. I appreciate 
this opportunity to be with you today.
    I am Representative Barbara Lee from the 9th Congressional 
District, which includes a large portion of the Bay area, the 
east Bay area; the cities of Oakland, Berkeley, Piedmont, 
Albany, and Alameda.
    Today I am here to testify in strong support of the request 
by Alameda Contra Costa Transit District, or better known as AC 
Transit.
    While you are indeed familiar with our region's trolley and 
rail service provided by BART, which is Bay Area Rapid Transit 
System, our subway system, it is really AC Transit that 
provides the essential bus service to over 230,000 persons 
every day in the east Bay.
    AC Transit is the largest transit agency in California, and 
I am pleased to introduce Mr. Matt Williams today, president of 
the AC Transit Board of Directors to you for his testimony.
    Mr. Wolf. Your full statement will appear in the record if 
read.
    [The prepared statement of Barbara Lee follows:]
    Offset Folios 207 to 208 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Williams. Mr. Chairman, I am Matt Williams, and I am 
the president of the Board of Directors at Alameda Contra Costa 
Transit. And I would like to express sincere appreciation for 
being allowed to testify today.
    As the congresswoman said, we are one of the largest 
transit districts in the country. We are certainly in the top 
25 in terms of boardings. We have been ranked by the University 
of North Carolina in a recent study as being the most--
performance measures of bus transit, as being the most cost 
effective, large transit district in the State of California. 
We are very proud of that.
    We have for the last year and a half been working on a 
project in Congresswoman Lee's area, and also in Congressman 
George Miller's district, which is to revitalize the key bus 
route, and to spend as little money as possible to do it.
    We had an opportunity to look at light rail, and we decided 
that was not cost effective. So what we are doing in effect is 
bringing mass transit back to be a first class operation using 
buses. And the cost is something like 1/20 of I guess what 
light rail would be.
    Part of that project is hooked up with a satellite 
communications program we have that is underway and should be 
installed in all of our buses at the end of the year. The $8 
million we are requesting is to make improvements to that 
system for safety.
    It helps the sheriff departments locate the buses 
immediately in time of a problem. It also allows for passengers 
to know where each bus is at all times, and we would use the 
funding to allow for trip building, using the Worldwide Web and 
other sources to basically allow people of color and low income 
to have a first class mass transit ride at low cost. And we are 
working on that project with six cities and two counties. And 
thank you very much for this opportunity to testify.
    [The prepared statement of Matt Williams follows:]
    Offset Folios 212 to 221 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Thank you very much. Mr. Sabo? Mr. Packard?
    Thank you very much. The Committee will recess until after 
this vote, and resume right afterwards.
    [Recess.]
    Mr. Wolf [presiding]. The hearing will come to order.
    Mr. Filner? Could we get your attention, please. Mr. 
Filner, your full statement will appear in the record as read.
                              ----------                              

                                      Wednesday, February 10, 1999.

                   SAN DIEGO TRANSPORTATION PROJECTS


                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Filner. Thank you, Mr. Chairman, and I appreciate the 
chance to testify with you this morning, my colleagues. And, as 
you said, my full statement has been submitted, and I know 
you'll make it part of the record.
    I represent San Diego, California, an area which I think 
illustrates the close connection between what you all are doing 
here on your subcommittee, that is, dealing with the 
transportation infrastructure of our Nation; and the close 
connection between that transportation infrastructure and 
economic growth. And the projects I want to speak to you this 
morning about reflect that connection between transportation 
infrastructure and economic opportunity.
    In ISTEA this year--for the first time, as I understand 
it--there is a program which is called the light density rail 
pilot project program. There is great interest in this program 
all around the country, both in some urban areas and in 
numerous rural communities, who see it as a real means to jump 
start their economic growth.
    The program is authorized for $17 million per year, and I 
urge the committee to appropriate that full amount.
    Grants are for capital improvements and rehabilitation of 
what are called class two and class three railroads, which are 
those with less than $250,000,000 of annual gross revenues. 
These are not earmarks. There's no pork in this. It is a 
competitive program, which will benefit projects throughout the 
Nation and has enjoyed bipartisan support, and small railroads 
and shortline railroads all over the Nation would be helped by 
this program, which would provide access to numerous 
communities, to other markets, and provide good jobs.
    As this committee knows, the Chairman well knows, and I 
know Mr. Packard from my own county well knows, one of the 
applicants for this program would be the San Diego and Arizona 
Eastern Railroad, which, if rehabilitated, a 100-mile shortline 
railroad, which would give San Diego, California, for the first 
time direct rail access to eastern United States and transform 
the whole economy of our region. But that railroad would then 
be in competition with numerous other shortline railroads 
around the country for that funding. So, I hope you look 
favorable on that program.
    I know this committee and the Chairman have not--are not 
looking to fund individual highway projects in this--in your 
bill. I do want to point out, of course, the needs across the 
country that remain. In our highway program, especially along 
the U.S.-Mexico border in the district I represent, because of 
NAFTA, that is, Federal policy, the traffic across the border 
has increased dramatically. We have gone from a few hundred 
trucks per day across the border crossing in my district to 
more than 3,000, which represents a 40 percent to 50 percent of 
all the traffic between our two nations. And yet, when we 
passed NAFTA, we saw the jump in this commerce, but the 
infrastructure was not planned for. And so we have no 
interstate highway system that takes those trucks from the 
border crossing to the interstate highway system. We have a 
road, State Route 905, which is now planned for that. And we 
hope to get that operating within about four or five years, but 
we need to close a funding gap for that. And I turn to the 
Federal Government because it was Federal policy that put all 
the burden on that city street, which we need to now make into 
a--basically an inter-state highway to bring that commerce into 
our Nation.
    It's not just for San Diego. In fact, you know, 95 percent 
of it bypasses San Diego. It brings that commerce to the rest 
of the Nation.
    Lastly, Mr. Chairman, I would like to underline the need in 
San Diego and add my voice to those of my colleagues in the 
county to provide the funding for what is called the Mission 
Valley East Trolley Extension. The Clinton budget proposes $35 
million for this effort. The project is capable of completing--
of completely obligating $60 million during Fiscal Year 2000.
    I think you all understand the great potential for mass 
transit and light trolley lines for helping cities. In this 
case, this particular part of the line, which will almost 
complete our, San Diego's, light rail system will provide 
affordable options for those in our community who are most 
dependent on public transportation as they try to get to work.
    This line would link the major universities in our area 
with downtown and the work that people go to--medical and 
commercial centers and the like. So, this light rail system is 
very, very important to San Diego.
    You have my full testimony. These are the things we're 
interested in in our region. The projects I mentioned are all 
rated at the top of the list, both in our city, our county, and 
our State. These are not just highly thought of in my district. 
They have from the State through the county and city the top 
priority listings that I'm bringing you here today, and I 
appreciate the efforts of this committee.
    Mr. Wolf. Thank you, Mr. Filner. Mr. Sabo? Any questions 
from anybody?
    Mr. Packard. Yes, Mr. Chairman, may I simply say that I 
support these projects. I am very familiar with them. They are 
very close to my district, and they will be addressed in my 
letter when it comes, from me to you.
    One question I might have. I read yesterday in one of my 
local clippings that a section of the San Diego-Arizona Eastern 
Rail section--the portion that is in Mexico, that goes down 
into Mexico, the bidder that was to operate that section backed 
away from their bid. What will happen and how will that impact 
the overall line?
    Mr. Filner. Thank you, Mr. Packard, and thank you for your 
strong support for these projects. Just for those--just I'll be 
very brief. This rail line that I mentioned, and Mr. Wolf is 
fully familiar with it, is a 100-mile-long railroad. By the 
accident of history, about 50 miles of the length of the 
railroad is in Mexico, and 50 miles is in the United States. I 
see this as a great opportunity for binational cooperation that 
will produce thousands of jobs in each country. But it requires 
the cooperation of both countries.
    Both the--the lines in both countries are publicly owned: 
the regional transportation entity in the United States; and 
the Federal Government in Mexico. And both countries have 
decided to privatize their sections of the line. That has 
occurred in the United States. A U.S. firm has the franchise to 
operate that line. The Mexicans put out a bid which was won by 
a Mexican company. They apparently overbid for their--on 
their--on the franchise and have not performed. So, they have 
notified the Mexican government they will not be taking that 
franchise.
    I am told--I was just informed by the Mexican ambassador 
that the rebidding will open within 30 days, and they hope to 
conclude that within 60 days after that. Once each side of the 
line is privatized, then negotiations will go forward and the 
line will be open in a relatively short amount of time.
    And, as you know, everybody in San Diego, with one 
exception----
    Mr. Wolf. Not everybody.
    Mr. Filner. He doesn't live in San Diego. One exception 
supports that, so I--you know that.
    Mr. Wolf. Just for the record, I'll ask Congressman Hunter, 
and I know your delegation is divided--is very strongly opposed 
to it. But more, I think not on the economic issue, but on the 
issue of drugs. And it was an article in today's Washington 
Post about that. We will decertify Mexico or not. I would urge 
you--this--our money is so tight, it's beyond. I mean, if you 
add up just the figures that have come in today. But I would 
urge you to sit down with Congressman Hunter and talk about 
whether or not DEA gets involved and looks at agents and 
customs and different things on the border so that this thing 
ever were to go, you're able to have those answers.
    So, I would encourage the delegation to sit down with Mr. 
Hunter, and Mr. Hunter, you know, and you can----
    Mr. Filner. Right. I appreciate that.
    Mr. Wolf. That would really go a long way. But----
    Mr. Filner. We will send your staff, Mr. Chairman, under 
the request from Congressman Hunter, myself, we asked the GAO 
to look at that issue. And there's a report which says that 
approximately 30 to 35 new agents would handle the issues, so I 
will send you that report.
    Mr. Wolf. Okay.
    Mr. Filner. But we have been discussing this, and Mr. 
Packard has played a strong role in those negotiations.
    Mr. Wolf. And maybe you could go before Commerce, Justice 
and State Subcommittee and ask for--or Treasury--I guess that 
would be Treasury appropriations--to ask for some funding, 
which would I think help us in the effort. Mr. Sabo? Thank you. 
Your full statement will appear in the record. In the interest 
of allowing Mr. Regula to return to his hearing that he's 
chairing, we'll just go out of order just for a minute and 
recognize Mr. Regula to introduce his witness, and also 
Congressman--Congresswoman Tubbs Jones. And Mr. Payne will be 
next after that.
    Mr. Filner. I thank the Chair.
    [The prepared statement of Bob Filner follows:]
    Offset Folios 231 to 235 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                       CLEVELAND TRANSIT PROJECT


                               WITNESSES

HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
RONALD J. TOBER, GENERAL MANAGER/SECRETARY-TREASURER, GREATER CLEVELAND 
    REGIONAL TRANSIT AUTHORITY (RTA)
    Mr. Regula. I thank you. Thank you, Mr. Chairman. I hate to 
break in, but I've got my committee's hearing now, and we just 
have temporarily in the chair.
    I'd like to introduce Mr. Ron Taber, who's the general 
manager of the Greater Cleveland Transit Authority. He's 
testifying in regard to a proposed transit corridor coming from 
the University Circle to downtown.
    Cleveland has experienced a rebirth, and, of course, next 
year we will have the--or this year, actually--we will have the 
Cleveland Browns back in business. And that puts even greater 
pressure on this transportation problem. And also pleased to 
see Congressman Stephanie Tubbs Jones here, appearing on behalf 
of your district and the City of Cleveland, and I assume you're 
a Browns fan?
    Ms. Tubbs Jones. Yes. I am a Rockers fan more.
    Mr. Regula. Oh, okay.
    Ms. Tubbs Jones. Mr. Chairman, we have not had a chance to 
meet. My name is Stephanie Tubbs Jones. I represent the 11th 
congressional district in Ohio. I am the successor to 
Congressman Louis Stokes.
    I appear here this morning in support of Mr. Tober and the 
regional transit authority and my district. For those of you 
who are not familiar with the City of Cleveland, Cleveland 
downtown and University Circle are two of the greatest hubs in 
our district. And University Circle is where our symphony is; 
where the art museum is, and the universities. It's a wonderful 
opportunity to tie together our downtown hub with University 
Circle, Inc. I also happen to live around the corner from 
University Circle, Inc. It would be exciting to be able to have 
my friends visit all these areas.
    But I'm here in support of this project, having served on 
University Circle, Inc. board of trustees and been part of this 
concern of tying downtown with the neighborhoods in order to 
provide greater access for our residents, but also for visitors 
to the area.
    Thank you very much, Mr. Chairman, for the opportunity.
    Mr. Wolf. Thank you. Your full statement will appear in the 
record.
    Ms. Tubbs Jones. Thank you.
    Mr. Wolf. You're welcome. Mr. Tober.
    Mr. Tober. Thank you very much, Congresswoman and Chairman 
Regula and Chairman Wolf, and members of the committee.
    My name, again, is Ron Tober, and I'm the general manager 
and secretary-treasurer of the Greater Cleveland Regional 
Transit Authority. I'm before you today to describe a milestone 
bus rapid transit project.
    The Euclid Corridor Improvement Project is the first 
project of its kind in the United States. It is a unique multi-
modal effort that incorporates reserve bus lanes in the 
reconstruction of a major urban roadway, along with 
improvements designed to improve the quality and efficiency of 
public transportation.
    Euclid Avenue has been called Cleveland's Main Street and 
it's at the heart of northeast Ohio's busiest transit corridor, 
with nearly 60,000 transit passenger trips each day. The Euclid 
Corridor connects downtown Cleveland with the world famous 
cultural, medical, and educational institutions in University 
Circle, as Congresswoman Tubbs Jones has indicated.
    A few years ago, the GCRTA studied the dual hub plan, which 
called for a subway and relocating one of our rail lines to 
Euclid Avenue. This study ended up selecting the transportation 
systems management alternative, which we now call the Euclid 
Corridor Improvement Project.
    The plan we bring before you today features the promising 
bus rapid transit concept and improvements to rail stations 
along an existing rail line. It will cost only about one-half 
of the old dual hub rail plan.
    If you'll please turn your attention to page four of the 
briefing books that we have provided to you, you'll find a bus 
operations diagram of the Euclid Corridor plan. Along with 
downtown and University Circle, the project involves several 
neighborhoods as well as the empowerment zone in the City of 
Cleveland. One page five, you'll find a street-level of a bus 
station that we plan to construct at East 12th and Euclid 
Avenue.
    The Euclid Corridor Improvement Project will accomplish 
three major goals. As you'll find on page six, it will increase 
the efficiency of our transit system, promote long-term 
economic development and community development, and improve the 
quality of life for everyone who spends time in that corridor.
    There are several major elements to the Euclid Corridor 
Improvement Project. First, there are the improvements that are 
slated for Euclid Avenue itself. On page seven, you'll find a 
cross-section of Euclid Avenue, a landscape boulevard featuring 
reserve bus ways, the elimination of on-street parking, and 
enhancement to pedestrian areas that will encourage transit 
use, including sidewalks, pedestrian lighting and street trees.
    As you will see, we will introduce electric trolley buses 
to Cleveland as part of this project. These vehicles will give 
the Euclid Corridor Project a very unique identity, as they are 
quiet and clean, and they fit in with the city's plans to 
develop a residential population along lower Euclid Avenue. The 
GCRTA is currently working with the MBTA in Boston on a 
possible joint procurement of these vehicles.
    Second element of the project is the development of a 
transit zone downtown on other major streets. The additional 
reserve bus lanes and pedestrian improvements there will also 
provide for an improved transit environment. The project also 
includes two transit centers.
    The final element of the project includes the 
reconstruction of six of our rail stations.
    In the material that we've provided you, on page 10 you'll 
find a milestone schedule for the project. We hope to be into 
construction by late next year, and have operation by the year 
2003.
    And that brings me to the issue of funding. The GCRTA has 
already received a commitment from the State of Ohio for $70 
million to this project. In the short-term, nearly $16 million 
of the State money will be used for final design, and that will 
allow us to get under design this summer.
    However, we are seeking a Federal commitment of $16 from 
the New Start Program during Federal Fiscal Year 2000 to 
complete final design.
    So, you'll find an outline in the document of our long-
range plan for the funding of the project. You'll see in the 
document, that we are talking about seeking around a 60 percent 
Federal share for this, with the State funding being 20 percent 
and local funding being 20 percent.
    That--you have my full testimony there, along with the 
briefing book. Mr. Chairman, I'd be glad to answer any 
questions that you might have.
    [The prepared statement of Ron Tober follows:]
    Offset Folios 245 to 263 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Regula. Thank you, Mr. Chairman. And thank you for the 
courtesy. I would--the point that I would make is that this is 
a 60 Federal, 40 State and local, which is one of the best 
offers we've had in this committee that--in my experience, they 
usually these transit projects are, in some cases, 100 percent 
Federal. And I think that indicates strong local commitment to 
this project.
    Mr. Wolf. We just had a higher bidder before. We had 80-20. 
Eighty local, and 20 Federal.
    Mr. Regula. Well that sounds pretty good.
    Mr. Tober. I wish I could do that. Unfortunately.
    Mr. Wolf. No, I think that's getting around. [Laughter.]
    Mr. Regula. Thank you, again, for your courtesy.
    Mr. Wolf. Thank you, Ralph.
    Ms. Tubbs Jones. Mr. Chairman, thank you very much.
    Mr. Wolf. Thank you. We appreciate it. Mr. Obey, do you 
have any questions. Mr. Packard?
    Mr. Packard. Thank you very much.
    Mr. Wolf. Thank you very much. Next will be Mr. Payne. If 
we can ask the other witnesses too, we have fallen behind 
because of the vote. People have airplanes to catch, so if you 
can keep it within the five minutes, we would appreciate it. 
Mr. Payne your statement will appear in the record. As the full 
statement.
                              ----------                              

                                      Wednesday, February 10, 1999.

                          NEW JERSEY PROJECTS


                               WITNESSES

HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
MAYOR SHARPE JAMES (NEWARK, NJ)
    Mr. Payne. Thank you very much, Mr. Chairman. Let me thank 
you, Mr. Wolf, and ranking member, Mr. Sabo, for giving me an 
opportunity to introduce the mayor of my city. I certainly 
appreciate the help that we've gotten in the past, particularly 
the urban core initiatives, which helped modernize our 
transportation system.
    Newark is a growing city. We have--but our highest priority 
is the Elizabeth Rail Link, which ties together two cities. 
Mayor James has had a tremendous impact on the growth of Newark 
International Airport. I am sure many of you have come through 
it. The Administration has included $12 million for funding in 
the mail--the rail link. But I know that the ultimate decision 
is before you, and that's why I'm appealing to you also, Mr. 
Chairman, the University of Medicine and Dentistry, which is in 
my district, is unable to be here, and I'd like to submit a 
proposal that they have, a four-State proposal between New 
Jersey, Maryland, District of Columbia, and Florida to study 
human crash trauma.
    I would just like to know, sir, introduce the Chairman of 
my home State, my city, my neighbor, the Honorable Sharpe 
James. We've done an outstanding job in Newark, with a new 
internationally acclaimed performing arts center. And it's been 
under his leadership that we've seen a lot of growth and 
development. The city has received a number of awards. And we 
feel that this would be the key. Mayor James serves on the 
board of trustees of the U.S. Conference of Mayors; vice 
president of the New Jersey Conference of Mayors, and is the 
past president of the National League of Cities. We are the 
third oldest city in the United States. We need a lot of help. 
I'd like to introduce my colleague and good friend, Mayor 
Sharpe James.
    Mr. Wolf. I thank you, Mr. Payne. Mr. James.
    [The prepared statement of John Siegel follows:]
    Offset Folios 268 to 272 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. James. Thank you Congressman Payne. Thank you, Chairman 
Wolf, and members of the subcommittee.
    As stated by our esteemed Congressman, Newark being the 
third oldest major city in America has all the problems of 
urban America that we can think of. And yet, we are the key 
city in the region because we have the largest, fastest growing 
airport in the world, fifth largest, Newark International 
Airport. The largest container port in America, Port Newark. We 
have all of the highways that you can name--turnpike, parkway, 
280, 19. Even all the garbage comes to Newark and the country 
because of our road system and so forth.
    And you've helped us in the past to make sure that we have 
that infrastructure. In the meantime, we've made some progress. 
We now have a world-class museum, a world-class library. When 
they said we could not build an art center, we simply built the 
best one on the planet Earth--$186 million. And, again, it was 
this committee that helped us put in a $780 ramp, and last 
year, its first full season open, it set a national record of 
700,000 people attending a performing arts center in America in 
one year.
    And we've not stopped there. We're building a ball stadium 
now. We're trying to build an arena for the New Jersey Nets, 
and we're also looking at the College and the Joseph Minich 
Waterfront to complete.
    And that's where we need help with this Newark Rail Link 
that would integrate, connect all of these facilities, and then 
it would do the most important thing: continue to the airport 
where the jobs are--63,000 jobs. And right now, in the City of 
Newark, you can look seven miles and see the fifth largest 
airport in the world, but you can't get to it unless you're 
going to jump over railroad tracks, go over highways. And we 
had people killed trying to go to where the jobs are.
    So this rail link will connect us to the fastest growth in 
the region, Newark International Airport, the number one 
employer in our city, and, as indicated, which generates about 
65,000 jobs a year.
    In the past, this project has been authorized by ISTEA 
legislation. It was continued under TEA-21. In the past, we 
received $7 million for early planning. We received $6 million. 
And we're here today to ask for $12 million commitment in order 
to see that this project becomes a reality and complete itself. 
Also, the value of keeping cars off the road by not having so 
many cars on the road with this rail link.
    The final paragraph I simply state is that I ask your 
support--$12 million for funding for the Newark-Elizabeth Rail 
Link, which will aid in keeping Newark competitive and 
accessible, strengthen our economy and help to continue 
building a sustainable and livable community.
    Because of this committee's past work, Newark is on a roll. 
Now we want to keep rolling. We want to keep that Newark light 
rail train running to integrate and to connect all of this, and 
to bring people to the jobs.
    So, we think this is a tremendous project and deserving of 
your support; and more importantly, as we continue to connect 
it to the dream of the late Congressman Mesh, who someday said 
the waterfront and the city and all of these entities 
heretofore they've mentioned would connect and be integrated. 
And that would be the result of this funding of this project.
    So we thank you, Mr. Chairman, for your support and 
certainly would answer any questions you might have.
    Mr. Wolf. Thank you very much, Mr. Mayor. Thank you. We 
have no questions. Thank you very much.
    Mr. James. Thank you, Mr. Chairman.
    Mr. Payne. Thank you.
    [The prepared statement of Sharpe James follows:]
    INSERT Offset Folios 277 thru 282 HERE


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Congresswoman Ros-Lehtinen and Commissioner Smith 
and Congresswoman Thurman and Mayor Delaney, and Mr. Silva. 
Okay.
                              ----------                              

                                      Wednesday, February 10, 1999.

                      ELECTROWAVE SHUTTLE SERVICE


                               WITNESSES

HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF FLORIDA
COMMISSIONER JOSE SMITH (ON BEHALF OF MAYOR NEISEN KASDIN) CITY OF 
    MIAMI BEACH, FL
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and 
members of the Transportation Appropriations Subcommittee.
    It is my distinct pleasure to introduce to you an 
outstanding representative of the city of Miami Beach that I'm 
proud to represent, City Commissioner Jose Smith, who's going 
to discuss briefly the expansion of the Electrowave Shuttle 
Service. I'm proud to say that South Beach is a very important 
part of my congressional district, and I have seen first hand 
the immense growth that it has experienced in both residents 
and tourists. Miami Beach and particularly South Beach have 
grown tremendously in the past several years, and we see the 
Electrowave Shuttle as an essential component to managing the 
flow of traffic now and in the future.
    I wish to express my full support for the Electrowave 
Shuttle Service that already in its very short period of 
operation has greatly relieved congestion in the area. In 1991, 
over 4,000,000 tourists visited South Beach. And by 1997, that 
number has increased to almost 7,000,000 visitors. It is 
projected for that number to increase by 25 percent by the 
millennium. And in only one year of operation, over 1.5 million 
passengers have ridden the five Electrowave buses, and this 
number is really significant considering that each bus only 
holds 22 people. But expansion of the Electrowave Shuttle 
Service will provide an immense benefit for Miami Beach and 
especially South Beach. And now to fully explain this 
innovative Electrowave Shuttle System, I am proud to introduce 
Jose to you. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Congresswoman. Mr. Chairman, members 
of the Transportation Subcommittee, I am Jose Smith and I am a 
city commissioner in the City of Miami Beach. And on behalf of 
our city, Mayor Neisen Kasdin and my colleagues on the city 
commission, I thank you for the opportunity to appear before 
you and for the support that you gave us last year.
    The city respectfully submits a transportation-related 
program for a discretionary earmark through the Federal Transit 
Administration within the Fiscal Year 2000 Transportation 
Appropriations bill. The city-proposed earmark of $7 million 
will be used towards the construction of an inter-modal transit 
area that will support the existing electric shuttle service 
known as the Electrowave.
    This innovative and environmentally friendly local 
circulator has carried over one and half million passengers in 
the first year, as Congresswoman Ileana Ros-Lehtinen stated, 
operating only five 22-passenger vehicles at a given time. Its 
success, popularity, and charm are without question and 
unprecedented.
    The Electrowave's existing route operates primarily in the 
South Beach area, which is a congested urban, commercial and 
residential area, and a national historic district within Miami 
beach; also an area which contains a convention center, and, as 
we highlighted recently during the Super Bowl, an international 
tourist destination. This inter-modal transit project will 
provide vital transportation collectors for the area, where 
commuters and visitors will have access to parking, information 
centers, local and regional transit services, as well as a park 
and ride program.
    The first and largest of these centers will include a full-
scale facility for the Electrowave service and maintenance of 
its vehicles. We see several advantages to adopting a multiple 
transit site approach to the inter-modal area. One, these 
transit sites will be located strictly within city-owned 
property.
    Second, they will fit the scale and character of the inter-
modal area.
    Third, the transit sites will act as hubs for hurricane 
evacuation activities, since Miami Beach is, indeed, a barrier 
island.
    And four, multiple transit sites will serve a larger area 
and more people than one single inter-modal center.
    Looking into the future, one or more of these transit sites 
will also serve as a terminus of an east-west multi-modal 
corridor, a regional trans--excuse me--a regional 
transportation project which proposes to connect the mainland 
expressways with the Miami International Airport, downtown 
Miami, the seaport, and the City of Miami Beach.
    The Electrowave program is included in the five-year 
transportation improvement program of Miami-Dade County and has 
the financial support not only of the City of Miami Beach, but 
also the Florida Department of Transportation, the FTA Miami 
Day Transit Agency, Florida Power and Light Company, and other 
clean air and energy agencies. A Fiscal Year 2000 discretionary 
FTA fund earmark towards these multiple transit sites is 
critical to the long-term effectiveness of the Electrowave 
service and its park and ride component, as well as to a Miami 
Beach interconnection with a 21st century east-west multi-modal 
corridor. Your consideration of this request will be greatly 
appreciated, and I thank the committee for allowing me this 
opportunity to address you on this very critical issue. Thank 
you.
    Mr. Wolf. Thank you very much. Congressman Thurman.
    [The prepared statement of Neisen Kasdin follows:]
    INSERT Offset Folios 291 thru 293 HERE


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                        REGIONAL TRANSIT SYSTEM


                               WITNESSES

HON. KAREN L. THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
MAYOR PAULA DeLANEY (GAINESVILLE, FL)
    Ms. Thurman. Mr. Chairman, thank you very much. And first 
we would like to let you know that we appreciate what you have 
done for us in last year's budget. I know you were under some 
extreme economic issues. Our--the City of Gainesville and Mayor 
DeLaney who is with me, I want you to know, took--we looked at 
the memo that was sent out about the dollars that would not be 
available. I immediately went to our city. I said, look, we've 
got some problems up here. Can we cut, you know, what we're 
asking for, and they said, yes. We came back with another 
request, and we didn't get that total, but we got about 1.5, 
and we're very thankful for that.
    I just want to say she's going to talk about all this 
ridership and stuff, but most importantly I think what is very 
interesting about this issue is this is at the University of 
Florida. This is a program that students have increased their 
own fees on, specifically for the fact of riding buses. They 
understand how important this issue to themselves is, and so 
they've actually put a tax on themselves. So with that, I'd 
like to turn it over to Mayor DeLaney and certainly reiterate 
our thanks from last year.
    Ms. DeLaney. Thank you, Mr. Chairman, and members it's 
truly an honor to have the opportunity to come and speak with 
you this morning, although I think it's afternoon by now.
    First, I would like to thank you Chairman Wolf and the 
members of the Transportation Appropriations Subcommittee for 
allocating $1.5 million of bus capital funds for Gainesville 
for Fiscal Year 1999. To accelerate delivery of the buses, we 
are cooperating with Hartline in Tampa to purchase low-floor, 
hybrid electric buses with the earmarked funds.
    Second, I would like to bring you up to date on our efforts 
to improve transit in the Gainesville area. Our regional 
transit system has just completed its best year ever. Ridership 
on city bus routes increased by 1,000,000 passengers in 1998, 
to 2.3 million passengers, up from 1.3 million in 1997. Total 
ridership, including the University of Florida campus shuttle 
routes was 3.3 million passengers.
    To meet the increased demand for transit in Gainesville, we 
had to acquire 10 used buses from Lynx in Orlando and 11 used 
buses from PSTA in St. Petersburg this past year. The average 
age of our fleet of 62 buses is now 10 years old.
    This year we are seeking the balance of the funds we 
requested last year, of $6,000,000 to purchase 20 ADA 
accessible alternatively fueled buses.
    We are continuing our efforts with our partners--Alachua 
County, the Florida Department of Transportation, the 
University of Florida, and the University of Florida Student 
Government to enhance bus service in the Gainesville 
Metropolitan Area.
    The University of Florida Student Government has approved a 
doubling of the student transit fee so that more transit 
service can be provided from the off-campus student housing 
areas. Since all University of Florida students are now paying 
a transit fee, we are honoring University of Florida student 
IDs as unlimited use bus passes. The program began in August, 
and we have already carried well over 1,000,000 University of 
Florida student passengers on our transit system.
    Our weekday ridership on all routes is now in excess of 
21,500 passengers--that's per day, compared to 12,400 a year 
ago, and 11,238 two years ago. Gainesville is making transit 
work in an urbanized area of only 140,000 in population. Let me 
repeat that. We're carrying 3.3 million a year with a 
population of 140,000. We will hit 5,000,000 this year.
    Your allocation of bus discretionary capital funds to 
Gainesville to replace overage buses will help us enhance the 
quality of life for our community. We also hope to show that 
public transit can play an important role in a sustainable 
transportation system, even in a medium-sized city like 
Gainesville, Florida. Thank you for your consideration. I'll be 
happy to answer any questions. And go Gators.
    [The prepared statement of Paula Delaney follows:]
    Offset Folios 300 to 312 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                   ORANGE COUNTY TRANSITWAY CORRIDOR


                                WITNESS

JAMES W. SILVA, DIRECTOR, ORANGE COUNTY TRANSPORTATION AUTHORITY
    Mr. Wolf. Mr. Silva.
    Mr. Silva. Okay, I am. Well, first of all good afternoon, 
Chairman Wolf and Congressman Packard, and committee members.
    I am Jim Silva, director of the Orange County 
Transportation Authority, speaking on behalf of our Chairman 
Tom Wilson. I'd like to thank you for this opportunity.
    Our Rail NewStart Project in Orange County, California, 
will hook Fullerton, Irvine, and the transit way corridor. It 
will affect over 2.7 million people in Orange County. It will 
be 28 miles between Fullerton and Irvine, linking major 
employment, recreation, shopping, and activity centers, and 
high density urban housing.
    We anticipate building a 15-mile starter segment beginning 
in the year 2003 and completing the rest by 2020, with other 
extensions to follow. By the end of the year, we'll have 
finished the draft environmental impact statement and selected 
an initial operating segment for the preliminary engineering.
    The Transit Way Corridor Rail Project is authorized in TEA-
21 for final design and construction. Our board has adopted a 
funding strategy for construction and created an operating 
endowment to cover rail operating costs through the year 2020.
    We need a New Start appropriation of approximately 
$15,000,000 for the year 2000, and we have four reasons why.
    Number one, the project is Orange County's highest priority 
project for the next decade.
    Number two, a year from now, we'll be entering the final 
design of $100,000,000 planning stage program.
    Number three, we're looking for 50 percent New Start 
Federal participation by our project's end, not as much in the 
early years, but it will level off in the final years.
    Number four, to begin to get there, we need your help to 
ramp up our annual appropriation. We received only $2.5 million 
for this year.
    And in closing, Orange County is a large county, fifth in 
the Nation, with a population of 2.7 million. Our bus system is 
25th biggest in the Nation. Our transit way corridor rail line 
will connect cities like Anaheim, Santa Ana, Irvine, and 
Disneyland, along with South Coast Plaza, John Wayne Airport, 
and business complexes all over Orange County. The projected 
daily boarding will be over 55,000, but like I said earlier, it 
will affect close to 2.7 million people that do reside in 
Orange County. And at this time, I'd be happy perhaps any 
questions.
    Mr. Wolf. Good. Thank you very much. I have no questions on 
these projects. I do have one question, Mr. Smith, on another 
issue. And I don't want to put you on the spot, if you want to 
just submit it in writing, but I would like to know. I put in 
legislation to abolish the cruises to nowhere, which are now 
running rampant down in your State. Your State has had three 
different referendums where the people of Florida have voted 
overwhelmingly, and your Attorney General Mr. Butterworth has 
been in touch with many others against gambling.
    Now, we have cruises to nowhere, going out beyond the 
three-mile limit, and I haven't heard from any of the officials 
from Miami. And do you have a position on this, or do you want 
to think about it and get back to me? I'd like to know because 
I'm hearing from citizens in your area and I'd like to know 
what the elected officials feel about this.
    Mr. Smith. Well, it's not an issue that comes up within my 
city. I know that in Broward County it's a big issue. I will be 
happy to see if our city has a position on it and let you know.
    Mr. Wolf. Good. If you could, I'd appreciate it. Great. 
Thank you.
    Mr. Smith. Thank you.
    Mr. Wolf. Thank you very much. Mr. Packard?
    Mr. Packard. First of all, I want to just to comment, Mr. 
Chairman, that I support the projects that Mr. Silva has 
outlined for you in Orange County. That too is part of my 
district and very important to the circulation system of the 
entire county.
    Mr. Silva, what is the cost sharing formula for your 
project that you're asking $15,000,000 for?
    Mr. Silva. It will be a 50-50, on a 50-50 cost sharing 
basis.
    Mr. Packard. That also is very good. Thank you. Thank you, 
Mr. Chairman.
    Mr. Wolf. Ms. Kilpatrick? Mr. Serrano? Okay, thank you all 
for your----
    [Chorus of thank you's.]
    [The prepared statement of James Silva follows:]
    Offset Folios 318 to 320 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. I appreciate it very much. Next, Mr. Millar and 
Mr. Barker, and Mayor Bartlett, and Mr. Turner.
    Your full statements will appear on the record. You can 
proceed.
                              ----------                              

                                      Wednesday, February 10, 1999.

                        PUBLIC TRANSIT PROGRAMS


                                WITNESS

WILLIAM W. MILLAR, PRESIDENT, AMERICAN PUBLIC TRANSIT ASSOCIATION
    Mr. Millar. Thank you, Mr. Chairman. I'm Bill Millar, the 
president of the American Public Transit Association. I'll try 
to get you back on schedule a little bit.
    I have three points to make to the committee this morning.
    First, I want to give thanks.
    Second, I want to deliver some good news.
    And third, I want to share with you our view of the funding 
needs of public transit for the year 2000, Fiscal Year 2000.
    First the thanks. We want to thank you, Mr. Chairman, for 
your leadership not only of this committee, but I want to speak 
both in my role at APTA and also as a resident of Northern 
Virginia. We appreciate very much the leadership you've taken 
to try to get State and local officials together to work on 
congestion problems, particularly in the Dulles Corridor. And 
we appreciate that very, very much indeed. Also to this 
committee for your efforts, particularly last year and a very, 
very difficult year, as everyone hoped the budget would come to 
balance. You were able to make some additional money available 
over and above the guarantee that was provided in TEA-21 for a 
high national priority, namely the Access to Jobs Program, and 
we appreciate that very much indeed.
    Now, let me turn to the good news. Year after year, I and 
perhaps my predecessors before me would come to this committee, 
and we would always say, if you just made a little more 
investment in public transit, things would get a little better. 
Well, I'm here to report to you now that the preliminary 
figures for 1998, the year just ended, show that transit 
ridership across America has grown again, over four percent. We 
are now up to almost 9,000,000,000 trips. This number of trips 
is, by far and away, the highest number of transit trips that 
have been made in modern history. In fact, it is higher than 
any year since the Federal Government started investing in 
public transit back in 1961. So, I think it shows that a 
variety of reasons, a lot of effort by the Federal Government, 
a lot of effort by local communities, lot of effort by transit 
systems to improve their service--a team effort--and a great 
economy helps, too--has really shown this increase. And it's 
not just in one or two communities. Some samples: in Houston 
it's up nine percent. Kansas City, which had 15 years of 
decline is up; San Diego, 13 percent; New York, 9 percent; 
Minneapolis, 6 percent; and here in Washington, D.C., over 4 
percent. So, again, I think we're seeing the return on the 
investment that's there. It's a return on investment both to 
meet national priorities, such as improving access to 
communities for all our citizens under the Americans with 
Disabilities Act; for reducing traffic congestion. In fact, a 
recent study on road safety was showing that transit can make a 
contribution to even solving issues like road rage and things 
of that sort.
    Nationally, we've been a major part of the welfare to work 
effort--the access to jobs that I referred to earlier. And so 
all in all, I think we've been able to show transit's 
contributions are growing, indeed.
    Now, let me close by turning to budget requests. It would 
surprise you, no end, if the head of APTA came and said, we 
certainly would hope that the committee could appropriate the 
full amount of money that is authorized, which is $6.8 billion, 
and we will be happy to work with you in that regard. Of 
course, we all know that DOT has said the needs are at least 
$14 billion, so even if we got the fully authorized level, we'd 
still be not where we need to be. But it's a good step in the 
right direction.
    Also, I want to comment on the President's budgetary 
proposal. The President recently put out what we think is a 
very creative budget proposal to make $6.1 billion available 
for public transit in the year 2000. We think that's a very 
good start on the needs. We particularly appreciated that in 
areas that will help build our cities and help make our transit 
systems that more successful, they want to put it there. But we 
are very concerned that with the Congress just having passed 
the TEA-21 legislation last spring that established certain 
firewalls and certain patterns that we wonder if you can't get 
to the same level of funding the President's talked about or to 
the totally authorized level by working on the general fund 
side rather than the Highway Trust side of that. But then, 
again, that's a judgement for the Congress to make.
    Mr. Wolf. Meaning, meaning what? That you would take it----
    Mr. Millar. Meaning we don't think we ought to breach the 
highway firewalls there.
    Mr. Wolf. So where would you take it--where would you take 
it from then?
    Mr. Millar. Our view is that it ought to come out of the 
general fund side of the equation. We do think that it ought to 
be spread through there.
    Mr. Wolf. Such as what programs?
    Mr. Millar. I'm not familiar with the details of all the 
myriad of hundreds of billions of dollars of programs in the 
general fund, but we would be happy to work with you on that 
particular point.
    Mr. Wolf. Do you really think that's practical, though--
honestly?
    Mr. Millar. To fund it the way the President has proposed 
or fund it the way----
    Mr. Wolf. No, to go outside to----
    Mr. Millar. To go outside the firewall?
    Mr. Wolf. Yes.
    Mr. Millar. We're concerned that it may not be practical, 
given the law and the difficulty in passing the law last year 
to bring money across the firewall to transit. I mean, there 
are mechanisms to do it through flexible funding, if States and 
localities chose to do that. We're concerned that that's 
probably not what the Congress is going to be willing to do, to 
do, given its recent history on that point.
    I'll conclude by just again ending where I started. Thank 
you very much for your leadership. We look forward to 
continuing to work with you and the committee as you do your 
tough duties.
    Mr. Wolf. Thank you. Mr. Barker?
    [The prepared statement of William Millar and responses to 
questions follow:]
    Offset folios 328 to 339 insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                 COMMUNITY LINK 21 TRANSPORTATION PLAN


                                WITNESS

MAYOR BOB BARTLETT, MONROVIA, CALIFORNIA, AND PRESIDENT, SOUTHERN 
    CALIFORNIA ASSOCIATION OF GOVERNMENTS
    Mr. Bartlett. Yes. Good afternoon, Chairman Wolf, and 
members of the committee. I am Bob Bartlett, Mayor of the City 
of Monrovia, and president of the Southern California 
Association of Governments.
    The Southern California Association of Governments is the 
largest metropolitan planning organization in the Nation. The 
SCAG region encompasses the six southern California counties of 
Imperial, Los Angeles, Orange, Riverside, San Bernardino and 
Ventura. One hundred and eighty-four cities comprise the SCAG 
region, and represent a total population of over 16,000,000 
people.
    We are responsible for the preparation of regional policies 
and action plans that address regional issues which cross city 
and county boundaries. I come before you today to request 
appropriation for Fiscal Year 2000 in the amount of 
$14,500,000, representing four major areas. And they are so 
important to us because they allow us to make conformity 
findings for these nearly 17,000,000 people.
    Last year, Southern California Association of Governments 
adopted Community Link 21, a 20-year regional transportation 
plan. The adoption of this plan was a three-year process that 
involved significant discussion and debate at local government 
leaders, and with leaders of southern California, to seek a 
plan for the 7,000,000 people and 4,000,000 jobs which will be 
coming to our region in the year 2020. To place the growth in 
perspective, we are faced with the equivalent of adding two 
cities the size of Chicago to the southern California 
population within the next generation.
    The adoption of the regional transportation plan is the 
first step towards addressing the significant regional growth. 
Our next step is to work with our local jurisdictions and our 
subregional partners to implement various components of the 
plan. Toward that end, I come before you today, to request 
appropriations in four key areas.
    First, we are seeking $6,000,000 in phase one, 
preconstruction planning activities as outline in Magnetic 
Levitation Transportation Technology Deployment program, under 
the Transportation Equity Act of the 21st Century. SCAG intends 
to use the funds to conduct an extensive review regarding the 
feasibility of MagLev technology in the intra-regional setting. 
We will study the corridor between Los Angeles International 
Airport and March Air Force Base, with an intermediate stop at 
Union Station in Los Angeles and Ontario International Airport.
    Second, we are requesting $3,000,000 for the purposes of 
carrying out a freight factor study as authorized in TEA-21, 
Section 5109. As an international--and as an international port 
of entry, southern California's experience--experiencing 
significantly increased pressure on its transportation 
infrastructure. And we believe that a review of the freight 
factor formula will enable our region and others throughout the 
Nation to receive future transportation funding, which 
recognizes the impacts of the global economy.
    This study will serve as a focal point for developing the 
methodology, supportive data, reliability, and equity in the 
establishment of future freight factors.
    Third, we are requesting $3,000,000 for the California 
Regionwide Movement Study. During 1998, we began the 
deliberations on its significance of east-west corridors for 
the movement of goods across the Nation from the Pacific Rim, 
Mexico, and Central America.
    The California segment of the southwest passage was 
delineated in TEA-21. We are seeking this appropriation to 
focus a portion of the goods movement discussion on the 
importance of east-west corridors during the southern 
California region and other parts of the Nation.
    And finally, I'm here to request $2,000,000 for the 
community and environmental transportation acceptability 
process, CETAP. As I mentioned earlier, our region is 
undergoing significant growth. One of our key growth areas is 
in Riverside County, located in the east metropolitan Los 
Angeles area of SCAGS region. And we've entered into a 
partnership with the County of Riverside and Riverside 
Transportation Commission for the initiation of comprehensive 
planning process, which will ultimately enable Riverside County 
to move forward in a more integrated fashion toward the 
addressing of issues associated with the significant growth.
    Our goal with these requests, and your support is toward 
the implementation of various elements of our regional 
transportation plan. And, again, I emphasize without your help, 
we cannot make these conformity findings.
    I want to thank you for giving us this opportunity today; 
and want to thank you for all the work that you've done, 
Congressman, on TEA-21 and making sure that our region is 
whole.
    Mr. Wolf. Why, thank you very much. We probably--unless you 
think you can finish in about two minutes. We're going to 
probably have a recess to----
    Mr. Parker. We'll wait.
    Mr. Wolf. So you want to wait?
    Mr. Parker. We'll wait.
    Mr. Packard. Mr. Chairman, just before I leave, I want to 
thank Mr. Bartlett, the mayor that I've worked with for some 
time on his appearance here.
    Mr. Bartlett. Thank you, Congressman.
    [The prepared statement of Bob Bartlett follows:]
    Offset folios 345 to 347 insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. I apologize. You never know when the votes are 
coming. We can resume. Thank you.
                              ----------                              

                                      Wednesday, February 10, 1999.

                             PROJECT ACTION


                               WITNESSES

J. BARRY BARKER, EXECUTIVE DIRECTOR, TRANSIT AUTHORITY OF RIVER CITY, 
    KENTUCKY, ON BEHALF OF EASTER SEALS
MAUREEN McCLOSKY, DIRECTOR OF ADVOCACY, PARALYZED VETERANS OF AMERICA
    Mr. Barker. Mr. Chairman, thank you for the opportunity to 
speak today on behalf of Easter Seals and in support of Project 
Action.
    My name is Barry Barker. I am the executive director of the 
Transit Authority of River City in Louisville, Kentucky. With 
me is Maureen McClosky, who is the director of advocacy for the 
Paralyzed Veterans of America. We are the chair and vice chair 
of Project Action's national steering committee.
    Your subcommittee's support of Project Action has helped 
create a valuable resource that is used and supported by both 
the transit and disability communities nationwide. Mr. 
Chairman, a little less than two years ago, you said, public 
transportation is primarily about getting people to work, 
getting children to school, providing the way for people to get 
to the hospital, to the store, to visit friends and relatives 
across town, and across the country.
    Public transportation represents a vital transportation 
link for many people, including millions of Americans with 
disabilities. And without public transportation, many people 
would be virtually stranded, unable to venture beyond the 
confines of their neighborhoods.
    Mr. Chairman, I think you really captured role that access 
of transportation plays in the lives of people with 
disabilities. Those of us who provide transit services are 
earnestly working to achieve not only the letter, but the 
spirit of the Americans with Disabilities Act. Our need for 
assistance and guidance is ongoing.
    With this subcommittee's support, Project Action is the 
principal resource with tools, training, and procedures making 
ADA work. In Louisville, for example, we are using the stop 
calling training tools developed by Project Action to improve 
our service. Project Action this year will, among its various 
efforts, host two national technical conferences, addressing 
such topics as reducing paratransit costs, solving rural 
transportation issues, and addressing the transportation issues 
of older adults.
    Project Action as well will sponsor technical assistance 
this year, focused on such subjects as focusing on the needs of 
specific sectors of the disability community, increasing 
collaboration between transit operators and the disability 
community, focusing access to jobs activities on persons with 
disabilities, and assisting over the road bus operators.
    The demand for Project Action information continues to 
grow. In the first quarter of Fiscal Year 1999 alone, Project 
Action has handled orders for over 1,700 documents, responded 
to over 1,000 calls, persistence of various kinds, produced and 
distributed the Project Action Update to over 10,000 
individuals and transit agencies, and received over 35,000 
visits to its Project Action web page.
    Project Action is the singular, most positive force 
bringing the transit and disability communities together. On 
behalf of the millions of people with disabilities who rely on 
public transit, and the thousands of men and women in the 
transit industry working to serve them thank you for your past 
support of Project Action.
    On behalf of Easter Seals, we respectfully request this 
subcommittee provide $3,000,000 to fund Project Action in 
Fiscal Year 2000. This funding level will ensure that Project 
Action can continue to develop and disseminate workable 
solutions to the most critical issues facing transit operators 
and the disability community. Project Action is a credible, 
cost effective and creative program. It has strong support in 
both the disability and transit communities--and with the 
Federal Transit Administration.
    On behalf of Easter Seals, thank you.
    Mr. Wolf. Thank you very much.
    [The prepared statement of J. Barry Barker follows:]
    Offset Folios 353 to 362 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                            HIGHWAY RESEARCH


                                WITNESS

DANIEL S. TURNER, PRESIDENT, AMERICAN SOCIETY OF CIVIL ENGINEERS
    Mr. Turner. Thank you, Chairman Wolf and subcommittee 
members.
    My name is Daniel S. Turner, and I am the president of the 
American Society of Civil Engineers, a 125,000-member 
organization. We appreciate the opportunity to offer our views 
regarding the President's proposed budget for the Department of 
Transportation for the year 2000.
    In the interest of your time, I'd like to limit my remarks 
to highway research, because many of our members practice in 
the area of studies, planning, and implementation of 
innovations that offer us transportation efficiencies.
    As you are aware, the budget has recognized that there's 
approximately $1.4 billion in gasoline tax revenues into the 
Highway Trust Fund beyond that anticipated by TEA-21. That same 
budget has recommended that $250,000,000 of those go directly 
to transportation research, which we applaud.
    We are aware, and we appreciate the Congress' good will and 
hard work in increasing transportation funding in America. TEA-
21 was magnificent. At the same time, we think it shortchanged 
national research severely.
    And I'll offer you just a couple of examples. ASHTO has 
identifed at the current time $73,000,000 worth of research 
that needs conducting in the current year. And we only have 
about--excuse me--$21,000,000 from which to address it. That 
affects projects like the long-term pavement performance 
project, which we're searching for the best materials, the best 
techniques to leave on the roadway to diminish maintenance, to 
increase life, and to get the life cycle costs down.
    Under TEA-21, we've dropped from about $15,000,000 to 
$9,000,000. It's not just that we're dropping particular 
projects. The money that is left is restricted. It is not very 
flexible. We'd like to see that changed.
    TEA-21 had three major impacts to the national 
transportation research program. That's basically in FHWA.
    First, was it caused a real reduction in the amount of 
money available, because we're being placed under obligation 
limitations. The Federal Highway Administration's research and 
technology deployment budget, for example, is down five percent 
in real dollars because of the obligation limitations. That 
seems like the wrong way to go.
    The second thing that's happened is that because of 
restrictions with TEA-21, we've seen that there's not very much 
flexibility left in the money can be used.
    I'll give you examples of that. Because of congressional 
directives in TEA-21, 35 percent of the technology deployment 
money has already been allocated. Other directives account for 
another 40 percent of that. So, for technology deployment over 
the life of the bill, 75 percent of the money is already 
allocated. The remaining 25 percent has got to be used to cover 
basic needs. As a net, if there were to be a breakthrough in 
technology or a new method that's advocated, offers great 
promise, there is no flexibility left to move money nationally 
to take care of that. What's happened is that we have tied up 
the money already.
    The third impact that it would have, the first one being 
the obligation limitation, the second a lack of flexibility The 
third is devolvement of the funds and moving them to the 
States. And the research money has really helped the states. 
They're able to attack their own problem. They're able to look 
at immediate difficulty. Unfortunately, that's left too few 
funds to look at the national picture, and the national role of 
Federal Highway research should be looking in to the future, 
looking over the horizon and steering us all in that direction. 
And that's so long-term based that the individual States are 
having trouble recognizing it. So TEA-21 has three research 
difficulties we see. Number one, the obligational limitation. 
Number two, lack of flexibility of the funds that are there, 
and number three major portions of the money have been moved to 
the States.
    And we'd recommend some actions to address that. Number 
one, amending section 1105 and what we'd like to do is make--
see a priority given to transportation research, so that we can 
talk about some of the $190,000,000 that the President has 
recommended go into the Highway Research and Technology 
Program.
    Number two, we'd like to have section 5002 amended, and 
what that would do would be to take the obligational limitation 
away from research.
    And I close very quickly. About a year ago, the American 
Society of Civil Engineers evaluated ten categories of 
infrastructure. We found that 10 had diminished in stature 
tremendously in 10 years. We given an overall grade of ``D'' to 
the American's infrastructure, and we held a national press 
conference to announce that. It's our concern that no one's 
looking out, long-term, for the interest of infrastructure and 
that someone must. So, we strongly encourage you that research 
is the answer to infrastructure decline. If we can find the 
most efficient ways to use our money on the most efficient 
materials, we'll take care of the future of America. And we 
encourage you to do so.
    Thank you for allowing me to be here. And I'll be glad to 
answer questions for you or any of the subcommittee members.
    [The prepared statement of Daniel Turner follows:]
    Offset Folios 368 to 379 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Thank you very much. ASHTO came by yesterday to 
make basically the same case that you just made, I have no 
questions. I appreciate very much your testimony.
    Mr. Bartlett. Thank you, sir.
    Mr. Barker. Thank you.
    Mr. Wolf. Next the Non-Commissioned Officers Association 
and the Fleet Reserve Association. And again, I apologize. Is 
there anyone in the audience who has an airplane that you're 
going to miss if because we're running behind? Nobody.
                              ----------                              

                                      Wednesday, February 10, 1999.

                              COAST GUARD


                                WITNESS

MICHAEL OUELLETTE, SGT. MAJ. U.S. ARMY (RET.), DIRECTOR OF LEGISLATIVE 
    AFFAIRS, NON-COMMISSIONED OFFICERS ASSOCIATION OF THE UNITED STATES 
    OF AMERICA
    Mr. Wolf. Welcome.
    Mr. Ouellette. Good afternoon, Mr. Chairman.
    Mr. Wolf. Welcome. Your full statement will appear on the 
record.
    Mr. Ouellette. All right.
    Mr. Wolf. And proceed. And if you can keep it within the 
five minutes, we would appreciate it very much.
    Mr. Ouellette. Certainly will, Mr. Chairman. Thank you very 
much. Mr. Chairman, the Non-Commissioned Officers Association 
appreciates the opportunity to appear before this subcommittee 
on behalf of the members of the United States Coast Guard.
    The Association has prepared and submitted a detailed 
statement which the primary quality of life legislative issues, 
particular of enlisted Coast Guard men and women have been 
discussed. The efforts of this subcommittee have been and will 
continue to be vitally important to the well being of the Coast 
Guard force.
    Mr. Chairman, the Coast Guard is at a critical personnel 
juncture. The average ship that goes to sea today will be 
manned at 80 percent of its normal complement. Recruiting is 
down substantially. Still, the average recruiter must interview 
more than a hundred potential candidates to find one acceptable 
recruit. And the Coast Guard has had to expand the recruiting 
force substantially to meet its recruiting needs.
    The Coast Guard is not the only service reporting 
recruiting and retention difficulties. In fact, the Senate 
Armed Services Committee has already reported bill S.4 that 
will significantly increase military pay and change the 
retirement system and offer other benefit enhancements in 
response to manpower shortfalls.
    The major point the Association wishes to make to this 
subcommittee is that the decision to maintain a credible Coast 
Guard automatically carries with it a responsibility to take 
care of those who comprise the force, regardless.
    This subcommittee has done just that in the past. Yet, much 
more may have to be done this year, beyond the Administration's 
plan, to avert a major manpower crisis. NCOA has outlined all 
of the provisions of S. 4 that included many pay, personnel, 
medical care, and quality of life improvement recommendations 
intended to address those areas believed to be able to 
significantly improve the overall well being of Coast Guard 
members, retirees, their families and survivors. As a matter of 
parity, the same recommendations will be made to those 
committees and subcommittees maintaining responsibility for the 
other services.
    Mr. Chairman, perhaps the single most valuable effort this 
committee--this subcommittee could make to the well being of 
the Coast Guard enlisted community and the armed forces in 
general is to send a signal that this subcommittee is prepared 
to deal with legislative efforts to improve pay and benefits 
beyond the President's budget if needed. Any effort this 
subcommittee can make to increase military pay and reduce the 
current estimated pay disparity with the civilian workforce and 
provide the necessary funding to support pay improvements being 
considered by Congress this year will make a difference in the 
Coast Guard's ability to recruit and retain people to meet 
their wide range of mission responsibility.
    The Coast Guard relies on the funding decisions made by 
this subcommittee to maintain equal footing or parity with the 
other DoD services in terms of quality of life, program 
availability.
    Mr. Chairman, NCOA appreciates the opportunity to present a 
number of enlisted views and testimony today, and looks forward 
to addressing further details or any other issues with you or 
your subcommittee staff. Thank you.
    [The prepared statement of Michael Ouellette follows:]
    Offset Folios 386 to 408, 408\1/2\ Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                              COAST GUARD


                                WITNESS

JOE BARNES, MASTER CHIEF, U.S. NAVY, (RET), DIRECTOR OF LEGISLATIVE 
    PROGRAMS, FLEET RESERVE ASSOCIATION
    Mr. Barnes. Mr. Chairman, and distinguished members of the 
subcommittee, the Fleet Reserve Association thanks you for the 
opportunity to present its position on the Fiscal Year 2000 
U.S. Coast Guard budget.
    In keeping with our mission, personnel and quality of life 
issues are the focus of our complete statement. And I'll 
briefly summarize key points.
    The Coast Guard is vitally important to our Nation. Mission 
requirements are formidable and include a broad range of 
essential safety and security services often overlooked by the 
American public.
    FRA believes that the Coast Guard deserves a more stable 
and consistent annual budget with less reliance on supplemental 
funding. This is especially important with regard to pay and 
other quality of life programs requiring adequate funds to 
ensure parity with the Department of Defense.
    FRA strongly supports increased Coast Guard funding for 
Fiscal Year 2000. There is a disconnect between the budget 
request, which will enable the Coast Guard only to maintain 
basic services, and the increasing scope of drug interdiction 
work and other mission requirements. FRA is encouraged that the 
Administration is responding to the overriding need to close 
the pay gap, reform the pay tables, and repeal the Military 
Retirement Reform Act of 1986, known as REDUX.
    The growing retention, recruiting, and morale problems in 
all services are resulting in a return to the hollow force era. 
Full ECI pay adjustments remain a top priority for FRA and the 
military coalition
    The request for a 4.4 percent active duty pay increase is 
welcomed, followed by full ECI adjustments in subsequent years. 
If enacted, this will begin closing the 13.5 percent pay gap 
between military and civilian pay levels.
    Pay table reform is also requested with targeted pay hikes 
set to become effective on 1 July 2000. FRA appreciates the 
inclusion of funds to cover these important changes. However, 
additional funding may be required to cover increases if they 
are authorized. And additional funds are needed for targeted 
bonuses and critical Coast Guard rates.
    The budget also includes a partial repeal of REDUX. FRA 
urged the introduction of legislation in the 10th Congress to 
totally repeal redux. As part of this initiative, active duty 
personnel were surveyed on their career decisions. And 64 
percent answered yes, when asked if REDUX is a significant 
issue in their career plans. Despite the spin on returning to a 
50 percent retirement plan, the Administration's proposals only 
a partial repeal of REDUX and will retain limited retiree COLAs 
and negatively impact on benefits for Coast Guard widows 
receiving survivor benefit plan annuities.
    Congressional action on these key issues will send a 
powerful message to exhausted personnel, many of whom are 
working 14 to 16 hours per day.
    The Coast Guard is short 700 enlisted personnel and 400 
reservists? This increases workloads and often results in 
temporary personnel assignments from one command to another to 
cover the gaps.
    The Coast Guard recruiting program must compete with high 
profile, expensive ad campaigns by it's sister services. The 
association appreciates the enhanced recruiting resources 
authority this year, and strongly supports the addition of 
billets for 50 recruiters in Fiscal Year 2000. FRA notes a 
discrepancy between maintaining the Coast Guard selected 
reserve in strength at 8,000, with an appropriate requests that 
only supports training and support for 7,600 reservists. FRA 
requests your approval of an appropriation of $77,000,000 to 
achieve the in strength goal
    Increased reliance on reserve support more than justifies 
this request. Access to health care, is a major concern for 
Coast Board personnel--remote assignments are far from military 
health facilities, and only about half the Coast Guard families 
within the U.S. can participate in TRICARE Prime. Others must 
utilize TRICARE standard which covers only 80 percent of the 
allowable medical charges, placing what often is a significant 
financial burden on personnel and their families.
    FRA urges your support of timely implementation of TRICARE 
Prime to remove duty locations.
    Finally, FRA asks your support for increased education 
benefits and funds for the leased housing subsidy to augment 
BAH rates. The latter is especially important for enlisted 
personnel, three quarters of whom do not reside in government 
housing. BAH does not fully cover housing costs in all areas, 
and survey data that determines rates is often inaccurate.
    The dedicated personnel of the Coast Guard deserve 
increased pay and other benefits in recognition for their 
exceptional service to our Nation. FRA asks for your support of 
these improvements to ease the growing recruiting and retention 
challenges and subsequently improve readiness. Funding these 
important programs should be a top priority, especially in 
these era of budget surpluses.
    Thank you again for your outstanding support, and I stand 
ready to answer any questions you may have.
    Mr. Wolf. Well, thank you. I don't know that I have any 
questions. I agree with both of you. But I don't think your 
recommendations really will go far enough to kind of deal with 
the problem. We have a $22 billion shortfall with regard to the 
defense if you put the Coast Guard involved.
    This Administration has deployed--we have thirty some 
deployments, from Haiti to now Bosnia, which I have supported. 
I was one of the Republican members that supported that 
deployment. We're ready to probably deploy 2,000 to 4,000 to 
5,000 in Kosovo. Last year, I spend a couple days with the 
troops in Bosnia, the guys that had been in--men and women--had 
been in Desert Storm; had been in Haiti. Some had been in 
Somalia; had been in one other--one I forget where--and the 
guys that I'm are literally never, never home. They also talked 
about the difficulty of the divorce rate going up, because 
they're not home. The telephone calls back and forth. The 
degree of tearing the family apart.
    We also are seeing a military that is fragmented so far, 
and we're filling it with people coming from one income level, 
and it's not cross section as we used to have in the country. 
And I think it's--you know, I'm for more benefits for the 
military. I'm for, I mean, if you will changing the caps, 
particularly with regard to defense. But I don't know all of 
that, particularly in this great economy is really going to do, 
to solve the problem. I think it's, it's a deeper thing. I had 
even talked about perhaps putting in a national commission to 
look, to see what is taking place with regard to service and 
not service and what can we do--and benefits are a portion of 
it, but there's some other areas. But you are exactly right, 
and it's not only the Coast Guard. There are aircraft carriers 
out that are 70 percent manned. We're losing pilots 
unbelievably, the number. And, of course, the airlines booming 
now, they can all move out of the Navy or the Air Force and the 
Marine Corps and come down and work for American or United or 
Delta or one of the other regionals. It's a tough, tough issue. 
And the deployments in this very difficult time are going up. 
They're asking the Coast Guard to do more with regard to 
interdiction, with regard to many other things. And so, I think 
every time the Administration deploys and says, and again, I 
was one of the Republicans who supported it, they never then 
say how they're going to pay for it. So what they do is they 
cannibalize the existing money and take it away, which makes 
the conditions--some of the base housing is absolutely 
atrocious. I mean, you would not ever live in it yourself. So 
you're right. I completely agree with you.
    I don't know that just S. 4 is going to be the answer. I 
just don't think that's going to solve--it's a long-term 
institutional structural problem that this country has to 
address, because we cannot ask these men and women to lay down 
their life, to risk their lives, to serve for us, to do with 
the Coast Guard and then say, we're not going to treat you 
fairly. I mean, it just is fundamentally, almost immoral. But 
yet, we have been doing it for the last couple of years.
    Mr. Ouellette. Mr. Chairman, I don't really think that Joe 
and I--we don't know if S. 4, you know--other people are saying 
that S. 4, you know, is going to be the answer. We don't know. 
But it's probably a good place to stop. But I'm very impressed, 
to be honest with you, I know your responsibility here has to 
do with making funding decision for the Coast Guard as part of 
that. But I'm very impressed with your personal knowledge of 
the overall, because you as chairman of this committee or as a 
member of Congress do have votes every year on the entire armed 
forces and what goes on, and I'm very impressed with your being 
up to speed on all of what those issues.
    Mr. Wolf. Thank you. We're down to $22 billion, and yet the 
President in his State of the Union acted like he was putting 
more money in, but in essence he was putting about $4 billion 
in, and when you look at the shortfall--and that does not even 
pay for the troops that we will almost certainly looks like if 
they reach agreement in France we'll be putting into Kosovo. 
And believe me, if we put troops into Kosovo, they won't be end 
of the year. Two years? No. Three years. probably not. Probably 
longer. So it's a tough, tough, problem.
    And I particularly feel for the enlisted men. And I think 
if you do a study, I may be wrong, you'll find family breakups 
are probably at an all time in the military, because you can't 
deploy a person over and over and over on over. Never give them 
an opportunity to come home and spend time with the family. 
It's very, very tough. It destroys the family. Yet, that's what 
we're doing.
    Thank you very much. I appreciate it.
    Mr. Barnes. Thank you, Mr. Chairman.
    Mr. Ouellete. Mr. Chairman, thank you.
    [The prepared statement of Joe Barnes follows:]
    Offset Folios 418 to 430 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. High Speed Ground Transportation Association and 
the National Association of Railroad Passengers, the American 
Passenger Rail Coalition.
                              ----------                              

                                      Wednesday, February 10, 1999.

                    HIGH-SPEED GROUND TRANSPORTATION


                                WITNESS

MARK R. DYSART, PRESIDENT/CEO, HIGH SPEED GROUND TRANSPORTATION 
    ASSOCIATION
    Mr. Dysart. Good morning, Mr. Chairman, members of the 
committee. I'm Mark Dysart, president of the High Speed Ground 
Transportation Association.
    The High Speed Ground Transportation Association is a group 
comprised of railway equipment manufacturers, Federal, State 
local government agencies. Individuals, engineering firms and 
labor unions. As an aside and as a veteran, I'd like to thank 
you for your prior comments as well. Thank you. We do need to 
help the guys that are out there in the field.
    As we enter the 21st century, it's become evident that the 
current mix of transportation modes that we have do not help us 
fix our congestion problem. Inner-city passenger rail and all 
the other forms that we talk about in the High Speed Ground 
Transportation Association, from what Amtrak provides in inner 
city rail to the potential MagLev are all ways and forms by 
which we might help eliminate some of our congestion problems.
    Congress authorized $25 million for this year in the Next 
Generation program, and $10 million in planning funds. 
Unfortunately, the Administration has asked for only 12 of the 
25 and none of the 10.
    I'd like to take this opportunity as well to point out that 
in prior years, we did not get the $10 million that was 
authorized for planning funds in 1998 and 1999; and we need to 
make up $10,000,000 that we lost in next generation funds from 
prior years. HSGTA strong urges this committee to support full 
funding of high-speed ground transportation in this Nation. The 
25 million, the 9 million that we've missed from prior years. 
$10 million for planning this year, and $20,000,000 from prior 
years that have not appropriated.
    The Administration's request also includes three items to 
be funded from what has been called the Revenue Aligned 
Authority. Fifteen million for grade crossing; $10 million for 
train control systems; and $10.4 million for nationwide 
differential global position systems. It's important to note 
that the Administration did feel that these programs were 
meritorious, and included them in their budget request. And we 
don't have a problem with how we fund them necessarily as long 
as they get funded. But I would nonetheless ask this committee 
and urge this committee to fund these programs from the general 
account, if at all possible.
    MagLev deployment is another program that was included in 
the TEA-21 legislation. And at this current--at this time, it 
is not funded either from the general funds as it was intended 
by Congress. And we would ask that you support that funding as 
well. It's important that we not only increase our support to 
Amtrak and help it attain self-sufficiency with its incremental 
and its high speed rail programs that it will shortly deploy, 
but we need to also look at the research and deployment of 
faster systems that might just be the future of what we need 
for transportation in this country.
    High speed rail and incremental rail, as you know, can 
decrease congestion, can decrease pollution. It can increase 
our mobility, and as well as increase the productivity of this 
economy. It costs something $40 billion a year in lost 
productivity and what we lose due to congestion.
    I would also like to ask you to fully fund Amtrak as it has 
been requested--its $571,000,000 million, even though that is a 
little shy of what we would like to see, please do that as 
well. We urge the committee to do that. We intend to submit our 
complete written testimony shortly hereafter, and to make this 
brief, I'll end there. Thank you.
    [The prepared statement of Mark Dysart follows:]
    Offset Folios 436 to 438 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Thank you. Mr. Capon.
                              ----------                              

                                      Wednesday, February 10, 1999.

                                 AMTRAK


                                WITNESS

ROSS B. CAPON, EXECUTIVE DIRECTOR, NATIONAL ASSOCIATION OF RAILROAD 
    PASSENGERS
    Mr. Capon. Thank you, Mr. Chairman. We strongly support the 
571 and we appreciate very much your efforts and the 
subcommittee's efforts for the Fiscal Year 1999 level that 
worked out I think to full funding. Thank you very much for 
that.
    Obviously, we support full funding for the high speed rail 
authorization. I think a problem is that not only does rail get 
the end of the stick on Federal Transportation, but whereas the 
road and aviation programs are structured to encourage maximum 
contributions at the State and local level, rail passenger 
programs are not. And an important way to change that would be 
to focus on funding the planning--the high speed rail planning 
money. In that regard, I discovered after I wrote this 
testimony that there's actually $10 million from Fiscal Year 
1998, which was authorized and not requested or appropriated. 
And I would like permission to submit a clean copy of this that 
reflect that. And I--it's late, so I'll leave it at that. You 
know my views, and I'd be happy to answer any questions.
    [The prepared statement of Ross Capon follows:]
    Offset Folios 442 to 446 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                                 AMTRAK


                                WITNESS

HARRIETT PARCELLS, EXECUTIVE DIRECTOR, AMERICAN PASSENGER RAIL 
    COALITION
    Mr. Wolf. Ms. Parcells.
    Ms. Parcells. Mr. Chairman, members of the subcommittee. My 
name is Harriet Parcells, and I'm the executive director of the 
American Passenger Rail Coalition, which is a national 
association of railroad equipment suppliers and rail-related 
businesses.
    Thank you for the opportunity to testify before you today 
on the Fiscal Year 2000 appropriations for AMTRAK and funding 
to advance high speed rail.
    I will abbreviate my testimony, but ask that the entire 
statement be inserted in the record.
    Mr. Wolf. Without objection.
    Ms. Parcells. APRC members include companies that 
manufacture rail cars and locomotives, rail engineering and 
planning firms, manufacturers of rail break and cable. 
Companies that build and repair track and companies that 
provide information and communications services.
    I would like to echo to the comments of Mr. Capon, and 
thank you for you leadership on the funding of the AMTRAK in 
the current fiscal year, which ended up to be full funding as 
it emerged from Congress last year.
    All indications are that AMTRAK is moving in the right 
direction, under the leadership of the AMTRAK board of 
directors and president and CEO, George Warrington. AMTRAK is 
taking strategic action to reduce its operating cost, improve 
the quality of service to its customers and generate increased 
revenues by entering into new partnership and commercial 
business ventures.
    These actions are yielding positive results. AMTRAK 
ridership increased by 4.5 percent, the largest increase in a 
decade. Passenger revenues surpassed a billion for the first 
time in the corporations history, and in Fiscal Year 1998, 
AMTRAK finished the year, $4,000,000 better than expected.
    Our association strongly supports the $571,000,000 in 
capital appropriations for AMTRAK in Fiscal Year 2000, as 
included in President's budget, and we urge the subcommittee to 
fully fund the President's budget request for AMTRAK.
    We also support expanded definition of capital that would 
provide AMTRAK with the same definition of capital that applies 
to the Nation's urban mass transit systems and other modes of 
transport.
    The Nation's investment in AMTRAK is not nearly the 
provision of capital to the railroad, but also a source of 
economic activity that will filter through the Nation's 
economy. The railroad supply industry generates approximately 
$12 billion to $14 billion in annual sales. And it employs over 
150,000 people.
    And using the Department of Commerce's analysis of economic 
multiples for the rail equipment industry, the $2.2 billion in 
capital that Congress approved for AMTRAK in 1997, will yield 
net economic impacts of over $3 billion.
    Investments improve rail service and restore passenger rail 
stations. They're bringing new vitality and economic 
development to downtowns. Just yesterday, the Virginia 
Department of Rail and Transportation and AMTRAK joined 
officials from the city of Charlottesville, Virginia, to 
celebrate the dedication of their restored AMTRAK facility, 
which is expected to spur economic development in the downtown.
    In addition to the $571,000,000 for AMTRAK, APR asks the 
subcommittee to appropriate funding to advance high speed rail 
in key corridors and funding to promote rail safety.
    In the northeast corridor, in the Midwest, in the Pacific 
Northwest, southeast, Gulf Coast, and elsewhere where States 
are looking to rail. Increased rail speed and quality of 
service as a fundamental part of their strategy to assure 
future mobility and economic prosperity. State studies have 
found that investments to improve inter-city rail passenger 
service in key corridors are cost effective investments, 
compared to alternatives such as expanded highway capacity.
    The President's budget requests $12 million in general fund 
appropriations for the next generation high speed rail program. 
An additional $35 million to advance high speed rail is 
requested in funds that would come out of a portion of the 
increased gas tax revenues above those assumed in TEA21.
    We are disappointed in the reduced general fund 
appropriations requested by the Administration, and that's such 
a large portion of the funding for high speed rail to come from 
revenues on which agreement with Congress may or may not be 
reached.
    We support strong funding for highway grade crossing hazard 
elimination programs to enhance rail safety, and at this point, 
I'd like to just thank you, Mr. Chairman, and members of the 
committee for the opportunity to be here. For the support 
you've shown for AMTRAK and rail safety in the past.
    Mr. Wolf. Well, thank you very much. We appreciate you 
coming before the committee.
    Ms. Parcells. Thank you.
    [The prepared statement of Harriet Parcells follows:]
    Offset Folios 452 to 464 insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Next, Mr. Fisher, with the Federal Managers 
Association, and Mr. Van Cott, past president, Human Factors 
and Ergonomics Society.
                              ----------                              

                                      Wednesday, February 10, 1999.

                                  FAA


                                WITNESS

JOHN FISHER, FAA CONFERENCE CHAIRMAN, FEDERAL MANAGERS ASSOCIATION
    Mr. Wolf. Your full statement will appear in the record.
    Mr. Fisher. Thank you, Mr. Chairman. Mr. Chairman, ranking 
member Sabo, and members of the subcommittee.
    I'm John P. Fisher, and I'm president of the FAA Conference 
of the Federal Managers Association. My remarks today are 
exclusively those of FMA and do not reflect the official 
position of the Federal Aviation Administration. I would like 
to make note that my predecessor is here, and a member in your 
district, Mr. Bill Pearman, who you have met many times, and 
he's sitting back to my left.
    I would like to take this opportunity to provide you and 
the subcommittee with a brief update on the degree to which 
personnel flexibility has affected the ability of FAA managers 
who are career people to accomplish our agency's important 
mission.
    On November 15, 1995, the President signed into law the 
Fiscal Year 1996 Department of Transportation Appropriations 
Public Law 100-50. Under this law, the FAA has been exempt from 
governmentwide personnel rules contained in Title V, United 
States Code since April 1, 1996. On balance, the 1,600 FMA 
members who work for FAA view the extension of personnel 
flexibility to our agency as a positive development. FAA 
Administrator Jane Garvey is to be commended for the 
outstanding job she is doing under very difficult 
circumstances. Thanks in large part to the role you played, Mr. 
Chairman, in shepherding the Federal Employee Representation 
Improvement Act through the 104th Congress, Administrator 
Garvey continues to reach out to FMA for input on important 
decisions affecting the operations of the FAA.
    FMA, however, is particularly concerned about two aspects 
of the FAA's personnel flexibility and how it has been 
exercised. First, FMA is concerned about the impact the FAA's 
decision last year to bargain over supervisory staffing could 
have on the agency's operations. And, secondly, the FMA is 
concerned about the absence of Merit System Protection Board of 
Peer Rights for FAA employees.
    On October 9, 1996, the President signed into law the Air 
Traffic Management System Performance Improvement Act. Under 
this law, the FAA was required to bargain with its unions and 
consult with other employees over the administration or the 
development of the administration's new personnel management 
system. On July 9, 1998, the FAA and the National Air Traffic 
Controllers Association signed a memorandum of agreement 
calling for a one-third reduction of ATC supervisors in order 
to help finance a new $886 million, 5-year pay package for 
union members. Some controllers will see their salaries 
increased by as much as $30,000 over this period. There are 
currently 15,000 air traffic controllers and 2,180 of us ATC 
supervisors. Under the memorandum of agreement, 700 supervisory 
positions are to be eliminated.
    Mr. Chairman, I bring this issue of bargaining over 
supervisory staffing at the FAA to your attention again today 
because the National Partnership for Reinventing Government 
would like to expand this practice to all Federal departments 
and agencies. We hope that by bringing this issue to your 
attention, you will question the administration's plan to 
require departments and agencies to bargain over permissive 
management rights.
    The National Partnership for Reinventing Government has 
prepared a draft White House memo it intends to send out to 
heads of departments and agencies. The memo, entitled 
``Compliance with Executive Order 12871,'' would expand the 
scope of bargaining by requiring department and agency heads to 
make a statutory election to negotiate over permissive 
management rights.
    The issue of bargaining over permissive management rights 
is not new. In 1993, President Clinton signed Executive Order 
12871, thereby creating the National Partnership Council. This 
order required agencies to bargain over permissive management 
rights. Agencies argued, however, that the order does not 
require bargaining over B-1 issues because it does not create 
any rights that can be enforced against the government. And, 
last summer, Federal Labor Relations Authority agreed with 
agencies. FMA recommends that the subcommittee urge the 
administration to utilize truly inclusive partnerships at every 
organizational level in pursuit of creating a better government 
at a lower cost to the American taxpayer.
    Mr. Chairman, the 105th Congress came very close to 
restoring MSPB appeal rights for FAA employees. FMA has spoken 
with the majority and minority authorizing staff on both sides 
of the Capitol, and they inform us that they expect to reach an 
agreement this year on the long-term FAA reauthorization that 
will include restoration of MSPB appeal rights. FMA brings this 
issue to your attention in a hope that if such an agreement is 
not reached, your subcommittee would consider restoration of 
MSPB rights for FAA employees in the Fiscal Year 2000 
Department of Transportation Appropriations Bill.
    FMA recommends that the Congress restore the right of FAA 
employees to submit appeals to the Merit Systems Protection 
Board under Chapter 77 of Title V, the United States Code. Mr. 
Chairman and ranking member Sabo, this concludes my prepared 
remarks and I will be happy to answer any questions you have.
    [The prepared statement of John Fisher follows:]
    Offset Folios 471 to 479 insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Thank you very much. Do you want to begin? Maybe 
if you could keep it down to about three or four minutes, 
because there is a vote on and that way we will not have to 
keep you until--we come back at 2:15, so it will be to your 
benefit.
                              ----------                              

                                       Wednesday, February 10, 1999

                         HUMAN FACTORS RESEARCH


                                WITNESS

HAROLD VAN COTT, Ph.D., PAST PRESIDENT, HUMAN FACTORS AND ERGONOMICS 
    SOCIETY, ON BEHALF OF THE AMERICAN PSYCHOLOGICAL ASSOCIATION FOR 
    HUMAN FACTORS AND ERGONOMIC SOCIETY AND THE FEDERATION OF 
    BEHAVIORAL, PSYCHOLOGICAL, AND COGNITIVE SCIENCES
    Mr. Van Cott. I am testifying on behalf of the American 
Psychological Association for Human Factors and Ergonomic 
Society and the Federation of Behavioral, Psychological, and 
Cognitive Sciences. The membership of these organizations 
represent most of the scientists who do human factors research 
to improve the safety, security, and efficiency of air travel. 
Support for the research comes from the Human Factors and 
Aviation Medicine Research Program and the Federal Aviation 
Administration.
    The Administration is investing $26 million for human 
factors research; $1 million less than in Fiscal Year 1999. We 
recommend the Congress increase funding to $30 million and that 
it direct the FAA to move forward with its stated but 
unfulfilled goal of integrating human factors considerations 
into planning and design, rather than later, after engineering 
solutions fail. The additional $4 million would enable the FAA 
to proceed more effectively toward this integration of human 
and design considerations.
    Let me explain why integration and the support to 
accomplish it is necessary. FAA and NASA have both agreed to 
the goals of tripling aviation safety within 10 years and 
reducing the aircraft accident rate fivefold in the same 
period. Improvements in equipment and procedures alone will not 
be enough to meet these goals. When free flight is fully 
adopted, pilots will be using new information displays. As the 
density of planes in the air and on the ground increases, air 
traffic controllers will be guiding plans to their landings. 
Ground traffic controllers will be increasingly pressed to 
guide planes to gates and on runways at a cost-effective speed. 
And technicians will be servicing planes and increasingly 
complex devices. These issues all require the integration of 
human performance considerations in system design and planning. 
And that requires research.
    In 1998, the FAA enjoyed a year without a single loss of 
life on a scheduled U.S. carrier, the first such year in FAA's 
history. We hope that statistic does indeed signal a trend, but 
this Congress and the American public cannot allow that success 
to make them complacent. Finding and applying solutions to 
these problems and many like them is what aviation human 
factors is all about. Human error in the cockpit, the control 
tower, and the maintenance hanger remain the number one cause 
of aviation accidents. If the FAA is to meet its ambitious 
goal, while maintaining safety levels, approaching 1998, it 
must receive and apply adequate funding to understand the 
causes and mitigate the consequences of human error.
    I thank the subcommittee for this opportunity.
    [The prepared statement of Harold Van Cott follows:]
    Offset Folios 484 to 491 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Well, thank you very much. I agree with you. I 
think every year since I have been here, I think we have 
increased the human factors budget over what they have asked 
for. My sense is they know we are going to do it, so they come 
in low. Of course, it may be something else. But I agree with 
you completely. I think that is probably where most of the 
benefits can actually be done. And yet, for some reason, they 
come in much lower than the past.
    Mr. Van Cott. Yes.
    Mr. Wolf. Thank you both for your testimony. We will recess 
until 2:15.
    [Recess.]
                              ----------                              

                                      Wednesday, February 10, 1999.

                          RAIL TRANSPORTATION


                               WITNESSES

HON. DENNIS J. KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
MAYOR STANLEY TRUPO, CITY OF BEREA
GARY EBERT, Y DIRECTOR, BAY VILLAGE, OHIO
    Mr. Wolf. Welcome, Dennis.
    Mr. Kucinich. I would be glad to defer to my good friend--
--
    Mr. Wolf. No, that is okay. You are first on the list and 
we will take it sequentially.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Chairman, I would like to begin by introducing, to my 
right, Mayor Stanley Trupo of the City of Berea and, to my 
left, the Y director of the City of Bay Village, Gary Ebert. I 
would also like to thank you for the opportunity to testify and 
extend my personal appreciation to the Chair for the assistance 
that he has given me in the last two years, as chairman of the 
committee. I am very grateful for your help and your advice. I 
mean, you have really helped our community in so many ways and 
I just want to let you know I appreciate it. Mr. Olver, I want 
to recognize your presence and let you know I am grateful for 
your support.
    Two months after CSX and Norfolk Southern railroads filed 
their application for the acquisition of ConRail with the 
Surface Transportation Board, I learned that, as a result of 
the acquisition, Norfolk Southern was going to triple the 
number of freight trains through the western suburbs of my 
district. This is the areas of Lakewood, Rocky River, Westlake, 
and Bay Village. I then learned that the southern suburbs--
Berea, Olmsted Falls, and Olmsted Township--were going to be 
affected by an increase in trains.
    This increase would be devastating for densely populated 
areas. We had nine months of negotiations that culminated with 
a solution to both Berea's problem of increased traffic and the 
West Shore's insistence on no increased freight train traffic. 
Extra traffic will be diverted through Berea. In order to 
protect Bereans, an underpass and an overpass will be built. 
For the West Shore communities, crossing gates will be put in 
place as well as hazardous materials response program.
    And these agreements did not come without some commitments 
from the private and public sectors. And, working with 
Congressman LaTourette, we secured $26 million in Federal 
funding for BESTEA and, working with railroads, we got $44 
million between the two railroads and the State of Ohio, $17 
million.
    In short, we put together an agreement that was really one 
of its kind in the Nation and has enabled the public interest 
to be protected. This is something that--I am going to submit 
the rest of my testimony for the record. But I will tell you 
this, that it is absolutely essential that the appropriations 
continue and our cycle of appropriations continue on this. We 
have been authorized for $26 million and we are due for another 
appropriation. Hopefully, everything will stay on schedule.
    I also have some remarks about the increase in the number 
of flights at Cleveland Hopkins International Airport. The air 
traffic controllers there have some concerns that I think they 
are correct about the need for additional equipment, personnel, 
and time to prepare.
    I will give you this lengthy statement for the record, Mr. 
Chairman. But, again, I cannot stress strongly enough how 
important it is that this bipartisan coalition we put together 
in my district be permitted to continue to deliver the promises 
of improved transportation systems and safety for the people of 
these densely populated residential areas.
    And, again, I thank you so much for your assistance in the 
last Congress, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Kucinich. At this time, with your permission, I would 
like to put it on Mayor Trupo.
    Mr. Wolf. Your statement will appear in the record.
    [The prepared statement of Dennis Kucinich follows:]
    Offset Folios 497 to 499 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mayor Trupo. Thank you. Mr. Chairman, I thank you very much 
for allowing me to be here and, Dennis, thank you for inviting 
me to be here. I am the mayor of a small city in the State of 
Ohio called Berea, which happens to be the crossroads at which 
the railroads have been crossing through. Today we have 
approximately 90--more than 90 trains per day that come through 
our community and they are a great level. The increase would go 
to 120 with this merger of the two railroads.
    We have asked for assistance and you were kind enough to 
support our congressman, making sure that Berea and other 
communities were looked after. And we truly appreciate that. We 
have a request in to you to consider helping us with the quiet 
zone, a request that we have talked about which would help 
tremendously in the mitigation of the sound for those homes 
that are 45 feet away from the rail. Whatever assistance we can 
get in that area, we would truly be grateful for.
    To protect the residents of Berea from adverse effects of 
increased train traffic, Dennis Kucinich, our congressman, 
negotiated an agreement with two railroad companies, which 
include $87 million for track and bridge improvement and three 
major grade separations. And three of those grade separations--
two of those--I am sorry--are in the city of Berea. The most 
significant structure is on Front Street, which has two 
railroad crossings and we will be putting in an underpass at 
that, hopefully very soon to begin that. That will allow us to 
free up our community. With the increased traffic that was 
projected, we were absolutely tied up and even separated from 
one end to the other.
    At this particular time, I must say that Norfolk Southern 
and CSX and myself have talked and I would just encourage you 
to look at our requests for assistance and mitigation with the 
quiet zones.
    Thank you, Mr. Chairman and members.
    Mr. Kucinich With the Chair's permission, Y Director Gary 
Ebert from Bay Village.
    Mr. Ebert. Mr. Chairman, members of the committee, I 
represent the City of Bay Village, but also the West Shore 
communities of Lakewood and the City of Rocky River. And this 
agreement that Congressman Kucinich was able to spearhead would 
not only affect the residential communities of this area, but 
also, quite frankly, with the increase in traffic and 
improvements made to the rail system, it actually affects the 
whole midwest of the State of Ohio. Because this will actually 
make improvements along the rail traffic to allow the railroad 
to coexist between the communities and Norfolk and Southern.
    It is with this agreement in mind, that a partnership 
funding mechanism was put in place through Congressman 
Kucinich. And this partnership involves, as Congressman 
Kucinich has indicated, funding through Norfolk and Southern, 
the State of Ohio, and the Federal Government. Without any one 
of those components, this agreement would fail and make a 
disservice to all of the residents, but also Norfolk and 
Southern. And we appreciate the opportunity to submit our 
remarks to you today. As evidenced by our personal appearance, 
we would rather submit them to the record. And I appreciate 
making sure this funding goes through as earmarked in order to 
make sure this agreement is contemplated and fulfilled as 
envisioned.
    Thank you very much.
    Mr. Kucinich. Mr. Chairman, one other point. Mayor 
Jeleppets and I put together a bipartisan coalition which was 
extraordinarily successful because it had the only agreement of 
its kind in the whole country. And so that is why we are here 
to let you know how important it was and, again, to thank you.
                              ----------                              

                                      Wednesday, February 10, 1999.

 EMBRY-RIDDLE UNIVERSITY'S AVIATION SOFTWARE SOLUTIONS CENTER, GREATER 
                       ORLANDO AVIATION AUTHORITY


                               WITNESSES

HON. CORRINE BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
F. LEE TILLOSTON, GREATER ORLANDO AVIATION AUTHORITY
    Mr. Wolf. Thank you. Congresswoman Brown.
    Ms. Brown. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee. First of all, I just want to take 
a moment to thank you all. I have been coming before this 
committee for--this is the seventh year and I have been 
impressed with the bipartisanship and the leadership and the 
support that we have gotten for our Florida's third 
congressional district and I just want to take a moment to 
thank you for that.
    I am here today to speak to you on behalf of Embry-Riddle 
University to testify in support of the university's work on 
aviation software solutions designed to help the Federal 
Aviation Administration improve software performance. Because 
time here today is very limited, I will keep my comments brief 
and request that a detailed paper on Embry-Riddle's Aviation 
Software Solutions Center be placed in the official record.
    FAA software needs are great. FAA owns more operating 
computer and software systems than any other Federal agency. 
Updates on software systems, however, tend to be behind 
schedule, over budget, and, in many cases, not implemented at 
all because of safety constraints and other issues. To address 
this pressing need, Embry-Riddle has proposed the creation of 
an Aviation Software Solutions Center at the university to 
implement the software systems for FAA. And I will submit that 
complete detail to the committee in writing.
    Also with me today, Mr. Chairman, is a member from the 
Greater Orlando Aviation Authority. I would like to express my 
strong support for a letter of intent for the Orlando 
International Airport. I have seen firsthand the transformation 
of Orlando from a regional airport into one of the Nation's 
premiere large airports. To accomplish strong future growth, 
the authority is pressing an ambitious capital improvement plan 
that includes the completion of a fourth runway by the year 
2003. The runway, now eight years into development, is ready to 
be constructed. For the construction phase to begin, however, 
the authority requires your subcommittee support for a runway 
letter of intent, which the authority will submit to the 
Federal Aviation Administration this Friday.
    I believe that the LOI merits the subcommittee support. And 
I recommend your full endorsement of it. I would like for a 
moment for the member from the Greater Orlando Aviation 
Authority to be able to speak and introduce himself.
    [The prepared statement of Corrine Brown follows:]
    Offset Folios 511 to 522 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Tilloston. Thank you, Congresswoman. Chairman, just 
very briefly, we will submit the details in our testimony and 
we thank you very much for hearing our request. As you know, 
our airport has been growing rapidly, about double the national 
rate. We are now the number six O and D, origination and 
destination airport, in the country. And that goes along with 
our status as a mega-destination for tourism in the country.
    We started this project in 1990: all the permits, the 
property acquisition, the design, the wetland mitigation is all 
in place. And we are ready to pour concrete. We have invested 
approximately $86 million in this project. We have been able to 
document it and it is in our LOI and will be provided for 
testimony and through the FAA, tremendous cost savings for the 
national system by this increased runway capacity.
    We thank you very much.
    [The prepared statement of Greater Orlando Aviation 
Authority follows:]
    Offset Folios 525 to 528 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. I thank you very much. Mr. Olver. Mr. Tiahrt. Ms. 
Granger. Thank you very much. I appreciate your being here for 
the testimony.
    Would Congressman Gordon or Congressman Clement, 
Congressman Weygand and Congressman Knollenberg.
                              ----------                              

                                      Wednesday, February 10, 1999.

            NASHVILLE MIDDLE TENNESSEE COMMUTER RAIL SYSTEM


                               WITNESSES

HON. BOB CLEMENT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
BOB BABBITT, NASHVILLE METROPOLITAN TRANSIT AUTHORITY
    Mr. Wolf. However you want to proceed or you can go in any 
order or----
    Mr. Clement. Okay. Well, thank you, Mr. Chairman. And I 
have with me my colleague and friend Congressman Bart Gordon. 
We both represent Middle Tennessee, if you know. And then also 
I have Mr. Bob Babbitt, who is in the middle of us and 
representing the Nashville Metropolitan Transit Authority, who 
is truly an expert in a lot of different ways when it comes to 
transportation issues and works with us very, very closely. Mr. 
Chairman, great to be here with all of my colleagues.
    I want to express my appreciation to you and to Congressman 
Sabo and the other members of the subcommittee for this 
opportunity to present to you our funding request for the 
Nashville Middle Tennessee Commuter Rail System. Our commuter 
rail proposal is an issue of tremendous importance to us and I 
am honored to present to you our request for appropriations for 
Fiscal Year 2000.
    To begin with, I want to express our sincere appreciation 
and gratitude for your support, Fiscal Year 1998 when we 
received $1 million to get us started for final engineering and 
environmental assessment for this project. Middle Tennessee 
continues to grow at amazing rates. We have people coming into 
Nashville and Middle Tennessee from all over the world. We have 
truly been found out and our unemployment is next to nil. But 
we are having to bus them in, fly them in to work in the 
Nashville area because we have such a strong economy at this 
point in time.
    Regrettably, the volume of traffic is growing too fast for 
construction to keep up with our infrastructure needs. Quite 
frankly, the roads can only be widened to a certain point 
before we just absolutely run out of space. Tennesseans are 
looking for transportation alternatives. Gridlock, traffic 
jams, and increased highway construction are adding stress and 
wasting valuable time for area drivers and commuters.
    Working with public and private leaders in the Middle 
Tennessee region, we have determined that the implementation of 
a multi-line commuter rail system will meet the needs of our 
growing community and help reduce automotive emissions. As we 
enter the next stage of commuter rail implementation, we are 
requesting $4 million in Federal funds to advance the efforts 
to establish the rail system. This will be matched by State and 
local funds. This $5 million project will provide commuter 
rail, double-gate safety systems at various future 
intersections and provide passenger train rehabilitation for 
locomotives and five passenger cars. It will also allow for 
final improvements at various connection points and final 
engineering for the fourth of five segments.
    The underlying strength of this project is threefold. It 
will use existing rail lines that converge in a mutual 
destination from outlying counties. It has tremendous regional 
support from both the public and private sector. And its costs, 
compared to other projects of this scale, are very reasonable. 
We will provide you and your staff, under separate cover, more 
detail on the request.
    Mr. Clement. As I have mentioned, Bob Babbitt, the director 
of Nashville's Metropolitan Transit Authority is with me to 
answer any specific or detailed, technical questions. 
Additionally, under separate cover, I will submit a separate 
funding request for Federal funds for a feasibility study to 
examine an additional passenger and freight rail connection 
between Nashville and Knoxville, Tennessee.
    [The prepared statement of Bob Clement follows:]
    Offset Folios 535 to 536 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Clement. As you can tell, we are putting a great deal 
of emphasis and time on improving passenger service, which we 
really don't have any to speak of at all in the State of 
Tennessee, and freight opportunities for the entire State of 
Tennessee. And, with your support, we can continue to make 
progress and have success.
    At this time, I would like to ask Congressman Bart Gordon 
to add to what I said.
    Mr. Gordon. Thank you, Bob. And thank you, Mr. Chairman and 
committee members for your kind attention today. Let me just 
quickly concur with Bob in that this is a very good project. 
Middle Tennessee is one of the fastest growing areas in the 
country right now. It is the twelfth in the country in time 
spent per capita in traffic congestion. And Nashville is the 
fourth largest or most dense concentration of employment in the 
South. And the other top three already have mass transit. We 
really do have a problem.
    And, maybe to put in more real terms, my home town of 
Murphysboro, in 1985, there were 27,000 cars that commuted to 
Nashville to work. Today, there are 72,000; it takes twice as 
long. Bob represents Nashville proper; I represent the fast-
growing suburbs outside.
    That is the bad news. The good news is that there is a 
relatively simple solution in that, fortunately, if you look 
around Nashville, in our suburban areas, there are four, really 
like spokes in the wheel, routes of existing rail track that 
already go in. And so what we were going to do was take 
advantage of this resource that we have. With Bob's help a few 
years ago, we were able to establish a landport in Nashville. 
It doesn't help you to get from the suburbs to Nashville and 
you just drop off on the side of the street. But we already 
have a point there in Nashville now to get them to their next 
location.
    What we need to do now is activate the existing rail 
tracks. It is really--when I say simple, it is simple. It 
doesn't mean that it is economical--you know, it is cheap or 
that it is going to be that easy. But we have a simple solution 
before us. But we need your help to try to implement that.
    And I thank you for your attention.
    [The prepared statement of Bart Gordon follows:]
    Offset Folios 541 to 544 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                             CAFE STANDARDS


                                WITNESS

HON. JOE KNOLLENBERG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Knollenberg. Thank you very much. Mr. Chairman, thank 
you, and I thank my colleague for yielding on that.
    Mr. Gordon. I yield.
    Mr. Knollenberg. I want to thank both you and the staff for 
allowing me this time this afternoon and accommodating me at 
this point and to come before the committee. I am here this 
afternoon to discuss an issue that is important to my home 
state of Michigan and, of course, to the entire Nation.
    Mr. Chairman, language preventing the Clinton 
administration from increasing CAFE standards has been included 
in this committee's bill since Fiscal Year 1995. I am 
requesting that similar language be included in this year's 
bill as well. Currently, the CAFE standard for passenger cars 
is 27.5 miles per gallon and the standard for light trucks, 
which include sport utility vehicles, the ones that are ever-
present and minivans is 20.7 miles per gallon. Increasing these 
requirements would have a devastating impact on our domestic 
auto industry by severely restricting the ability of U.S. 
automakers to produce the vehicles that the American people 
truly want.
    Higher CAFE standards would require manufacturers to reduce 
the size of their vehicles and scale back on the amenities. 
This would distort the domestic auto market where consumers 
have shown a strong preference for larger vehicles and place 
U.S. automakers at a competitive disadvantage with their 
foreign competitors. Moreover and most importantly, higher CAFE 
standards would reduce the safety of these vehicles and result 
in more highway fatalities each year.
    One of the reasons that light trucks, which currently 
represent over 50 percent of total sales by U.S. manufacturers, 
one of the reasons they are popular is because the size makes 
them safer than passenger cars. In 1997, the National Highway 
Traffic Safety Administration issued a report. It was an 
exhaustive report over eight years that indicated that a 100 
pound reduction in the average weight of an automobile would 
result in a little over 300 additional highway-related deaths. 
That is on a per-year basis.
    Let me be clear on this point. Raising CAFE standards would 
not only hurt the American economy, it will result in more 
Americans dying in car crashes. Now this is something that must 
not be forgotten in this debate over this important issue.
    Now, Mr. Chairman, as you probably know, I have been 
actively involved also with the fight against the U.N. treaty 
on climate change, also known as the Kyoto Treaty. This 
overreaching agreement would kill millions of American jobs and 
significantly diminish the quality of life in our country. To 
meet these stringent requirements called for by this treaty, 
the phase standards would have to be increased. There is no way 
around it.
    Lacking the support in the Senate to ratify the Kyoto 
Treaty, I am concerned that the administration will attempt to 
implement this agreement bit-by-bit through the back door 
regulatory fashion.
    The science on global climate change is immature. Contrary 
to the overheated rhetoric--no pun intended by that, but--of 
the proponents of the Kyoto Treaty, there is no clear 
indication that the earth's temperature is warming or that 
human activity is creating a dangerous trend that will endanger 
the environment. In fact, the most reliable measurement of 
climate change revealed that there has been no net warming of 
the earth's temperature during the last 20 years. Therefore, 
there is no reason for moving forward with regulatory actions 
that will stifle economic growth in this country, limit 
consumer choices, and result in higher prices and a lower 
standard of living for the American people.
    This is what an increase in CAFE standards would do and I 
respectfully urge this committee to ensure that this doesn't 
happen by, once again, including language in this year's bill 
that would freeze CAFE standards at their current levels. And, 
Mr. Chairman, once again, I want to personally thank you for 
allowing me to testify on this issue and I look forward to 
working with you and the committee as the year goes along. 
Thank you very much.
    [The prepared statement of Joe Knollenberg follows:]
    Offset Folios 550 to 553 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Thank you, Joe. Mr. Olver. Ms. Granger, any 
questions? Mr. Serrano, any? Thank you very much.
    Mr. Knollenberg. Thank you. I appreciate it.
    Mr. Wolf. Bob.
                              ----------                              

                                      Wednesday, February 10, 1999.

          RHODE ISLAND RAIL DEVELOPMENT (THIRD TRACK) PROJECT


                                WITNESS

HON. ROBERT A. WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
    Mr. Weygand. Thank you, Mr. Chairman. Mr. Chairman, for the 
sake of time, I have submitted a statement for the record. As 
well as I'd like to submit some charts which illustrate some of 
the statements and I will leave that for staff.
    Mr. Chairman, I am here to testify in support of the Third 
Track Project in the second congressional district, which I 
know you and your staff are very, very familiar with. You have 
been very gracious and very helpful to us in the past and we 
sincerely appreciate that.
    As you know, the Third Track Project is one that is 
necessary because the AMTRAK rail from New York to Boston, 
particularly from New Haven, Connecticut to Boston, is nearly 
complete in terms of its electrification and the high-speed 
rail which will greatly improve passenger traffic along that 
corridor. But it also precludes freight traffic from using most 
of that corridor and, therefore, a third track needs to be 
constructed within the second district to allow for the former 
Quonsett Naval Air Station that is being transformed right now 
into a commercial port facility to be able to have the 
viability of transporting by rail, freight through Rhode Island 
into Massachusetts and eventually in Albany and down the entire 
East Coast. That is the only access that we have in that area 
for freight traffic.
    The staff and the committee rightfully so have been 
critical of the State of Rhode Island in terms of the way it 
has been dragging its feet to a certain degree in terms of 
expending the funds that have been previously appropriated by 
this committee and also by the people of the State of Rhode 
Island in terms of its bond issue. But I can tell you, over the 
last year they have made great strides to improve the 
expenditure. As a matter of fact, they have encumbered $44 
million worth of contracts and purchases already; expended at 
least $12 million as of last week; and will be spending, 
hopefully, another $40 million in Fiscal Year 2000.
    That is where the crunch comes in, because, right now, 
without the matching funds from the Federal Government, the 
State bond money that we have will not be able to meet the cash 
flow that we anticipate for contracts and construction. 
Therefore, Mr. Chairman, we are requesting a $15 million 
appropriation this year to help fulfill that. In the Fiscal 
Year 2001, we will expend according to the estimates another 
$36 million and the project will wrap up in 2002 with the minor 
expenditure of only about $3 million. The total cost of the 
project at around $104 to $106 million.
    We are at the peaking period of the contracts and the 
construction and it seems at this particular point, since the 
Federal Government has dedicated $28 million and the State of 
Rhode Island has matched that, plus has dedicated another $30 
million for that, we need to have this continued support. 
Otherwise, we will begin to stop the project or force the 
project to be delayed over a longer period of time.
    It is incredibly important, not only for the second 
district, but for Rhode Island's economy, that the Quonsett 
Point Naval Air Station turn into the fulfilled dreams of a 
commerce and port facility. And it is moving along in that 
direction. But freight rail traffic is extremely important to 
us. It is a significant part of the selling and the marketing 
of this project. And, without the Federal support, we will not 
be able to continue it.
    So, therefore, Mr. Chairman I would like to conclude with 
that. I know time is of the essence and ask for your indulgence 
once again, your help, and your support in this. Thank you.
    [The prepared statement of Robert Weygand follows:]
    Offset Folios 560 to 564 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. The committee has been very, very supportive and 
you have done a good job of working on this. I want the record 
to show that, too. You have been very diligent and staying with 
it. The budget request of the administration was only $10 
million and you are asking for----
    Mr. Weygand. $15.
    Mr. Wolf. And there has been a delay in the spending. Why 
do you think they only asked for $10 million. We are tight for 
dollars and if it can't be expended, how can we be assured that 
it would be spent?
    Mr. Weygand. I asked the very same question, Mr. Chairman, 
because, after listening to you, I said, I am getting a lot of 
heat from the chairman. How am I going to justify asking for 
this money?
    I can tell you this, that Senator Chafee and Senator Reed 
and myself have been prodding the governor's office and the 
Department of Transportation. They had been hesitant because of 
the number of environmental impact statements that, 
theoretically, had not been completed. I can tell you right now 
that, as of last week, $46 million has actually been contracted 
and covered and, of that $46, $12 has actually been spent. They 
anticipate with the cash flow that they will be spending a 
total of around $41 million in Fiscal Year 2000.
    They have assured the senators and myself that they will be 
doing that. They are moving forward with great vigor because 
they realize they have been slow in expending the monies. And 
they have indicated to the three of us, Senator Chafee, Senator 
Reed, and myself, that, indeed, they would expend that money.
    Certainly, the administration's amount of $10 million--and 
I am being quite candid with you, Mr. Chairman--it would be 
gratefully appreciated if that were to come through. And they 
would perhaps go along with that, but it would probably extend 
the project out a little bit longer than what they anticipate.
    Mr. Wolf. Mr. Olver. Ms. Granger. Mr. Serrano. Well, thank 
you very much. We appreciate it.
    Mr. Weygand. Thank you, Mr. Chairman.
                              ----------                              

                                      Wednesday, February 10, 1999.

                             CAFE STANDARDS


                                WITNESS

CLARENCE DITLOW, EXECUTIVE DIRECTOR, CENTER FOR AUTO SAFETY AND ON 
    BEHALF OF PUBLIC CITIZEN
    Mr. Wolf. Our next panelists are Clarence Ditlow, Center 
for Auto Safety; and Dr. Joe Mauderly, senior scientist, 
director of external affairs, LRRI. Mr. Kazman, general counsel 
for Competitive Enterprise Institute. Can you go in that order 
if you can? Your full statement will appear in the record.
    Mr. Ditlow. Okay. Mr. Chairman, members of the committee, 
thank you for the opportunity to testify. I am Clarence Ditlow, 
executive director of the Center for Auto Safety, and I am also 
appearing on behalf of Public Citizen. And I am here today to 
speak about one issue and that is the appropriations rider 
against funding for setting higher CAFE standards for motor 
vehicles, including light trucks and vans. I am here to testify 
in favor of lifting that rider and restoring the authority to 
the Department of Transportation to set standards. Not for 
environmental reasons, which you will hear about later, but for 
safety reasons.
    Light trucks, vans, and sport utility vehicles in fact pose 
a significant safety hazard to not only passenger car occupants 
on roads that they share and pedestrians, but to their own 
occupants. In crashes between cars and all types of light 
trucks and vans, the fatality rate for car occupants is four 
times higher than the fatality rate for the light truck and van 
occupant. But, on the other hand, light trucks and vans have a 
four times greater rollover rate than do passenger cars. And 
when you look at the fatality rates for light trucks and vans 
compared to passenger cars of the weight, the light truck and 
van actually has a worse fatality rate than does the passenger 
car.
    The stiffness of the light truck and van results in more 
occupant compartment intrusions into not only the vehicle they 
strike, but into the light truck and van itself. Because of 
their height and broad frond ends, the light trucks and vans 
pose a hazard to pedestrians. They are much more likely to kill 
an individual, a pedestrian, than is a passenger car with a 
softer front end. And the National Highway Traffic Safety 
Administration has not even begun to seriously address the two 
primary safety consequences: the propensity to rollover and 
their aggressivity in collisions with cars and people. A few 
crash tests and some colored stickers, which is the Department 
of Transportation's safety program to date, are not in any way 
accurate responses.
    And the introduction of light trucks and vans has degraded 
safety overall because of their excess weight, their stiffness, 
and their height. It makes them more aggressive in collisions 
and because of their propensity to rollover and seriously 
injure their own occupants. What we propose is and what the 
Department of Transportation should do, is to make them 
lighter, lower, and softer. Some manufacturers are moving in 
that direction, but not all. And if the CAFE rider were lifted, 
the Department of Transportation would set higher fuel economy 
standards and it would require the manufacturers to make them 
lighter.
    We all know about vehicles that collapse in a crash. The 
Mercedes, you know, in their advertising campaign it is a hell 
of a vehicle, sacrifices itself to save the occupant. The light 
truck and van is far too stiff. It doesn't sacrifice itself to 
save the occupant. And what the auto have not done--we are not 
talking about taking away light trucks and vans. We are not 
talking about diminishing consumer choice. What we are talking 
about is taking some of the profits that they are making on 
these vehicles, which run $5,000 to $15,000 on some sport 
utility vehicles, and put it into technology like lighter 
weight materials, like better transmissions and you will get 
better fuel efficiency.
    And when I look at this, when you look at something like 
the Ford F150, that vehicle sells for $15,000. The Expedition 
sells for $35,000. The Navigator sells for $43,000. For $1,000 
or less, you could substitute some lightweight materials, 
redesign those vehicles, keep your profit margins much larger 
than passenger car, keep the same utility for the consumer 
because you would have the same size with that vehicle, and you 
would have a vehicle that begins to be safer, not only for the 
occupants on the road by making them softer, by making them 
lower so they don't roll over as often, but also for the other 
occupants on the roads that they share.
    So my message is: We can improve safety. We can improve 
fuel efficiency at the same time. And if we don't restore the 
authority of the Department of Transportation, these vehicles 
are only going to get larger and larger and, as you get more 
and more into the population with 52 percent today, the death 
rates are going to continue to climb. Thank you.
    [The prepared statement of Clarence Ditlow follows:]
    Offset Folios 572 to 580 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                             CAFE STANDARDS


                                WITNESS

JOE L. MAUDERLY, SENIOR SCIENTIST AND DIRECTOR OF EXTERNAL AFFAIRS, 
    NATIONAL ENVIRONMENTAL RESPIRATORY CENTER, LOVELACE RESPIRATORY 
    RESEARCH INSTITUTE, ALBUQUERQUE, NM
    Dr. Mauderly. Yes, thank you, Mr. Chairman. I am 
representing the Lovelace Respiratory Research Institute which 
is an independent, non-profit health research organization in 
Albuquerque as director of the National Environmental 
Respiratory Center and Air Pollution Research Center operated 
by Lovelace. I am here to describe the relevance of the Center 
to strategic interests for the Department of Transportation and 
ask for support from the Department's budget for the Center's 
research.
    Now the Center was conceived to address an increasingly 
pervasive and troublesome public health and policy dilemma. 
That is, understanding the contributions of individual air 
pollutant species and their sources to the overall health 
effects that are observed to be associated with air quality. 
Now this includes a relationship between childhood asthma, 
living near roadways, and a number of other relationships that 
you read about in the newspapers.
    Our current air quality regulations focus principally on 
one pollutant or one pollutant class or one source at a time. 
The health risks of pollutants are estimated and argued one at 
a time. In response, research is funded in a reactive, again, 
one pollutant at a time. Now the problem with that is nobody 
ever breathes one pollutant at a time or pollutants from one 
source at a time. And that is evident. Real people are exposed 
to a mixture of natural and man-made air contaminants from many 
sources, some of which are not even measured.
    Now there is an increasing likelihood of making ill-advised 
decisions unless our way of thinking about studying and 
managing the relationship between air quality and health 
changes. Now unfortunately we have not developed the 
information that will serve as a foundation for changing our 
way of doing that.
    The Department of Transportation clearly recognizes itself 
as a stakeholder in this dilemma, although it has not funded 
air pollution research directly. In the President's budget, and 
I quote, ``we cannot call our approach intelligent unless we 
recognize and tend to the effects on our environment and, 
ultimately, our health.'' The Department is requesting an 
increase for environmental programs which includes air quality 
improvement.
    Reducing mobile-source emissions is called for as a goal of 
the Federal Highway Administration. Alternate fuels and 
propulsion systems are discussed and held out as a goal to 
research and special programs administration. And, yet, all of 
these things, strategic and technological developments, have to 
be underpinned by an understanding of what the problems are. 
Because we don't know the contributions of individual 
constituents of air pollution mixtures to the health effect, we 
don't know how to plan and engineer around these effects.
    The National Environmental Respiratory Center was created 
as the Nation's only research program completely focused on 
this mixtures dilemma. It was established and continues with 
funding from EPA. It was intended from the beginning as a joint 
effort among multiple agencies and among corporations and 
industry associations and other groups.
    The Center's research strategy was developed by a cross-
section of academic and stakeholder advisers. Its goal is to 
create a pathway through which we can better understand the 
relationship between constituents of pollution mixtures and the 
health outcome of the total mixture. It is doing this by 
developing identical health data across a range of complex man-
made mixtures, including several from transportation sources.
    Now, amazingly, this will allow for the first time a direct 
intercomparison among the health risks of those mixtures. But 
it will also, because of the overlapping and yet different 
compositions of those several mixtures, it will allow an 
analysis across them that will reveal the contributions of 
individual chemical constituents. This work is necessary to lay 
a foundation, then, for the further consideration of natural 
air pollutants and other things which are not even being 
considered now.
    Now that the Center's strategy has been developed with a 
great deal of consensus, it is time for other stakeholder 
organizations, including the Department of Transportation, to 
step up to the plate and provide the funds necessary to carry 
out this work. A broad range of organizations is being 
contacted. Non-Federal support is beginning to develop, 
meaningfully I think, most rapidly from the transportation 
sector. Over the next six years, the work will require 
approximately twice the $2 million a year provided by EPA.
    Mr. Chairman, we respectfully request support for the 
Center's work from the Department of Transportation. Thank you 
for this opportunity.
    [The prepared statement of Joe Mauderly follows:]
    Offset Folios 586 to 595 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                             CAFE STANDARDS


                                WITNESS

SAM KAZMAN, GENERAL COUNSEL, COMPETITIVE ENTERPRISE INSTITUTE
    Mr. Kazman. Thank you and good afternoon. I would like to 
thank you for this opportunity to testify both on behalf of 
Competitive Enterprise Institute and Consumer Alert. I am here 
to address the issue of CAFE and safety, as Mr. Ditlow did, but 
from a somewhat different direction. And let me start by giving 
you a little background on the involvement of my organizations 
in this issue.
    From 1986 to 1995, CEI Consumer Alert filed three lawsuits 
against NHTSA challenging its essential claim that the current 
CAFE standards do not kill anyone. Despite the fact that NHTSA 
had long admitted that downsizing was one of the chief ways in 
which cars can come into compliance with CAFE and despite the 
clear evidence that larger cars are generally more crashworthy 
than small ones, NHTSA's essential position was that the 
current CAFE standards kill no one.
    In 1992, a Federal appeals court agreed that that claim by 
NHTSA was sheer nonsense. In the court's words, and I'm quoting 
here, ``NHTSA had failed to coherently address the CAFE safety 
issue. It had resorted to fudged analysis, statistical sleight 
of hand, and bureaucratic mumbo-jumbo to avoid considering this 
issue.'' Even after NHTSA had a year to reconsider its 
rationale and come up with a new explanation, yet another 
Federal appeals court noted that it still was troubled by 
NHTSA's handling of the safety issue. In short, when NHTSA, a 
safety agency, was claiming that its program of CAFE kills no 
one, it was engaging in sheer nonsense.
    For that reason, CAFE should remain frozen until NHTSA had 
finally and candidly confronted this issue. NHTSA has failed to 
do so in the past. Unless its hands are held to the fire, it 
will keep doing so.
    But what I want to get to now is the notion that somehow, 
by making CAFE even more stringent, we can somehow improve 
safety, the point that Mr. Ditlow has just raised before you. 
This is particularly ironic. In 1972, Mr. Ditlow's organization 
published a book entitled, ``Small on Safety, the Designs and 
Dangers of the Volkswagen,'' in which page after page notes 
that the laws of physics require that, in collisions of just 
about every mode, small means less safe, larger means more 
safe. That was the thrust of their critique of the Volkswagen 
Beetle.
    The notion that somehow higher CAFE standards, which will 
restrict the size and availability of sports utility vehicles, 
is going to advance safety I think is sheer nonsense. Sports 
utility vehicles are not a loophole. They are an escape hatch 
for consumers who cannot find the features they want in 
ordinary passenger cars.
    If you look at the Insurance Institute for Highway Safety 
Data, on collisions between sport utility vehicles and 
passenger cars, yes, it turns out, there is a mismatch. You 
look at the most vulnerable type of collision mode where an SUV 
crashes into the side of a car, you get a huge preponderance of 
fatalities in the car, not the SUV. But if you break that data 
down, it turns out that there is more of a mismatch between 
small cars and large cars than there is between large cars and 
sports utility vehicles. That is, when a small car is hit in a 
side impact by a large car, things are worse for the occupants 
of that first car than what happens if you have a large car hit 
by a sport utility vehicle.
    In short, there are mismatches on the road. But those 
mismatches are being exacerbated by the CAFE standards that we 
already have. If you make CAFE more stringent, you will get 
more fatalities, not fewer. This is not just our conclusion; it 
is the conclusion of safety experts at the Harvard School of 
Public Health; at the Brookings Institute who, in their peer-
reviewed analyses, have concluded that CAFE, as it stands, is 
already killing 2,000 to 4,000 occupants per year. Make CAFE 
more stringent, it will get even worse.
    Ms. Clayburgh had been set to testify on this panel and 
she, when she was head of NHTSA, told a Senate hearing in 1977 
that if you have economy standards, there are going to be 
tradeoffs. Quote, ``My common sense tells me there is some 
conflict between the role of auto safety and fuel economy.'' 
Now I submit to you that those tradeoffs have never been 
adequately addressed, not only by NHTSA, but by anyone who is 
suggesting that you ought to have even more stringent 
standards.
    I have to find a single proponent of the current CAFE 
standards or the more stringent ones who admits it kills 
anyone. They claim it is a win-win situation. I submit to you 
the opposite is true. There are tradeoffs involved and the 
entire public debate over this issue has been undermined by the 
fact that there has been no government analysis of just what 
those tradeoffs are.
    Let me conclude with one point. Our recent environmental 
poll, which is attached to our testimony, indicates that 
currently, if you simply ask the public what they think about 
CAFE, there is mild support for it on the order of about 51 
percent. Once you describe to them the general fact that CAFE 
causes cars to be downsized and that downsized cars are less 
safe, that support drops. Once you describe to them the best 
estimates of CAFE's current lethal toll in terms of added 
fatalities, that support for CAFE disappears. You move from a 
51 percent support level for CAFE to a 57 percent opposition 
level to CAFE.
    The safety issue is the key issue when it comes to asking 
is CAFE a good law. NHTSA's failure to assess that in any 
candid manner has poisoned the debate over this and the notion 
that somehow we are going to get even more safety by making 
CAFE even worse is, I think, the height of irony. Gasoline 
today is an incredibly inexpensive fuel. Human life, on the 
other hand, is as precious as ever. If you are concerned about 
safety, you will continue the freeze on CAFE. Thank you.
    [The prepared statement of Sam Kazman follows:]
    Offset Folios 602 to 631 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Well, we thank you very much. You two ought to 
get together and speak. [Laughter.]
    Mr. Kazman. We have done that many times.
    Mr. Ditlow. Yes, unfortunately, Sam doesn't look at the new 
Volkswagen which proves that the Center was right about the old 
Volkswagen. It is the safest car on the road today. It is more 
fuel efficient than the old Volkswagen.
    Mr. Kazman. It is not the safest car on the road. 
[Laughter.]
    Look, Ryan O'Neal was asked a specific question at a press 
conference he held to praise the safety of the new Volkswagen 
Beetle. It is the safest small car. Is it safer than large 
cars? In his words, no, you are not repealing the laws of 
physics with this new model.
                              ----------                              

                                      Wednesday, February 10, 1999.

                             CAFE STANDARDS


                                WITNESS

ANN R. MESNIKOFF, ASSOCIATE REPRESENTATIVE, GLOBAL WARMING AND ENERGY 
    PROGRAM, SIERRA CLUB
    Mr. Wolf. Thank you very much. The last panel Ann 
Messnikoff, Global Warming and Energy Program; Rabbi David 
Saperstein, Religious Action Center For Reform Judaism 
Coalition on the Environment and Jewish Life. Good to see you.
    Rabbi Saperstein. Good to see you.
    Mr. Wolf. Courtney Cuff, the legislative director, Friends 
of the Earth; and Katherine Silverthorne, staff attorney, U.S. 
Public Interest Research Group. However you want to go or in 
the order that I read. I'll leave it up to you.
    Ms. Mesnikoff. I'll go first. Mr. Chairman, members of the 
subcommittee, my name is Ann Mesnikoff and I am an associate 
representative with Sierra Club's Global Warming and Energy 
Program. I appreciate the opportunity to testify on behalf of 
Sierra Club's more than one-half million members nationwide on 
the importance of allowing the Department of Transportation to 
carry out its work to prescribe corporate fuel economy 
standards for cars and light trucks.
    In 1975, Congress passed the most successful energy savings 
measure it has ever adopted: the provision setting miles per 
gallon standards. Responding to the oil crisis, Congress 
determined that making automobiles go further on a gallon of 
gas was essential to saving oil and reducing our dependence on 
foreign oil. The CAFE law passed with bipartisan support, 
including that of a Republican administration.
    Congress established the initial standards, but delegated 
responsibility to DOT for setting new standards. Congress 
provided specific criteria to follow in setting these 
standards: technical feasibility, the economic practicability, 
the fact of other motor vehicle standards on fuel economy, and 
the need of the United States to conserve energy. With these 
directions, Congress recognized the DOT was best equipped to 
provide the analysis necessary to support prudent rulemaking at 
low cost for public value provided.
    Starting in Fiscal Year 1996, however, with the Department 
of Transportation Appropriations Bill, Congress has barred the 
Department from exercising its expert judgment under the Fuel 
Economy Law. The Persian Gulf War in 1991 and our ongoing 
involvement in Iraq reveal the high risks and costs of 
continued dependence on Middle East oil. Raising CAFE standards 
would save more oil than we import from the Persian Gulf, the 
oil imports meeting half of our needs and expected to rise. The 
case in support of conserving energy remains extremely strong.
    The CAFE freeze rider appropriation denies Americans the 
benefits of DOT's expertise without public debate. More open 
examination of the benefits of raising the standards. And, as 
Mr. Kazman raised, the rider has actually, in fact, barred the 
Department of Transportation from even doing analysis into 
safety and other issues related to CAFE standards. So, as a 
result of the CAFE rider, fuel economy standards for cars and 
light trucks have stagnated. And, in particular, light truck 
fuel economy has been most affected because the freeze 
provision killed the light truck rulemaking that was in 
process, allowing the large disparity between car and fuel 
economy to persist.
    The CAFE rider has, in essence, substituted Congress's 
judgment on the technical feasibility, cost-effectiveness of 
raising the standards, as well as the effect of other motor 
vehicle standards on fuel economy, without any experts in 
charge of undertaking this analysis. Automakers are now taking 
advantage of this light truck fuel economy loophole to produce 
fleets of gas guzzling, heavily polluting SUVs in addition to 
minivans and pickups. The fuel economy of new vehicles sold is 
at its lowest point since 1980. And, as you have heard from 
Clarence Ditlow, light trucks, especially heavy SUVs, are 
fundamentally incompatible with cars on the road, creating 
safety hazards for car passengers and pedestrians.
    The CAFE freeze rider also blocks critical action 
addressing the need to conserve energy in order to reduce the 
air and global warming pollution. 20 percent of U.S. carbon 
dioxide pollution comes from cars and light trucks. It is the 
fastest growing sector of these emissions. A 14-mile-per-gallon 
SUV will emit more than 70 tons of CO<INF>2 </INF>over its 
lifetime, while the average car will emit only 38 tons. New 
standards would slash this pollution.
    The existing standards save 3 million barrels of oil every 
day. Without these standards, we would import at least another 
1.5 million barrels of oil a day. CAFE standards save consumers 
money at the gas pump, approximately $3,000 for the purchaser 
of a new car today. That is money that consumers can spend in 
their own communities, rather than on imported oil. CAFE 
standards also cut cancer causing hydrocarbon pollution and 
global warming pollution. And, importantly, the rate of traffic 
fatalities decreased by 50 percent over the same time the fuel 
economy doubled under the existing standards because 85 percent 
of efficiency improvements came from technology such as 
efficient engines and transmissions and better aerodynamics. 
Cost-effective technologies will be the key to new fuel economy 
standards.
    Raising CAFE standards will build upon the significant 
benefits we have already gotten, the oil savings, pollution 
reductions, and energy security. Advanced technology such as 
Toyota's Prius and Honda's VV, which will be on the market 
either this year or next year, are keys to achieving an energy-
efficient fleet that is also clean and safe. And we can also 
raise fuel economy standards by creating jobs for Americans. 
The American Council for an Energy Efficient Economy concludes 
that higher fuel economy standards, a modest increase, would 
create a net of 244,000 jobs nationwide, with 47,000 of those 
in the auto industry alone.
    Today, more than half of the new passenger vehicles sold 
are light trucks. And the distinction between cars and light 
trucks created in the original law doesn't make sense any more. 
These vehicles are now used as commuter cars to drive kids to 
the soccer game and go grocery shopping, yet these vehicles are 
gas guzzling and creating a safety risk. And they are also 
driving up our demand for oil, increasing air and global 
warming pollution, and compromising traffic safety.
    Putting the light truck rulemaking back on track will not 
only result in significant oil savings, but will slash carbon 
dioxide pollution as well. This degree of increased efficiency 
can be achieved through a combination of engine and 
transmission improvements, along with high-strength, light-
weight materials and better streamlining. The light truck fuel 
economy of 27.5 miles-per-gallon can be achieved without 
compromising light truck safety.
    Poll after poll does show that Americans strongly support 
raising fuel economy standards. In 1988, a research strategy 
management poll conducted for the Sustainable Energy Coalition 
shows that 97 percent of Americans favored the use of new 
technologies that would improve fuel economy. In addition, more 
than 500 State and local elected officials from across the 
country signed a letter in support of raising fuel economy 
standards and they sent that letter to the President.
    In conclusion, all Americans have benefitted from the 
existing standards. And we would all benefit from greater oil 
savings, reduced pollution, and improved safety that would 
result from the new standards. Congress charged the Department 
of Transportation with considering the need to conserve energy, 
technical feasibility of achieving new standards, cost 
effectiveness of new standards, and Congress should allow the 
agency best equipped to evaluate this technical information to 
make a well-reasoned and supported decision on the record.
    Ultimately, Congress can weigh in and act upon any action 
the agency takes. But it should do so openly with hearings and 
with the benefits of the Department of Transportation's expert 
judgment concerning all the information that can be done to 
improve traffic safety, conserve energy, reduce pollution, and 
save Americans money at the gas pump. Thank you.
    [The prepared statement of Ann Mesnikoff follows:]
    Offset Folios 641 to 647 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                             CAFE STANDARDS


                                WITNESS

KATHERINE SILVERTHORNE, STAFF ATTORNEY, U.S. PUBLIC INTEREST RESEARCH 
    GROUP
    Ms. Silverthorne. Sure, I'll go next. Mr. Chairman, members 
of the subcommittee, my name is Katherine Silverthorne and I am 
a staff attorney for U.S. PIRG, the national lobbying office 
for the State PIRGs. PIRGs are non-profit, non-partisan 
environmental and consumer watchdog groups with more than half 
a million members across the country and I appreciate the 
opportunity to testify on the importance of allowing the 
Department of Transportation to fulfill its responsibility to 
prescribe corporate average fuel economy standards for cars and 
light trucks.
    Widespread use of the automobile in the United States has 
meant independence, low-cost mobility, and convenience for the 
American people. But with those advantages has come a growing 
dependence on foreign oil and increasing level of air 
pollutants that threaten public health and contribute to global 
warming. CAFE standards, initiated in 1975, have helped to 
reduce these impacts by reducing the amount of fuel our 
vehicles consume. However, these standards have remained 
stagnant since the 1980s, lagging behind significant 
improvements in fuel economy technologies.
    Americans want to increase CAFE standards because of the 
resulting reductions in our dependence on foreign oil, 
reductions in the air pollutions that cause health problems and 
global warming, and greater savings at the gas pump.
    The 1973 oil embargo alerted us to the national security 
risk posed by our dependence on foreign oil. Two years later, 
the corporate average fuel economy standards were passed. The 
existing standards saved more than 3 million barrels of oil per 
day and, as Sierra Club pointed out before, the U.S. would be 
importing at least 1.5 million barrels a day more than we 
currently do now without these standards. However, now we have 
got the numbers of vehicles on the road escalating and gas-
guzzling light trucks are making up a larger and larger 
percentage of the vehicles that are out there and our 
dependence on foreign oil is growing.
    At this point, the United States is importing more than 
half our oil, compared to about one-third in 1973. 25 years 
ago, when CAFE standards were created, light trucks comprised 
less than 20 percent of the vehicle market and were primarily 
agricultural and commercial vehicles. And, for this reason, the 
law allowed these vehicles to have inferior fuel economy to 
cars. Today light trucks, a category encompassing sport utility 
vehicles, minivans, and pickup trucks, serve as family cars, 
often used for nothing more demanding than commuting and 
household errands.
    The loophole which allows these passenger vehicles to be 
gas guzzlers is driving up the demand for oil and increasing 
emissions of the pollution that causes health problems and 
global warming. By reducing oil use, CAFE standards help to 
protect the environment. Major environmental damage results 
from oil exploration, production, processing, and use. Reducing 
our oil consumption will help reduce urban air pollution and 
the economic and environmental damage that results from oil 
spills. Increasing CAFE standards is also one of the most 
important measures that we can take to reduce our emission of 
the pollution that causes global warming.
    The public is aware of the benefits of CAFE standards and 
polls consistently show that they support an increase in the 
standards. In October 1998, a Research Strategy Management 
Incorporated poll for the Sustainable Energy Coalition found 
that approximately 80 percent of registered voters favor 
raising fuel efficiency standards for automobiles and sport 
utility vehicles as a means to reduce our dependence on foreign 
oil. And, in that same month, a poll conducted by Melman Group 
on behalf of the World Wildlife Fund showed that 86 percent of 
voters favored requiring higher fuel efficiency for vehicles as 
a solution to the threat of global warming.
    The technology exists to enable automakers to greatly 
increase fuel economy over current standards and Americans want 
the environmental and economic benefits that these increases 
will bring. And foreign automakers are already producing more 
efficient cars. The question is will this be the year that 
Congress facilitates the removal of the perverse incentive in 
our fuel efficiency laws that cause more pollution and cost us 
more at the gas pump? PIRG would urge you to allow the 
Department of Transportation to require auto companies to offer 
efficient vehicles that satisfy the public demand for clean air 
and to help the environment. And, on behalf of our members, I 
am here to request that you not put a rider on this year's 
Appropriations Bill which would tie the agency's hands in this 
matter.
    Thank you.
    [The prepared statement of Katherine Silverthorne follows:]
    Offset Folios 653 to 654, 654\1/2\ to 656 Insert here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                             CAFE STANDARDS


                                WITNESS

COURTNEY CUFF, LEGISLATIVE DIRECTOR, FRIENDS OF THE EARTH
    Mr. Cuff. Good afternoon, Mr. Chairman, and members of the 
committee. My name is Courtney Cuff and I am a legislative 
director for Friends of the Earth, a national non-profit 
environmental organization. Thank you for the opportunity to 
appear here today. I would also like to applaud the chairman 
and the committee on their work to ensure that hazardous 
materials are safely transported on our roads and, certainly, 
to cut some highway demo projects. We appreciate those efforts 
and look forward to working with you in the future on those 
items.
    I am here today on behalf of our thousands of members 
nationwide to urge the subcommittee to allow the Department of 
Transportation to study and raise the corporate average fuel 
efficiency standards. When allowed to work, CAFE is a powerful 
tool in efforts to reduce our dependence on foreign oil, to 
clean our air, and to curb global warming. However, the DOT is 
currently not allowed to study or issue new CAFE regulations.
    Today oil prices are low and gasoline is plentiful. 
Automakers are building bigger sport utility vehicles, or SUVs, 
and consumers are buying them in record numbers. And why not? 
They are comfortable and fun to drive. Ads for SUVs portray 
them as a way to safely escape to nature. Unfortunately, these 
tremendous gas guzzlers are doing untold harm to nature and the 
health of our natural environment.
    Because of their increased size and weight, SUVs are 
extremely inefficient and polluting. Federal law gives the 
heaviest SUVs permission to emit higher levels of toxic and 
noxious pollutants such as carbon monoxide, hydrocarbons, and 
nitrous oxides. These heavy vehicles can spew 30 percent more 
carbon monoxide and hydrocarbons and 75 percent more nitrous 
oxide than regular passenger cars. These pollutants contribute 
to eye and throat irritation, coughing, nausea, dizziness, 
fatigue, confusion, and headaches. Hydrocarbons and nitrous 
oxides lead to groundlevel ozone and smog. This increased 
pollution makes it more difficult for us to maintain healthful 
standards for our air and our water.
    CAFE standards set fuel economy goals for cars and SUVs. 
For new cars, CAFE standards are currently 27.5 miles per 
gallon. For SUVs and other light trucks, the standard is only 
20.7 miles per gallon. This figure is an average that must be 
met by a fleet of vehicles, so some vehicles actually get much 
worse fuel efficiency. For example, the 1999 Lincoln Navigator, 
which someone earlier mentioned that was a price tag of 
$43,000, only gets 12 miles per gallon. That is pretty 
remarkable.
    This doesn't matter much to consumers when gas prices are 
low. But we cannot rely on gas prices staying this low forever. 
In fact, a recent Scientific American article argues that 
global production of conventional oil will begin to decline 
within 10 years. Gasoline prices can be unpredictable based on 
world events and it is shortsighted to expect that prices will 
remain low. If the DOT is not allowed to raise CAFE standards, 
American automakers will be caught unprepared when gas prices 
suddenly spike.
    When CAFE standards were created, light trucks and SUVs 
were used for mainly farm and commercial use. However, these 
days, they are used for commuting and other errands. SUVs are 
now used as cars and they should be held to the same standards 
as cars. As SUV sales grow, more and more automobiles on 
America's roads are gas hogs, exacerbating the threat of global 
climate change.
    Due to the growing popularity of SUVs and other light 
trucks, actually new vehicle fuel efficiency in 1997 was the 
lowest this decade, with domestic vehicles averaging only 23.4 
miles per gallon. CAFE helped the Nation make great gains in 
the fuel efficiency in the past few decades. Today we are 
throwing those gains away and taking a giant step backwards.
    Some consumers are attracted to SUVs, believing that small, 
fuel-efficient cars are unsafe. This is not exactly true. 
According to a 1991 GAO testimony, smaller cars are unsafe only 
when they are involved in accidents with much larger, heavier 
cars. GAO argued that, if all cars became lighter, the 
vulnerability of lighter cars would be offset by the reduced 
threat from heavier cars. Many consumers would benefit from 
buying more fuel efficient cars. They are cheaper to operate 
and lead to a cleaner environment, which benefits everyone.
    If we are going to seriously address automobile pollution, 
we must raise CAFE standards. As our country attempts to halt 
global climate change, it is more important than ever to 
recognize the connection between the cars we drive and 
increased pollution. CAFE standards can help address these 
problems, but only if they are allowed to work as Congress 
intended. The DOT must be allowed to update this valuable tool 
in the fight against fuel consumption, air pollution, and 
global warming. One last pitch: I hope that mass transit is 
fully and adequately funded. Thanks.
    [The prepared statement of Courtney Cuff follows:]
    Offset Folios 662 to 666 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                      Wednesday, February 10, 1999.

                             CAFE STANDARDS


                                WITNESS

RABBI DAVID SAPERSTEIN, DIRECTOR AND COUNSEL, RELIGIOUS ACTION CENTER 
    OF REFORM JUDAISM, COALITION ON THE ENVIRONMENT AND JEWISH LIFE
    Rabbi Saperstein. Mr. Chairman, I was out of town when the 
invitation came to testify here. My staff working long distance 
with me did a wonderful job in getting a draft in to you. But 
since I have come back with all the same points that are the 
same, I hope you will allow the written version to be submitted 
into the record. And I am not going to read my testimony. My 
friends and colleagues here have spoken quite articulately on 
the matter and you have shown unbelievable patience, all of 
you, in listening so carefully to the testimony here.
    Let me speak just for a few minutes from a different 
perspective. I am David Saperstein, the director and counsel to 
the Religious Action Center of Reform Judaism. And I am here 
today representing a broad coalition of national Jewish 
organizations and the National Council of Churches Coalition of 
38 national denominations of faith groups and the orthodox and 
Christian communities.
    Your broad spectrum of the religious community today is 
deeply concerned about protecting the creation that God has 
entrusted us. The National Council of Churches recently 
distributed materials on global climate change to 70,000 
congregations. The Coalition on Environment and Jewish Life, 
the umbrella group in the Jewish community is engaged in an 
extensive network of national and local Jewish organizations 
aimed at cleaning up the Nation's air. The U.S. Catholic 
Conference has long been involved in issues of energy 
conservation. The Evangelical Christian Environmental Council 
recently adopted a resolution calling on us to protect God's 
creation from the dangers of global climate change.
    Each of these communities has engaged these issues out of 
deep religious conviction and concern about our fundamental 
responsibilities to each other, to our creator, and to our 
creation. I don't come here as an expert on automobile 
emissions technology. But this is a hearing that is far from 
being technical.
    It goes to some of the core values that the religious 
community shares in common. Let me use my few minutes just to 
mention what they are: First, the saving of life. The infinite 
value of human life. In my tradition this is called 
``Paqafnifish,'' that the saving of human life and human health 
takes precedence over all else, except devotion to God.
    And CAFE standards save lives. It is as simple as that. The 
less pollution, the less emissions, the less smog, the less 
soot, the less pollutants that choke the lungs particularly of 
the most vulnerable of children and the elderly and the ill 
causing and exacerbating pulmonary and respiratory ailments, 
all too often leading to death. With 500,000 fewer tons of 
carcinogenic hydrocarbons emitted into the air because of the 
existing CAFE standards, they save lives. That is a religious 
task. Trying to fairly evaluate what an increase in CAFE 
standards would mean to us is also being involved in the 
process of saving lives. It is something that we have an 
obligation to do.
    Secondly, where human health and human life is concerned, 
each of our religious traditions, in slightly different ways 
deals very honestly with the question of uncertainty. I mean we 
can't prove every statistic will actually result in certain 
results. But each of us deals with that in very clear moral 
terms, stating that, where human life is involved, we err on 
the side of protecting human life.
    Third, each of our traditions deals realistically with 
economics, believes that there has to be an opportunity for 
people to engage in business and to deal with economics. The 
economic realities at large. I truly believe, as do the faith 
groups that I represent here today and as do so many who have 
looked at this issue, that controlling emissions and with 
resulting energy efficiencies that will make in the reduction 
of dependence on fuel, including foreign oil, in the long-run 
is good for the economy. Not just the money, the $3,000 a year 
that is going to be saved over the lifetime of a car by each 
person because of the reason CAFE standards exist and intended 
savings in the future, but simply because the more energy 
efficient our country is, the more effective our economy will 
be.
    And, fourth, just as importantly, more efficient cars means 
less reliance on foreign oil. Half of the oil we use to fuel 
our cars, is used to fuel our cars. It is exactly the amount we 
export from abroad. So let me say a word of particular concern 
to the Jewish community, for more than 20 years we have 
supported strong CAFE standards and similar strong energy 
conservation, first because they are morally right. Second, 
because they are good for America. Third, because they save 
lives. But fourth, in part, because we realize a dependence on 
foreign oil can distort our Nation's foreign policy objectives.
    Over the years, as circumstance would have it, oil profits 
have been used to prop up a number of regimes whose values and 
interests have been inimical to our own. Certainly dependence 
on oil has provided many Middle East oil producing nations with 
the lever to manipulate the foreign policy of many nations on 
issues of concern in the Middle East ranging from our concern 
about their domestic policies to Middle East peace.
    Reduce our dependence on foreign oil, share our 
technological innovations to help reduce the dependence of 
other oil importing nations as well, and we help ensure the 
policy autonomy of nations across the globe; the basic human 
rights, with which all human beings are endowed. The peace in 
the Middle East for which we yearn may seem a long way from 
CAFE standards, energy conservation, and efficiency, but, in 
fact, they are inexorably linked.
    Finally, we have an opportunity to do something, to do 
something to make a difference, and to do it fairly. If we 
don't look at what increasing CAFE standards can mean to us as 
a society, if we don't look at what they mean if they are 
applied to all the new vehicles that we have discussed that 
have come on line, we are really turning our backs on the 
responsibility we have to at least find out the knowledge of 
what we can do to make this world a better place. I would urge, 
whatever the justification was in the past, that the rider be 
lifted this year, that the exploration and examination of CAFE 
standards and what they mean can go forward, recommendations 
come from the administration, and then you will decide. You 
will decide based on the power of those arguments.
    But that is a debate Americans deserve. And that is a 
debate I trust that you will lead this country in reaching an 
end that will serve the protection of human life all across 
this land. Thank you very much.
    Mr. Wolf. I want to thank you all for your testimony. 
Appreciate it very much. The hearing is adjourned.
    [The prepared statement of David Saperstein and additional 
material for the record follow:]
    Offset Folios 673 to 693, 695 to 878, 878\1/2\ to 988, 
988\1/2\, 989 to 1284/1500 Insert Here


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                           W I T N E S S E S

                               __________
                                                                   Page
Blake, Carl......................................................   823
Bowers, Todd.....................................................   677
Breckler, Steven J...............................................   763
Cantor-McKinney, Suzy............................................   382
Casey, General George W. Jr......................................   986
Cleland, the Honorable Max.......................................     5
Connor, Charles D................................................   735
Conway, General James T..........................................   163
Cox, Timothy.....................................................    61
Darcy, the Honorable Jo-Ellen....................................    43
Davis, John......................................................   745
Ferguson, Kathleen I.............................................   326
Hale, the Honorable Robert F.....................................   531
Hansen, L. Jerry.................................................   302
Hilleman, Eric A.................................................   857
Hruska, Kelly....................................................  1071
Insel, Thomas....................................................   661
Jones, Rick......................................................   778
Kasold, the Honorable Bruce E....................................    26
Katz, Ira........................................................   648
Keller, Dr. Mary.................................................  1098
Kelley, Raymond C................................................   875
Kent, Sergeant Major Carlton W...................................  1155
McCauslin, John R. ``Doc''.......................................   723
Mittal, Anu......................................................   365
Natsuhara, Roger M...............................................   314
Petraeus, General David H........................................   410
Preston, Sergeant Major Kenneth O................................  1118
Riley, Philip D..................................................   804
Robyn, Dorothy.................................................289, 539
Roughead, Admiral Gary...........................................   152
Roy, Chief Master Sergeant James A...............................  1199
Sanders, Lawrence................................................   794
Schwartz, General Norton A.......................................   497
Searle, Barry....................................................   819
Sharp, General Walter L..........................................   938
Shinseki, the Honorable Eric K...................................    83
Stavridis, Admiral James G.......................................   199
Upson, Dona......................................................   757
Walker, James R..................................................   768
West, Chief Petty Officer Rick...................................  1181
Willard, Admiral Robert F........................................   926
Wilson, John.....................................................   835


                               I N D E X

                               __________

                  AMERICAN BATTLE MONUMENTS COMMISSION

                                                                   Page
Chairman, Statement of...........................................     1
Cleland, Prepared Statement of the Honorable Max.................    10
Cleland, Statement of the Honorable Max..........................     5
Department of the Interior, Partnering with......................    20
Interpretive Centers.............................................    19
Manila, Philippines..............................................    21
Pacific Heritage, Honoring of....................................    23
Ranking Minority Member, Statement of............................     3

                     UNITED STATES COURT OF APPEALS

Caseload Increase................................................    37
Chairman, Statement of...........................................    25
Court House Costs................................................    36
Kasold, Prepared Statement of the Honorable Bruce E..............    28
Kasold, Statement of the Honorable Bruce E.......................    26
Legal Assistance for Vets........................................    40

                      ARLINGTON NATIONAL CEMETERY

Amphitheater.....................................................    54
Burial and Cremation, Trends in..................................    52
Chairman, Statement of the.......................................    43
Darcy, Prepared Statement of the Honorable Jo-Ellen..............    46
Darcy, Statement of the Honorable Jo-Ellen.......................    43
Historical Significance..........................................    53
Long-Term Projections for Arlington National Cemetery............    52
Millennium Project...............................................    57
Robert L. Howard and Medal of Honor Recipients...................    58
Tomb of the Unknown Soldier Cracks...............................    54
Total Cemetery Management System.................................    56
West Coast as Expansion Option...................................    55

                      ARMED FORCES RETIREMENT HOME

Admission, Criteria for..........................................73, 75
Chairman, Statement of the Chairman..............................    61
Cox, Prepared Statement of Timothy...............................    65
Cox, Statement of Timothy........................................    61
Green House Retirement Living....................................    75
Gulfport Barrier Islands.........................................    74
Gulfport Facility................................................    73
Lessons Learned at Gulfport......................................    75
Waiting List.....................................................    73

                            VETERANS AFFAIRS

California State Cemeteries......................................   120
Call Center Hours, Extending.....................................   119
Chairman, Statement of...........................................    79
Chattanooga, Tennessee...........................................   119
Children's Health................................................   119
Claims Backlog.............................................99, 105, 110
Future Veteran Population........................................   117
G.I. Bill........................................................   116
Homeless Veterans................................................   109
Homelessness.....................................................   111
Hospitals........................................................   121
Mental Health....................................................   115
National Cemeteries--Change in Policy............................   105
New Cemeteries...................................................   103
Pharmaceuticals..................................................   104
Program Funding..................................................   123
Ranking Minority Member, Statement of............................    80
Shinseki, Prepared Statement of the Honorable Eric K.............    86
Shinseki, Statement of the Honorable Eric K......................    83
Southeast Asia...................................................   110
VERA Distributions...............................................   123
Veterans History Project.........................................   102

                         NAVY AND MARINE CORPS

AFRICOM (Djibouti) Projects......................................   195
Blount Island....................................................   186
Chairman, Statement of...........................................   151
Congressman Crenshaw, Statement of...............................   151
Conway, Prepared Statement of General James T....................   165
Conway, Statement of General James T.............................   163
Deployment, Impact on Families...................................   178
Futenma Replacement Facility.....................................   194
Growing the Marine Corps and Temporary Facilities................   194
Homeport Ashore..................................................   195
Inadequate Housing...............................................   181
Littoral Combat Ships............................................   185
Marine Gunnery Sergeant John David Fry...........................   175
Mayport Naval Station............................................   176
Navy Barracks..................................................182, 193
Nuclear Weapons Security.........................................   196
Okinawa to Guam Move.............................................   175
Public-Private Partnership Program...............................   187
Roughead, Prepared Statement of Admiral Gary.....................   154
Roughead, Statement of Admiral Gary..............................   152
Shore Infrastructure, Risk in....................................   194
Stabilization and Reconstruction.................................   189

                            EUROPEAN COMMAND

Afghanistan......................................................   270
Arctic...........................................................   281
Area of Focus....................................................   264
Balkans..........................................................   265
Chairman, Statement of...........................................   197
Child Care Centers...............................................   283
Comprehensive Approach...........................................   269
Cost Sharing and Efficiencies....................................   267
DoD Schools......................................................   276
France...........................................................   263
Georgia..........................................................   264
Health Care......................................................   284
Inadequate Housing...............................................   274
Interagency Cooperation..........................................   266
Interagency Cooperation..........................................   268
Landstuhl Regional Medical Center................................   279
Landstuhl........................................................   285
Littoral Combat Ships............................................   278
MilCon Costs Associated with Move of Brigade Combat Teams........   273
Missile Defense..................................................   271
NATO Allies......................................................   272
Norway...........................................................   279
Private Housing..................................................   282
Ranking Minority Member, Statement of............................   197
Romania and Bulgaria.............................................   285
Stavridis, Prepared Statement of Admiral James G.................   201
Stavridis, Statement of Admiral James G..........................   199

                      BASE REALIGNMENT AND CLOSURE

BRAC Sites not Cleaned up, Number of.............................   395
Bureau of Land Management........................................   362
Cantor-McKinney, Prepared Statement of Suzy......................   385
Cantor-McKinney, Statement of Suzy...............................   382
Chairman, Statement of...........................................   287
Cleanup Estimates................................................   393
Cleanup........................................................347, 360
Continuing Resolution Implications...............................   355
Contractors......................................................   394
Economic Development Conveyance Implementation...................   359
Economic Development Conveyance..................................   349
Environmental Cleanup............................................   401
Ferguson, Prepared Statement of Kathleen I.......................   328
Ferguson, Statement of Kathleen I................................   326
Fort Bliss, Texas................................................   358
Fort Bragg, North Carolina.......................................   345
Hansen, Prepared Statement of L. Jerry...........................   304
Hansen, Statement of L. Jerry....................................   302
Infrastructure Reduction.........................................   401
Initial Cost Analysis and Actual Cost............................   350
Joint Basing.....................................................   353
Lessons Learned..................................................   352
Mittal, Prepared Statement of Anu................................   367
Mittal, Statement of Anu.........................................   365
Natsuhara, Prepared Statement of Roger M.........................   318
Natsuhara, Statement of Roger M..................................   314
New Start........................................................   401
Ranking Minority Member, Statement of............................   287
Relocatable Facilities, Use of...................................   343
Robyn, Prepared Statement of Dorothy.............................   292
Robyn, Statement of Dorothy......................................   289
San Antonio, Texas...............................................   345
Savings..........................................................   401
Statutory Deadlines, Impact of...................................   342
Temporary Costs, Newly Identified................................   356
Temporary Expenses...............................................   346
Undersea Remediation.............................................   363
UXO Cleanup......................................................   392
Walter Reed Army Medical Center..................................   344

                            CENTRAL COMMAND

Afghan Governance................................................   481
Afghanistan, Longer Term Force Posture...........................   494
Chairman, Statement of...........................................   409
Civilian Response Corps..........................................   474
Construction Needs in Afghanistan................................   493
Draw Down........................................................   477
Drug War in Afghanistan..........................................   479
Flexibility in Theater MilCon....................................   494
Gays in the Military.............................................   489
Goals Accomplished...............................................   486
Infrastructure.................................................473, 479
Institutions.....................................................   476
Iraq, Lessons Learned in.........................................   471
Marjah...........................................................   480
MilCon Programs, Flexibility with................................   471
NATO Training Mission............................................   482
Pakistan.........................................................   491
Petraeus, Prepared Statement of General David H..................   416
Petraeus, Statement of General David H...........................   410
Piracy Threat....................................................   484
Ranking Minority Member, Statement of............................   409
Security in the Region...........................................   487
Unified Command Plan.............................................   482

                               AIR FORCE

Afghanistan, Military Construction in............................   526
Budget, Balancing................................................   522
Chairman, Statement of...........................................   497
COCOM Requirements...............................................   530
Dormitory Master Plan, Management of.............................   527
Engineers........................................................   521
Environmental Impact Study.......................................   515
F-35 Beddown.....................................................   525
F-35 Joint Strike Fighter Timetable..............................   519
Guam.............................................................   523
Inadequate Housing...............................................   518
Joint Cargo Aircraft.............................................   517
MilCon Priorities................................................   513
Overseas Readiness...............................................   514
Panama Canal.....................................................   521
Quadrennial Defense Review and ``Resiliency'' of Facilities......   526
Ranking Minority Member, Statement of............................   497
Remotely Piloted Aircraft........................................   514
Schwartz, Prepared Statement of General Norton A.................   500
Schwartz, Statement of General Norton A..........................   497
Strategic Basing Process.........................................   525
Surge Capabilities...............................................   514
U.S. Cyber Command...............................................   530
U.S. Strategic Command, Offutt AFB, Nebraska.....................   529
Unfunded Requirements, Air National Guard and Air Force Reserve..   527

                              DoD OVERVIEW

Afghanistan, MilCon for ``Enduring'' Bases in....................   585
Afghanistan, MilCon in...........................................   581
Base Realignment and Closure 2005 Account Unobligated Balances...   646
Bid Savings......................................................   565
Chairman, Statement of...........................................   531
Construction Materials/Labor, Competition for....................   587
Cyber Command....................................................   585
Department of State, National Security Involving.................   571
DoD Schools, Improving Quality of................................   578
Energy Consumption...............................................   568
Family Housing...................................................   584
Family Housing, Privatized.......................................   572
Federal Leadership in Environmental, Energy and Economic 
  Performance....................................................   646
Green Construction, Military Training for........................   570
Guam...........................................................559, 583
Guam, Environmental Impact Statement for.........................   563
Guam, Whole-of-Government Approach for...........................   563
Guard/Reserve Op Tempo/Budget Request............................   587
Hale, Prepared Statement of the Honorable Robert F...............   534
Hale, Statement of the Honorable Robert F........................   531
Homeowners Assistance Program....................................   588
Housing, Unaccompanied Personnel.................................   584
International Military Education Training........................   580
Joint Basing.....................................................   588
Korea, Tour Normalization in...................................577, 585
Mayport Naval Station............................................   558
Pay Raise........................................................   579
Quadrennial Defense Review and ``Resiliency''....................   583
Quadrennial Defense Review and BRAC Completion...................   557
Quadrennial Defense Review.......................................   585
Robyn, Prepared Statement of the Honorable Dorothy...............   541
Robyn, Statement of the Honorable Dorothy........................   539
Stabilization and Reconstruction.................................   581
TRICARE..........................................................   566
Tuition Assistance for Family Members..........................564, 565
Unaccompanied Housing, Privatized................................   575

                            VA MENTAL HEALTH

Access to Mental Health Care.....................................   690
Bowers, Prepared Statement of Todd...............................   681
Bowers, Statement of Todd........................................   677
Chairman, Statement of...........................................   647
Homeless Veterans................................................   706
Insel, Prepared Statement of Thomas..............................   664
Insel, Statement of Thomas.......................................   661
Joblessness......................................................   698
Katz, Prepared Statement of Ira..................................   650
Katz, Statement of Ira...........................................   648
Outreach.........................................................   688
Research Budget..................................................   672
Temporal Sequence................................................   673
Transition Program...............................................   687
Veterans' Needs, Meeting.........................................   703

                           OUTSIDE WITNESSES

Blake, Statement of Carl.........................................   823
Breckler, Statement of Steven J..................................   763
Chairman, Statement of...........................................   723
Connor, Statement of Charles D...................................   735
Davis, Statement of John.........................................   745
Hilleman, Statement of Eric A....................................   837
Jones, Statement of Rick.........................................   778
Kelley, Statement of Raymond C...................................   875
McCauslin, Statement of John R. ``Doc''..........................   723
Riley, Statement of Philip D.....................................   804
Sanders, Statement of Lawrence...................................   794
Searle, Statement of Barry.......................................   818
Upson, Statement of Dona.........................................   757
Walker, Statement of James R.....................................   768
Wilson, Statement of John........................................   835

                            PACIFIC COMMAND

Chairman, Statement of...........................................   925
Challenges.......................................................   972
Crenshaw, Statement of Congressman...............................   925
Guam...........................................................965, 980
International Military Education Program.........................   966
International Traffic............................................   979
Japan, Realignment of U.S. Forces in.............................   964
Korea............................................................   967
Korea, Accompanied Tours in......................................   969
Naval Facilities Command.........................................   982
Republic of Korea................................................   974
Schools..........................................................   971
Sharp, Prepared Statement of General Walter L....................   940
Sharp, Statement of General Walter L.............................   938
SOFA.............................................................   976
Wartime Control..................................................   974
Willard, Prepared Statement of Admiral Robert F..................   928
Willard, Statement of Admiral Robert F...........................   926
Yongsan..........................................................   977

                                  ARMY

Adequate Barracks and Motor Pool Space upon Return...............  1067
Army BRAC 2005...................................................  1066
Army Modular Force...............................................  1067
Army National Guard..............................................  1056
Army Soldiers, Percentage Killed in Iraq and Afghanistan.........  1062
Barracks Construction............................................  1059
Casey, Prepared Statement of General George W. Jr................   990
Casey, Statement of General George W. Jr.........................   986
Chairman, Statement of...........................................   985
Defense Language Institute.......................................  1056
Deployments......................................................  1056
Fiscal Year 2011 Military Construction Budget Request............  1066
Force Structure..................................................  1060
Inadequate Overseas Housing......................................  1065
Incrementally Funded Projects....................................  1066
Mental Health Services...........................................  1060
Mental Health....................................................  1061
National Institutes and Health Study on Suicide Prevention.......  1065
Ranking Minority Member, Statement of............................   985
Restoring Balance................................................  1063
Stabilization and Reconstruction.................................  1059
Sustainment......................................................  1056
Training Needs...................................................  1055
Volunteer Force..................................................  1056
Warrior in Transition Complexes..................................  1065

                            QUALITY OF LIFE

Chairman, Statement of...........................................  1069
Childcare........................................................  1110
Comprehensive Soldier Fitness....................................  1221
Congressional Military Family Caucus.............................  1113
Contractors in Theater, Army.....................................  1230
Crenshaw, Statement of Congressman...............................  1069
Department of Education and Military Families....................  1110
Deployments......................................................  1225
Guard and Reserve Families.......................................  1115
Homeowners Assistance Program................................1217, 1220
Hruska, Prepared Statement of Kelly..............................  1074
Hruska, Statement of Kelly.......................................  1071
Impact Aid.......................................................  1114
Individual Augmentees............................................  1229
Keller, Prepared Statement of Dr. Mary...........................  1101
Keller, Statement of Dr. Mary....................................  1098
Kent, Prepared Statement of Major Carlton W......................  1156
Kent, Statement of Sergeant Major Carlton W......................  1155
Mayport Naval Station............................................  1218
Medical Care/PTSD, Guard and Reserve.............................  1232
Older Children Adjusting to Deployments..........................  1110
Preston, Prepared Statement of Sergeant Major Kenneth O..........  1120
Preston, Statement of Sergeant Major Kenneth O...................  1118
Privatized Housing Program.......................................  1224
Returning Warrior Weekends.......................................  1224
Roy, Prepared Statement of Chief Master Sergeant James A.........  1201
Roy, Statement of Chief Master Sergeant James A..................  1199
School Construction Needs due to BRAC............................  1114
Special Needs Children...........................................  1111
Suicide Prevention...............................................  1223
Suicide Prevention, Guard and Reserve............................  1224
Suicide Rates....................................................  1221
West, Prepared Statement of Chief Petty Officer Rick.............  1182
West, Statement of Chief Petty Officer Rick......................  1181

                                  <all>

</pre></body></html>
